<html>
<title> - WEAPONS OF MASS DESTRUCTION: CURRENT NUCLEAR PROLIFERATION CHALLENGES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 WEAPONS OF MASS DESTRUCTION: CURRENT NUCLEAR PROLIFERATION CHALLENGES

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                  EMERGING THREATS, AND INTERNATIONAL

                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2006

                               __________

                           Serial No. 109-242

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                      U.S. GOVERNMENT PRINTING OFFICE
35-767 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
              R. Nicholas Palarino, Ph.D., Staff Director
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2006...............................     1
Statement of:
    Blix, Hans, chairman, the Weapon of Mass Destruction 
      Commission.................................................    21
    Graham, Ambassador Thomas, Jr., chairman, Bipartisan Security 
      Group, Global Security Institute; Baker Spring, F.M. Kirby 
      research fellow for National Security Policy, the Heritage 
      Foundation; Jonathan Granoff, president, Global Security 
      Institute; Henry D. Sokolski, Nonproliferation Policy 
      Education Center; and Frank von Hippel, co-chairman, 
      International Panel on Fissile Materials...................   142
        Graham, Ambassador Thomas, Jr............................   142
        Granoff, Jonathan........................................   171
        Sokolski, Henry D........................................   199
        Spring, Baker............................................   159
        von Hippel, Frank........................................   210
    Tobey, William H., Deputy Administrator for Defense Nuclear 
      Proliferation, National Nuclear Security Administration, 
      Department of Energy; Andrew K. Semmel, Deputy Assistant 
      Secretary, International Security and Nonproliferation, 
      Department of State; Jack David, Deputy Assistant Secretary 
      of Defense for Combating Weapon of Mass Destruction and 
      Negotiations Policy, Department of Defense; and Gene 
      Aloise, Director, Natural Resources and Environment, 
      Government Accountability Office...........................    60
        Aloise, Gene.............................................    92
        David, Jack..............................................    86
        Semmel, Andrew K.........................................    73
        Tobey, William H.........................................    60
Letters, statements, etc., submitted for the record by:
    Aloise, Gene, Director, Natural Resources and Environment, 
      Government Accountability Office, prepared statement of....    94
    Blix, Hans, chairman, the Weapon of Mass Destruction 
      Commission, prepared statement of..........................    25
    David, Jack, Deputy Assistant Secretary of Defense for 
      Combating Weapon of Mass Destruction and Negotiations 
      Policy, Department of Defense, prepared statement of.......    88
    Graham, Ambassador Thomas, Jr., chairman, Bipartisan Security 
      Group, Global Security Institute, prepared statement of....   144
    Granoff, Jonathan, president, Global Security Institute, 
      prepared statement of......................................   174
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
    September 25, 2006 Time article..............................    14
    June 18, 2006 Washington Post article........................    51
    Semmel, Andrew K., Deputy Assistant Secretary, International 
      Security and Nonproliferation, Department of State, 
      prepared statement of......................................    76
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Sokolski, Henry D., Nonproliferation Policy Education Center, 
      prepared statement of......................................   203
    Spring, Baker, F.M. Kirby research fellow for National 
      Security Policy, the Heritage Foundation, prepared 
      statement of...............................................   161
    Tobey, William H., Deputy Administrator for Defense Nuclear 
      Proliferation, National Nuclear Security Administration, 
      Department of Energy, prepared statement of................    63
    von Hippel, Frank, co-chairman, International Panel on 
      Fissile Materials, prepared statement of...................   213
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


 WEAPONS OF MASS DESTRUCTION: CURRENT NUCLEAR PROLIFERATION CHALLENGES

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:35 p.m. in 
room 2157, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich, Waxman, Lynch, 
Duncan, Porter, Platts, and Van Hollen.
    Staff present: J. Vincent Chase, chief investigator; R. 
Nicholas Palarino, Ph.D., staff director; Robert A. Briggs, 
analyst; Kaleb Redden, Presidential management fellow; Karen 
Lightfoot, minority communications director/senior advisor; 
Andrew Su, minority professional staff member; Earley Green, 
minority chief clerk; and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Weapons of Mass Destruction: 
Current Nuclear Proliferation Challenges,'' is called to order.
    If the Treaty on Non-Proliferation of Nuclear Weapons, NPT, 
had not been created nearly 40 years ago and consistently 
upheld, it is likely there would be many more countries with 
nuclear weapons. As President Ronald Reagan urged at the 15th 
signing anniversary of the NPT, ``All states should rededicate 
themselves to achieving the purposes of this important treaty 
and to ensure its continued vitality.''
    Since 1968, nearly 190 nations have signed on to the NPT 
and pledged not to pursue nuclear weapons nuclear weapons in 
exchange for access to the benefits of peaceful nuclear 
technology and a commitment by the United States, Russian, 
France, Britain, and China, all nuclear-weapon states, to 
negotiate nuclear disarmament.
    In 1987 President Reagan encapsulated a key point of the 
NPT's success when he famously said to then-Soviet Leader 
Mikhail Gorbachev, ``Trust, but verify.'' The International 
Atomic Energy Agency, the IAEA, safeguards system verifies 
compliance with the NPT. This system has been the cornerstone 
of efforts to prevent the proliferation of nuclear weapons, but 
a powerful global nuclear threat still remains today. The 
treaty obviously is not perfect. States such as India, 
Pakistan, and North Korea have declared the have nuclear 
weapons. Terrorist organizations such Al Qaeda continue to seek 
chemical, biological, radiological, and even nuclear weapons.
    In the face of these threats, rededication to the NPT is 
especially critical to ensure international peace, stability, 
and security.
    Today we focus on challenges the world community faces from 
nuclear weapons proliferation and how the nonproliferation 
regime can be strengthened to effectively counter this threat 
to our civilization.
    We look forward to three panels of distinguished witnesses 
testifying before our committee today who will answer these 
questions:
    Why has the Treaty on Non-Proliferation of Nuclear Weapons 
failed to prevent the spread of nuclear weapons?
    Second, what steps should be taken to strengthen compliance 
with the Treaty on the Non-Proliferation of Nuclear Weapons?
    We will first hear from Dr. Hans Blix, formerly the chief 
of United Nations weapons inspection in Iraq and now chairman 
of the Weapons of Mass Destruction Commission.
    On panel two we are joined by Mr. William Tobey, Deputy 
Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration, Department of Energy; Mr. 
Andrew Semmel, Deputy Assistant Secretary of State, 
International Security and Nonproliferation, Department of 
State; Mr. Jack David, Deputy Assistant Secretary of Defense 
for Combating Weapons of Mass Destruction and Negotiations 
Policy, Department of Defense; and Mr. Gene Aloise, Director, 
Natural Resources and Environment, Government Accountability 
Office.
    Our third panel of witnesses include Ambassador Thomas 
Graham, chairman of the Bipartisan Security Group, Global 
Security Institute; Mr. Baker Spring, the F. M. Kirby Research 
Fellow for National Security Policy, The Heritage Foundation; 
Mr. Jonathan Granoff, President, Global Security Institute; Mr. 
Henry Sokolski, Executive Director of the Nonproliferation 
Education Center; and Professor Frank von Hippel, Co-Chairman 
of the International Panel on Fissile Materials.
    We welcome all of our witnesses.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.001
    
    [GRAPHIC] [TIFF OMITTED] 35767.002
    
    [GRAPHIC] [TIFF OMITTED] 35767.003
    
    Mr. Shays. At this time we will recognize the distinguished 
ranking member of the subcommittee, Mr. Kucinich.
    Mr. Kucinich. And I would like to yield to the 
distinguished ranking member of the full committee.
    Mr. Shays. Absolutely.
    Mr. Kucinich. Mr. Waxman from California.
    Mr. Shays. The gentleman, Mr. Waxman, has the floor.
    Mr. Waxman. Thank you both very much, particularly Mr. 
Kucinich, because I do have a conflict in my schedule and 
wanted to go ahead of him.
    Mr. Chairman, I am pleased you have called this important 
hearing.
    I want to extend a special welcome to Dr. Blix. It is an 
honor to have you here today.
    I would like to focus my opening statement on Iraq. As we 
all know, President Bush took this Nation to war based on his 
claim that Saddam Hussein would provide nuclear weapons to 
terrorists unless the United States forcibly stopped him. 
Exaggerated claims were also made by Vice President Cheney and 
Defense Secretary Rumsfeld. On the eve of the war, for example, 
the Vice President declared Saddam Hussein had reconstituted 
nuclear weapons, and the Defense Security boasted he knew 
precisely where those nuclear weapon of mass destruction were 
located.
    Well, all of them proved false. No weapon of mass 
destruction were found. We learned the President's nuclear 
claims were based on obviously forged and discredited documents 
and information, and we discovered Saddam Hussein's 
relationship with Al Qaeda was actually one of acrimony rather 
than cooperation.
    As a result of the administration's rush to war, the United 
States now finds itself in an intractable, expensive, and 
worsening crisis. A string of recent reports suggests that the 
administration's entire effort in Iraq is coming apart at the 
seams. For example, yesterday the L.A. Times reported, Army 
Chief of Staff General Peter Schoomaker took the unprecedented 
step of withholding a mandatory budget plan as a protest to 
Secretary Rumsfeld that the Army could not maintain its current 
activity levels in Iraq. The general is seeking a stunning 41 
percent increase over current funding levels.
    Also yesterday, the nonpartisan Government Accountability 
Office issued a report revealing the Pentagon's own auditors 
have identified $3.5 billion in questioned and unsupported 
charges by contractors in Iraq--$3.5 billion. That is 
astonishing. That is an amount as much as we have spent on the 
entire reconstruction of Afghanistan.
    Earlier this month, General Mark Scheid, the Chief of 
Logistics War Plans for Afghanistan and Iraq, complained that 
Secretary Rumsfeld actually prohibited post-war planning, 
fearing that the American public would not support a sustained 
occupation. And when General Scheid argued that this planning 
was critical, Secretary Rumsfeld said he would fire the next 
person that said that.
    But the most damning indictment, however, came this weekend 
when press reports revealed that American intelligence agencies 
completed a national intelligence estimate concluding that the 
Iraq war has increased the danger of terrorism against the 
United States, spawning a new generation of Islamic radicalism.
    According to these press reports, all of the 
administration's 16 intelligence agencies disagree with claims 
by the President and Republican congressional leaders that the 
war in Iraq has made us safer. To the contrary, they believe 
that the war in Iraq has made the threat of terrorism worse by 
fanning Islamic extremism and providing a training ground for 
lethal methods that are exported to other countries.
    The litany of incompetence is staggering. It is as if a 
massive category ten version of Hurricane Katrina struck the 
Middle East, and the Bush administration was called in to 
handle the response. But no matter how bad things get, the 
President's reflexive response is ``stay the course.'' And Vice 
President Cheney, like Michael Brown of this disaster, 
continues to insist that he would not have done a single thing 
differently.
    Today, I hope that Dr. Blix can shed some light on how the 
United States can avoid these pitfalls in the future, 
especially as the Bush administration is confronted with the 
delicate diplomatic task of coaxing Iran to fully adopt the 
goals of nuclear nonproliferation and we confront North Korea 
with the risk of nonproliferation, as well as we fear he may 
sell his weapons, even nuclear weapons, to terrorists.
    Mr. Chairman, I am pleased we are holding this hearing. 
Let's get some more information and hopefully we won't make the 
same mistakes again.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.004
    
    [GRAPHIC] [TIFF OMITTED] 35767.005
    
    [GRAPHIC] [TIFF OMITTED] 35767.006
    
    [GRAPHIC] [TIFF OMITTED] 35767.007
    
    Mr. Shays. I thank the gentleman very much.
    At this time Mr. Waxman would have been recognized, so I am 
assuming, Mr. Kucinich, you now have the floor.
    Mr. Kucinich. I want to thank Mr. Waxman for his statement 
and for his leadership.
    Mr. Chairman, thank you for calling this subcommittee 
meeting. I think it was on June 6, 2006, our witness Dr. Blix 
was on Meet the Press and he was asked could the war in Iraq 
have been avoided. That is a compelling question, not only with 
respect to the discussion of weapon of mass destruction, but 
looking at the path the administration has set us upon, a path 
of preemption and unilateralism, the question could a war be 
avoided is instructive not only with respect to reflecting on 
what has passed, but in looking at what is prologued. so we are 
not only here talking about forensics; we are speaking about 
the future of the world and our capability to be able to assess 
what is happening and get what is really going on and be able 
to, from that point, draw policies for our Nation and the world 
which are sane and which are true.
    Our country has lost credibility. In the last 6 years the 
U.S. administration has backtracked on international treaties 
and conventions, the administration misused the threat of 
weapon of mass destruction to invade Iraq, and the 
administration has pursued inconsistent approaches to nations 
who have or are seeking nuclear weapons.
    One of the biggest challenges to our nonproliferation goals 
may, in fact, be our own policies and actions. The U.S. had 
rejected the Comprehensive Test Ban Treaty, refused to sign the 
Land Mine Treaty, withdrawn from the ABM Treaty, has not or 
unsigned the Kyoto Protocol, blocked the Verification Protocol 
for the Biological Weapons Convention, and this week, at the 
request of the President, Congress is poised to legalize 
torture of foreign nationals, despite the Geneva Conventions.
    The U.S. administration has established a record of 
unilateralism that undercuts our Nation's credibility in the 
eyes of the world. The U.S. invaded Iraq in March 2003, despite 
the lack of reliable evidence of weapon of mass destruction by 
U.N. inspectors, and in response this administration championed 
multiple justifications for the invasion of Iraq, such as 
regime change and democracy. The evolving justifications led to 
increased uneasiness in the world about U.S. intentions.
    Think about it for a moment. We were told and have been 
told repeatedly, well, it was just bad intelligence, when, in 
fact, now we are seeing that there are numerous people 
throughout the Federal Government who warned the administration 
that the information they were about to offer to the public as 
a justification for the war was false, fraudulent, hoax.
    And so we are here in part to reassess the awful path that 
has been taken, policies built on a potempkin village of 
massive fraud and lies. It is good that Mr. Blix is here. Thank 
you, because when you ask could the war be avoided, Mr. Blix 
said on Meet the Press, ``I think so. We carried out about 700 
inspections. We have been to about three dozens of sites which 
the intelligence had given us, and in none of these cases did 
we find any weapon of mass destruction. If we had been allowed 
a couple of months more we would have been able to go to all of 
the sites given by intelligence and found no weapons since 
there weren't any.''
    What was the rush to war all about? Somebody owes an 
explanation to the 2,700 families of American soldiers who gave 
their life. What was this war about? And what about all of the 
ones who have been injured? What about the maybe 200,000 Iraqis 
that have lost their lives and perhaps a million that have been 
injured. What was it all about? What was the rush about?
    The growing lack of U.S. credibility greatly affects the 
perception of U.S. objections to an Iranian nuclear program. 
The administration has drawn a hard line on Iran's nuclear 
intentions, peaceful or not. To date the administration refuses 
to directly talk with Iran until Iran ceases all enrichment 
operations, despite the possibility that Iran's enrichment may 
be for peaceful uses only and therefore legal under the Non-
Proliferation Treaty.
    The U.S. finds itself lacking credibility in nuclear 
weapons proliferation. The administration has promoted new 
nuclear weapons for the United States in the form of bunker 
busters and new weapons research. The U.S. negotiated a 
favorable nuclear agreement with India, despite India's refusal 
to join the NPT and their acquisition of nuclear weapons. The 
U.S. supports the dictatorship in Pakistan, despite their 
refusal to join the Non-Proliferation Treaty and despite their 
acquisition and proliferation of nuclear weapons. And the U.S. 
refuses to acknowledge Israel's possession of nuclear weapons, 
despite the obvious implications that has on the surrounding 
nations' desires to acquire nuclear weapons.
    The U.S. has effectively awarded several nations who have 
recently acquired nuclear weapons. Many of these nations are 
neighbors of nations that the U.S. is applying great pressure 
upon. The U.S. must treat its allies and adversaries 
differently, but if we are to prevent further proliferation 
anywhere we must oppose it everywhere, even and especially when 
it concerns an ally; otherwise, the world's tough neighborhoods 
will get a lot more dangerous due to arms races that our own in 
consistencies promote.
    We don't know if the U.S. has negotiated with Iran in good 
faith. There is evidence the administration has not. According 
to independent accounts in The New Yorker, GQ, ABC News, and 
The Guardian, the U.S. has already put operatives on the ground 
in Iraq to gather intelligence and prepare targeting for an 
invasion. It is working with MEK opposition groups to conduct 
lethal operations and stabilizing operations, and according to 
this week's Time Magazine the Navy has issued deployment orders 
for mine sweepers to review plans for a possible blockade of 
the Strait of Hormuz, an Iranian port, all about WMDs.
    Before I wrap up, Mr. Chairman, I have a September 25, 2006 
Time article, ``What Would War Look Like.'' Without objection, 
I would like it introduced in the hearing record.
    Mr. Shays. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.008
    
    [GRAPHIC] [TIFF OMITTED] 35767.009
    
    [GRAPHIC] [TIFF OMITTED] 35767.010
    
    [GRAPHIC] [TIFF OMITTED] 35767.011
    
    [GRAPHIC] [TIFF OMITTED] 35767.012
    
    Mr. Kucinich. So, in conclusion, according to the 
Washington Post, U.N. inspectors dispute Iran report by House 
panel, September 14, 2006. A House Intelligence Committee staff 
report on Iran has come under scrutiny for making false, 
misleading, and unsubstantiated assertions about Iran's nuclear 
program. The final committee staff report ``included at least a 
dozen claims that were either demonstrably wrong or impossible 
to substantiate,'' including the gross exaggeration that the 
level of uranium enrichment by Iranian nuclear plants has now 
reached weapons grade levels of 90 percent, when in reality the 
correct enrichment level was found by the International Atomic 
Energy Agency to be about 3.6 percent.
    Worse yet, the DNI reviewed the staff report before 
publication and these exaggerations remained in the final 
version.
    The administration's conduct at the U.N. would lack 
credibility if, indeed, it is true that we are following all of 
the steps necessary for military attack. This subcommittee has 
attempted to find out. In June our subcommittee held a 
classified Members briefing at my request to investigate. 
Unfortunately, neither the Department of State nor the 
Department of Defense participated. They refused to appear at a 
classified hearing. Nearly 3 months later the subcommittee has 
not been able to question State or DOD directly on these 
reports.
    Mr. Chairman, thank you very much for giving me this 
opportunity to present this. I know that your interest in being 
here are the interests of the American people.
    Mr. Shays. I thank the gentleman very much.
    Mr. Lynch, thank you.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you and 
also Ranking Member Kucinich for holding this hearing. I would 
also like to thank Dr. Hans Blix and all of our distinguished 
panelists today for helping this subcommittee with its work.
    Mr. Chairman, it is well known that in the months leading 
up to the March 2003 U.S. invasion of Iraq the Bush 
administration consistently asserted and communicated to this 
Congress as their primary rationale for confronting Iraq that 
Saddam Hussein's regime's active weapon of mass destruction 
program posed a ``grave and imminent security threat to the 
United States and to the stability of the Middle East region.'' 
However, since the commencement of hostilities in Iraq we have 
come to find out that the threat posed by Saddam was not 
imminent, as the current administration asserted, and that the 
capacity for redevelopment of weapon of mass destruction was 
virtually nonexistent.
    Between November 27, 2002, and the withdrawal of U.N. 
personnel on March 18, 2003, the U.N. Monitoring, Verification, 
and Inspection Commission headed by Dr. Blix conducted 731 
inspections of 411 sites and, according to the Commission's 
May, 2003, quarterly report, ``In the period during which it 
performed inspections and monitoring in Iraq, the Commission 
did not find evidence of the continuation or resumption of 
programs of weapon of mass destruction.'' Similarly, as of this 
date, U.S. forces have not located either WMD or WMD-related 
sites, according to CRS reports of September, 2006.
    In short, our intelligence proceeding the March, 2003, 
invasion was significantly flawed, leading Dr. Blix to publicly 
comment that, ``there was not enough critical thinking, neither 
in the intelligence agencies nor at the Governmental level, 
prior to military action in Iraq.''
    Now, in this subcommittee we have asked on five separate 
occasions--Mr. Kucinich, myself, and Mr. Waxman, the ranking 
member of the full committee--that we hold congressional 
hearings on how we were mislead by the intelligence report 
supplied by the administration and to investigate whether we 
were deliberately misled in our decision to authorize military 
force against Saddam Hussein.
    But the investigation and inquiry is not merely looking 
back, it is also forward-looking, because now, almost 4 years 
later, we are now seeking to address the potential security 
threat posed by Iran's nuclear technology activities, and 
specifically the country's pursuit of a uranium enrichment 
program. While Iranian President Mahmoud Ahmadinejad, his 
public threats against the United States and Israel, continued 
developments in Iran's nuclear technology capabilities and 
Iran's sponsorship of terrorism do strongly indicate that Iran 
does pose a serious strategic threat to the U.S.
    Significant gaps continue to remain in our intelligence on 
Iran's nuclear weapons capabilities. According to the House 
Intelligence Committee's August, 2006, bipartisan staff report 
on the Iranian threat, ``We lack critical information needed 
for analysts to make many of their judgments with confidence 
about Iran, and we don't know nearly enough about Iran's 
nuclear weapon program.'' Furthermore, they continue, 
``Although it is likely that Iran is pursuing nuclear weapons, 
there is still a possibility that Iran could be engaged in a 
denial and deception campaign to exaggerate progress on its 
nuclear programs such as Saddam Hussein apparently did 
concerning his WMD programs.''
    Mr. Chairman, drawing upon the lessons of our collective 
experience in Iraq and given the intelligence gaps that remain 
regarding Iran's nuclear program, I would suggest at least part 
of today's hearing include a discussion on whether arms 
limitations and disarmament must necessarily include a dialog 
on how best to facilitate the timely confirmation and gathering 
of accurate and comprehensive information on WMD threats so 
that we can better assess a particular state's nuclear plans, 
goals, and capabilities and promote the development of 
effective national and international policy. To this end, I 
again welcome Dr. Hans Blix and our panelists' thoughts on how 
address existing intelligence gaps regarding nuclear 
proliferation advancements, as well as other means by which to 
strengthen the nuclear nonproliferation regime. Again, I would 
like to thank all of your for your testimony.
    I yield back the balance of my time.
    Mr. Shays. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. I have no statement, Mr. Chairman. Thank you 
for calling this hearing.
    Mr. Shays. You are welcome.
    We will take care of some business.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose.
    Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record.
    Without objection, so ordered.
    We have three panels, so it is going to be a fairly long 
day. This is ultimately about weapon of mass destruction, 
current nuclear proliferation challenges.
    Dr. Blix, we welcome you. I just want you to know that 
Members may ask questions that are somewhat off the issue here 
and they are free to ask those questions. What I will be doing 
on my turn, I will be asking you questions like why doesn't the 
Nuclear Non-Proliferation Treaty address the issues of nuclear 
terrorism, how should the Nuclear Non-Proliferation Treaty be 
amended to address the threat of nuclear terrorism. I just 
wanted you to know I will be wanting to get in these issues of 
how has the nonproliferation regime shifted to combat the 
threat of nuclear terrorism and asking you a variety of other 
issues of where we need to see amendments to the treaty and 
what efforts our country should be making.
    You may be asked questions about Iraq and you can answer or 
not answer, depending on your decision.
    As you know, we swear in our witnesses. I appreciate your 
willingness to be sworn in. When you become a diplomat again we 
won't swear you in.
    [Witness sworn.]
    Mr. Shays. Note for the record our witness has responded in 
the affirmative.
    I thank you, Dr. Blix, because I went to see you a few 
years ago in Stockholm and wanted to ask the question why did 
Saddam Hussein want us to think he had weapon of mass 
destruction, and you were very generous in spending about 2 
hours of your time from a vacation. I will never forget that 
visit, and I am very appreciative that you would have been so 
generous with your time. I appreciate that you would be here 
today and say that we are eager to hear your testimony.
    Thank you, Dr. Blix. You have the floor.

     STATEMENT OF HANS BLIX, CHAIRMAN, THE WEAPON OF MASS 
                     DESTRUCTION COMMISSION

    Dr. Blix. Thank you very much, Chairman Shays. I am pleased 
to be invited by you and by the subcommittee to the Hearing on 
nonproliferation challenges.
    The NPT is a central instrument through which non-nuclear 
states commit themselves to remain without nuclear weapons, and 
for the nuclear weapon states, five of them, to commit 
themselves to prevent a further spread of weapons and to act 
for nuclear disarmament.
    I note with appreciation the efforts that you have made, 
Chairman Shays and others, to move into the U.S. Congress the 
resolution 133 of last year, which underlines the importance of 
the NPT and of the need for disarmament measures on behalf of 
the nuclear weapon states. And then I remind you that next year 
is the first preparatory committee meeting for the NPT Review 
Conference that is to take place in 2010, so I think it is time 
now to begin to think what are countries going to say at next 
year's preparatory meeting.
    As the chairman of the WMD Commission, which was an 
independent commission which was established or financed by the 
Swedish government, I remain keenly interested in the question 
of nuclear weapons and the NPT, and as the former Director 
General of the International Atomic Energy Association, I am 
responsible for the safeguard system. I also have a continuing 
interest in it and, of course, as chairman of the Hamlich in 
New York I have a lot of hands-on experience, shall we say.
    I have submitted some written testimony to the Commission 
and I have also submitted a few corrections in it, which I hope 
you will take note of, but at this point, Mr. Chairman, I would 
like to stress the following:
    The first point is I think there is a very strong need at 
the world community, including the United States, to become 
aware of the erosion that has taken place in the implementation 
of the NPT, both on the side of non-nuclear weapon states, or 
states that should have remained non-nuclear, and on the part 
of nuclear weapon states. Kaufianan was talking about the world 
sleepwalking into a new phase of disarmament, and that 
commission which I headed and which presented this report, 
Weapons of Terror, precisely says that we think that there is a 
need for a revival of the efforts of arms control and 
disarmament.
    I received questions from your commission and I have 
answered them in my written submission, but here I would like 
to rather think of chronologically what may be of most of all 
needed at the present time. And then I would agree with those 
that say that Iran is an acute case. Iran and North Korea are 
acute cases and they need to be dealt with acutely. They are on 
the top of the agenda in the media and I think they should be 
on the top of our agenda.
    In the case of Iran, the commission that I chaired has 
commented in detail upon it, and we have also commented in 
detail about North Korea. We agree with those who say that it 
is desirable that Iran should suspend the enrichment program. 
The question is how one will get to that, and I think we agree, 
we say that the first condition is that one should try to 
create a situation in which the country does not feel a need 
for nuclear weapons. We, therefore, point particularly to the 
question of security.
    Most countries that have gone for nuclear weapons have done 
it because they felt a security need. Certainly India looked at 
China, Pakistan looked at India, Israel looked at the Arab 
states, and so forth. In the case of Iran, too, one should keep 
that in mind. And how can one do that?
    Well, I think that to compare the efforts made to get North 
Korea to stay away from nuclear weapons, you find that in the 
negotiations the North Koreans had been offered assurances 
about security, and they have also been told that they might 
get diplomatic relations with both Japan and the United States, 
and thereby being taken out of the ostracism to which they 
have, for various good reasons, been subjected. Both of these 
measures are there in order to assure them that their security 
would not be threatened, that they would not need nuclear 
weapons.
    I think the same thinking would be needed in the case of 
Iran. From what we have seen about the offered diplomatic 
negotiations, there has been nothing held out about either 
security or diplomatic relations.
    These are the two most acute cases, but if I go in the 
order of acuteness then I would say that the Comprehensive Test 
Ban Treaty is next in line. It is now celebrating its tenth 
anniversary. The Commission thinks that there could be a 
positive domino effect if the U.S. were to ratify. We, frankly, 
directly urge the United States to reconsider the position it 
has when the Senate rejected the Comprehensive Test Ban Treaty. 
We think that if the U.S. were to ratify it, then very likely 
others would follow--China, India, Pakistan, Iran, etc.
    At the present time I think there is particular importance 
in getting the U.S. and China, because the two countries are 
involved in the negotiations with North Korea and it would be 
highly desirable that North Korea ratify the CTBT, because if 
they don't the treaty cannot enter into force. That ought to be 
an element in the negotiations, but it might be hard, both for 
the U.S. and for China, to urge the North Koreans to ratify the 
CTBT so long as they, themselves, have not done so.
    Next in line on my list would be the Fissile Material 
Cutoff Treaty; that is to say, the treaty that will demand 
prohibit the production of plutonium and rich uranium for 
weapons purposes. The United States has recently tabled a draft 
on that subject in Geneva at the Disarmament--well, not in the 
Disarmament Conference, because it is not meeting as such, but, 
at any rate, for the conference.
    That draft, which I think has been welcomed, nevertheless 
misses one important point, that is verification. It always 
used to be felt and the U.S. supported in the past such a 
treaty with verification, and this draft does not contain it.
    I think when we look at the negotiation that has been done 
between the United States and India, you will appreciate that 
it is a severe lack in that draft submitted by the U.S., 
because if India, under this agreement with the United States, 
would be able to import nuclear fuel, there is also a 
possibility--I am not saying that it is a reality, but the 
possibility that they could use their own uranium for making 
more material for weapons. And if there is no agreement on the 
prohibition on making more material for weapons and no 
verification of it, then there is certainly a risk that both 
Pakistan and China would not trust such an agreement, and hence 
an FMCT with verification would be very important and we would 
hope that the U.S. would amend its proposal in this direction.
    Next the ultimate point would be Biological Weapons 
Convention which will come up for a review conference later 
this year, toward the end of this year, where there are no 
provisions about implementation. This is certainly a weakness 
in the convention and the Commission that I headed came to the 
conclusion that we would need a multifaceted instrument for the 
implementation of it, including a secretariat, including also 
means of verification.
    And the last point, Mr. Chairman, that I mention is the 
Space Treaty. Next year there will be a conference on the Outer 
Space Treaty, and we know that not long ago some states in 
Geneva wanted to take up the issue of space weaponization and 
it was turned down. There were two states that were against it, 
the United States and the U.K. Accordingly, since the 
conference operates by unanimity, they could not land on the 
work program.
    There is relatively little public discussion in the world 
about the risk of weaponization of space, but there is a lot of 
money spent on it, and the Commission which I headed takes up 
the issue and points to the need that we also embark on that.
    So all these measures, I think if movements were made of 
them that would also help to strengthen the Non-Proliferation 
Treaty.
    Thank you.
    [The prepared statement of Dr. Blix follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.013
    
    [GRAPHIC] [TIFF OMITTED] 35767.014
    
    [GRAPHIC] [TIFF OMITTED] 35767.015
    
    [GRAPHIC] [TIFF OMITTED] 35767.016
    
    [GRAPHIC] [TIFF OMITTED] 35767.017
    
    [GRAPHIC] [TIFF OMITTED] 35767.018
    
    [GRAPHIC] [TIFF OMITTED] 35767.019
    
    [GRAPHIC] [TIFF OMITTED] 35767.020
    
    [GRAPHIC] [TIFF OMITTED] 35767.021
    
    Mr. Shays. Thank you very much, Dr. Blix.
    Doctor, the bottom line is you focus on weapon of mass 
destruction and they include chemical, biological, radiological 
material, and nuclear; is that correct?
    Dr. Blix. Yes.
    Mr. Shays. But today we are going to focus pretty much on 
the nuclear side.
    Dr. Blix. OK.
    Mr. Shays. At this time I would recognize Mr. Duncan for 10 
minutes. We are going to do the 10-minute rule.
    Mr. Duncan. Well, I won't take up that much time, Mr. 
Chairman, but I do thank you for recognizing me at this point.
    One thing I am curious about, Dr. Blix, how hard or how 
easy is it to make nuclear waste? So many people in our country 
seem to have the opinion that just somebody, some very small 
group like two or three people, if they knew what they were 
doing, they could make a suitcase nuclear bomb and carry it 
over here some way. I am just curious as to how you would 
respond to that. I wonder. I assume it is a very difficult 
thing that would involve many people, but I am just wondering 
about that.
    Dr. Blix. Mr. Chairman, I am a lawyer and I am not very 
good at making nuclear weapons, but I did read some time ago 
about some Ph.D.'s in California that had been given a year to 
try to do it and it was claimed, at any rate, that they were 
able to do so within the span of a year. Nevertheless, we see 
what Iraq has tried and we see what the North Koreans have been 
trying, and the Iraqis had come to the stage of enriching 
uranium at very old-fashioned methods before they switched onto 
centrifuge. It took them a long time.
    There are some doubts as to whether the North Koreans 
really have a nuclear weapon. They have declared that they have 
them, but there are some people who think that they have found 
it difficult to do it with plutonium, that this might be a 
reason that they have switched and want to have enrichment. 
They have been active for a great many years. I was, myself, in 
North Korea in the beginning of the 1990's, and saw the 
reprocessing plant, and they have been at it for a long time.
    Now, it is reported that the Iranians' enrichment program 
started some time in the 1980's, in the late 1980's. They then 
speculate why would they do it. My guess would be that they 
were suspicious about Iraq. They were right. I mean, that was 
the time when Saddam Hussein actually was working on it. But 
this is now 20 years ago, and the report was last spring that 
they had succeeded in enriching some gram quantity, a milligram 
quantity, 3.5 percent, so it cannot be all that easy to do it.
    Mr. Duncan. Well, the more general question then, which do 
you think is the more dangerous threat for a nuclear weapon, a 
rogue nation or a terrorist group?
    Dr. Blix. I think rogue nations, to use your term, is much 
the more danger, greater danger, because states, on the whole, 
have much greater capacity. It requires a lot of infrastructure 
if you are to build it up yourself by starting from enrichment.
    Now, considerably some group could steal a weapon 
somewhere. Well, then they would avoid all that problem. But in 
the disarmament community I think there is more concern when it 
comes to terrorists that they might go for dirty bombs. Dirty 
bombs are not based upon fission, an explosion, but they are 
based upon putting together cesium or cobalt or some such stuff 
which is radioactive, and you combine that with explosives and 
set it off somewhere in an urbanized area. Then you can have a 
lot of contamination and a lot of terror certainly happening.
    These materials, cesium and cobalt, are things that are 
pretty much spread over the world in industry and hospitals.
    Mr. Duncan. Now, how many nations have what you would 
describe as major weapon of mass destruction?
    Dr. Blix. Well, if you count them all, if you include the 
biological and chemical, then you come fairly high up in 
number. I don't know whether it is 35 or 40 or 50 or something.
    Mr. Duncan. Right.
    Dr. Blix. But when you confine yourself to the nuclear, 
then you have eight or nine, depending upon whether you include 
North Korea.
    Mr. Duncan. Eight or nine have nuclear weapons?
    Dr. Blix. Five original centers, if I use the expression, 
and then, in addition to that, India, Pakistan, and Israel, and 
then maybe North Korea.
    Mr. Duncan. So the United States and most of our allies, 
then you would have the rogue nations such as North Korea, if 
they have it?
    Dr. Blix. I think there is some misunderstanding that the 
world is full of would-be proliferators, that any country would 
like to have it. I don't think that is the case. If you look at 
the map and you ask yourself, well, what about Egypt, what 
about Syria, what about Turkey? I think when you begin to look 
at the concrete cases you become a little more skeptical. I 
mean, longer-term, yes. It is not a matter. And if Iran were to 
move ahead and if North Korea were to move ahead, that could 
have domino effects in the longer term.
    I think it could also have longer-term effect if we do not 
get an objective effort at arms control and disarmament, if 
they simply say that they will be constructing new types of 
nuclear weapons, if the U.K. takes a decision that they will 
prolong their Trident program far into the next century, and if 
the military doctrines will allow a greater fighting use for 
nuclear weapons, then we may also have a new risk such as we 
had when the NPT was drafted once.
    Mr. Duncan. Which countries in the Middle East are 
signatories to the treaty?
    Dr. Blix. Well, I think all apart from Israel are.
    Mr. Duncan. All of them except Israel?
    Dr. Blix. Yes.
    Mr. Duncan. All right.
    Thank you very much, Mr. Chairman.
    Mr. Shays. Would the gentleman yield time to me?
    Mr. Duncan. Sure. I yield back.
    Mr. Shays. Dr. Blix, I would like to just focus first on 
the issue of I would like to separate the material versus the 
weapon, itself. My concern isn't a suitcase bomb, because I 
think that tends to be more sophisticated. My concern isn't the 
weapons at the head of a missile. That is very sophisticated. 
But I have gone to Los Alamos and I have seen a nuclear weapon 
constructed with pretty basic material. It is not 
sophisticated. It was fairly large. It was pretty awkward. But 
my view is a terrorist doesn't care how big it is, how 
inefficient it is. As long as they can get a nuclear explosion, 
they have achieved their objective.
    So I want to separate the capability to make the weapon and 
the challenge in getting the weapons grade material. Which is 
your biggest concern on the part of not a rogue nation but on 
the part of people within potentially a rogue nation.
    Dr. Blix. Well, the focus of international tension has been 
more on the material, on enrichment. We see today very active 
discussion about limitation of enrichment in the world.
    The thought is that there will be more nuclear power used 
in the world, and I agree and I support that notion, but the 
fear is expressed at the same time that then there will be a 
need for more enrichment capability. And if you have enrichment 
capability to 3 percent, you also have it to 93 percent, so 
there is a justified concern about that, an active discussion 
in which the U.S. Government has some ideas, Mr. Abardi in 
India has come forward, the international fuel bank, and so 
forth.
    I think this is valid and an important discussion that will 
take a good deal of time, and that is the major focus.
    Now, when it comes to the missile, the ready-made things, 
their request is delivery, and you refer to the suitcase bombs. 
I remember we discussed it in our commission and it was not 
rejected that small, small nuclear weapons could exist. The 
Russian general--I think Libid was his name, was talking about 
that and was denied at the time by Russian authorities. 
However, apparently they can become rather small. I think it is 
a particular reason why one would wish to eliminate so-called 
tactical nuclear weapons. We differentiate between the 
strategic weapons, which are bigger and use missiles, or the 
tactical ones. You have had nuclear artillery, have had nuclear 
mines. They cannot be very big. And, of course, if they are 
stored in any manner that is not secure, then they would pose 
great risk.
    We were proposing in this report that for the European 
theater, European and Russian theater, that there should be no 
nuclear weapons at all in western Europe, that all nuclear 
weapons should be in countries that own them, so that U.S.-made 
nuclear weapons would be withdrawn from the European continent. 
But at the same token, that the Russians should withdraw their 
tactical nuclear weapons into central storage into Russia.
    All in all we think that one should go further on with the 
destruction of tactical nuclear weapons. The agreement between 
Bush and Gorbachev in the early times was not a binding 
agreement. Our Commission think that it should be made such.
    Mr. Shays. When I was confronted with weapons grade 
material, when I held plutonium in my hand it was warm to the 
touch but I could still hold it. When I held enriched uranium, 
it didn't generate the type of heat and it was small. It seemed 
to me a huge concern that it could get outside the hands of the 
government that actually produced it.
    With North Korea, we negotiated a treaty to stop their 
plutonium program, and then this administration recognized they 
were doing enriched uranium. It strikes me that enriched 
uranium is a bigger concern, given its capability of 
detonation. Am I correct? I mean, I am talking about a 
terrorist getting hold of weapons grade material. Wouldn't our 
biggest concern be enriched uranium?
    Dr. Blix. Well, we know that North Korea has plutonium. We 
cannot be absolutely sure that they have weapons, but they have 
plutonium. The IAEA inspections that we set in motion early in 
the 1990's concluded and showed that they had more plutonium 
than they had declared. That was how the whole crisis began. 
And then an agreement was reached with the so-called agreed 
framework under which they would freeze their nuclear program, 
and they did not make any more plutonium during the 1990's 
until that agreed framework sort of collapsed. And when it 
collapsed the world also began to suspect that they were going 
for enrichment, and they declared so at one time but they 
withdrew the statement. It is still suspected that they did.
    Mr. Shays. But the question I have--and I want to turn it 
over to Mr. Kucinich--is I am talking about the weapons grade 
material getting in the hands of a terrorist, not a rogue 
nation using a more sophisticated plutonium weapon. My question 
to you--and if you don't have an opinion, that is OK--isn't our 
concern, when it relates to terrorists, that the more-easily 
detonated weapon is one using enriched uranium, and that would 
be our biggest fear in terms of terrorists getting hold of it?
    Dr. Blix. I am not sure I hear every word. I am a little 
poor in hearing. But I understand that you are asking about the 
differentiation between an enriched uranium involvement and 
plutonium involvement.
    Mr. Shays. Right, and which is a weapon of choice for a 
terrors, which weapons grade material would be?
    Dr. Blix. I think enriched uranium.
    Mr. Shays. Right.
    Dr. Blix. That is the judgment I have of experts.
    Mr. Shays. Because if you get plutonium it needs to be a 
more-sophisticated weapon, right?
    Dr. Blix. Yes. That is my understanding.
    Mr. Shays. Right. And our concern or my concern is that 
terrorists have the capability to build a weapon that could 
detonate enriched uranium. They would have a harder time 
creating a weapon for plutonium. That was basically----
    Dr. Blix. Yes. That is my understanding. It is harder to 
make a bomb with it, but the advantage is that it is smaller.
    Mr. Shays. Well, the advantage of any sophisticated weapon 
is that it is smaller, but a sophisticated weapon is important 
if you want to put it on the tip of a missile, but if you are 
willing to stick it in a room you don't give a darn how big it 
is or in a big van. You don't care its size, you don't care its 
looks, you don't care how streamlined it is, you don't care 
about anything other than can you get this thing to create a 
nuclear explosion.
    Dr. Blix. I would agree with you.
    Mr. Shays. OK. Let me call on Mr. Kucinich.
    Mr. Kucinich. Again, I want to begin by thanking once more 
the chair of this subcommittee. I think that, despite the fact, 
Mr. Chairman, that you and I may have our differences on some 
of these issues, I want to say that without--and I think this 
needs to be said, in fairness--without your active 
participation and your active efforts, there wouldn't be much 
public oversight at all in this House of Representatives, and I 
just want to make sure that is said because, you know, we are 
in a political environment here where it needs to be recognized 
when people have the courage to open up discussions at times 
that it might not be the most politically opportune for the 
administration.
    I want to begin by again thanking Dr. Blix. Dr. Blix, you 
spoke about space weaponization, which is an issue that I have 
been concerned about for years. As a matter of fact, there is a 
bill that I have introduced in the last few Congresses to ban 
the weaponization of space that now has 35 cosponsors.
    Are you familiar with the administration plan called Vision 
2020? Mr. Chairman and Dr. Blix, Vision 2020 in its literature 
is about the weaponization of space and claims that it is the 
destiny of the United States to achieve ``the ultimate high 
ground,'' which is domination from space.
    Could you explain to this subcommittee why such an ambition 
may be counterproductive?
    Dr. Blix. Well, I think that any such measure is likely to 
draw countermeasures from the other side. I am old enough to 
have participated in the creation of the Outer Space Committee 
of the United Nations, and the conclusion of the Outer Space 
Treaty, which sought to insulate and to immunize space from 
weaponization, and where the parties even commit themselves to 
pursue the exploration of space in a manner that would not lead 
to any contamination. But that sort of cautionary attitude that 
we had those days seems to be gone altogether when we are 
talking about the risk of even placing weapons there.
    The risk of anything going off by mistake and debris 
spreading in that area is one that I think has not been much 
discussed publicly and which might be a disaster. We have an 
army of engineers who are using space for our mobile phones and 
GPS and all of it and investing billions if not trillions of 
money in it, and then we have another army of engineers who are 
busy to find out how we can shoot down, how we can destroy it. 
I think all that requires much more of the public discussion, 
and I was sorry that this item was not agreed to be discussed 
in Geneva at the present time.
    Mr. Kucinich. You have never seen any evidence that there 
are weapons of mass destruction on the moon, have you?
    Dr. Blix. On the moon?
    Mr. Kucinich. Right.
    Dr. Blix. No. I think that is an area where they had 
prohibited. Nuclear weapons are prohibited in various 
environments, of course.
    Mr. Kucinich. I think that your recommendation 45 about 
calling on states to renounce the deployment of weapons in 
outer space is something that this Congress and the next 
Congress is going to have to have intensive hearings on.
    I noted your discussion about what happens when nations 
aspire to gain nuclear weapons. We are talking about Iran. Do 
you think that it would be in the interest of the United States 
to have direct talks with Iran or any other country that had 
the ambitions, stated or assumed, for nuclear weapons?
    Dr. Blix. Yes. I think so. I think that the negotiations 
that have been carried out by the Europeans, the U.K., France, 
and Germany have been geared in the right direction.
    First of all, I have told the Iranians that they need not 
go for enrichment to have fuel for their reactors. They can 
have national assurance of supply. Although Iran has had poor 
experiences of such assurance of supply in the past, I think 
there could be arrangements made under which Russia and others 
would assure them of supply. I don't think that there really is 
strong economic reasons for Iran to go to an enrichment 
program. It would be much cheaper for them to buy enriched 
uranium in the international market as Sweden or Switzerland 
does. I think it is probably the assurance of supply that could 
be a relevant factor.
    Iran does not have very much uranium in the ground, so 
eventually they would be dependent upon import, anyway.
    The Europeans then I think have taken the intelligence 
stand of yes, we will offer you an assurance of supply. That is 
the first point.
    But moreover I think they have also been wise in stating 
that we will actually support a peaceful nuclear program in 
your country. We will be ready to sell you reactors, but only 
the peaceful sector, but thereby, nevertheless, underlying in 
that, we are not against Iran as a high technology country. We 
are not trying to suppress a developing country here from 
coming into the modern age. I think that is a wise step, as 
well.
    And then there is economic good that they are offered 
membership to the World Trade Organization and the investment, 
and so forth, but what has been missing, I think, so far is any 
talk about assurances of security.
    Mr. Kucinich. You know, that is the next point, and that is 
that if you are going to seek to avert some kind of a crisis 
from building, first, direct talks; second, there has to be 
assurances that you are not going to attack the country; is 
that correct?
    Dr. Blix. Yes.
    Mr. Kucinich. Because if Iran thought that the United 
States was going to attack it, what type of behavior would most 
likely occur with respect to nuclear issues?
    Dr. Blix. Yes. I think that one is likely to get better 
results with an offer of security than with threats of attack.
    There is one further element, Mr. Congressman, that I think 
is relevant. That is this business about preconditions. I mean, 
the Security Council has said now in a resolution that they 
demand of Iran that they should suspend the enrichment program, 
and thereafter there is a willingness to sit down and to 
discuss what could they be given.
    Well, think of a game of cards. Who wants to toss away your 
trump card before you sit down to play? So it seems to me that 
is very understandable from the Iranians' point of view that 
here is their leverage, that they might continue with 
enrichment, and they are apparently now ready to sit down to 
discuss that. Whether in the last resort they would go along I 
don't know, but I certainly think that ought to be explored.
    Mr. Kucinich. As I am sure you are aware, the Intelligence 
Committee of the U.S. House of Representatives released a staff 
report last month on Iran entitled Recognizing Iran as a 
Strategic Threat: an Intelligence Challenge for the United 
States. Subsequent to its release, the IAEA responded that the 
report contained erroneous, misleading, and unsubstantiated 
information. Are you familiar with the report?
    Dr. Blix. Yes.
    Mr. Kucinich. I understand that the report's author used 
both open and classified U.S. intelligence information to reach 
the conclusion that Iran was actively pursuing a nuclear 
program and presented a formidable threat to the U.S. I am 
concerned about the gross exaggerations made in the report. For 
example, the staff report stated that the uranium enrichment 
level at the Natans Pilot Fuel Enrichment Plant was at 
``weapons grade levels.'' Now, according to the IAEA, the 
enrichment level at that plant is only 3.6 percent. Do you 
believe that a 3.6 percent enrichment level is weapons grade?
    Dr. Blix. No, of course not.
    Mr. Kucinich. And how many centrifuges would be required to 
enrich uranium to weapons grade level?
    Dr. Blix. I really don't know how many. It depends on how 
long time working in centrifuges.
    Mr. Kucinich. Could it take thousands?
    Dr. Blix. Yes, it could. Yes. Very likely. They have what 
is cascade now of 168 centrifuges, or something like that, but 
with that they cannot do very much.
    Mr. Kucinich. Now, this report also insinuated that IAEA 
safeguards inspector, Christopher Charlier, was removed from 
his position for raising concerns about Iran's nuclear program 
and concluding that Iran sought to acquire weapons. My question 
is, What are the rights and duties of Iran toward allowance of 
safeguards and inspectors within its territory?
    Dr. Blix. Well, it was mistaken on behalf of the 
investigators. The reality is that under the safeguard system 
the recipient country can veto and say no to any inspector. 
They have a right to do so. They don't have that under the 
OPCW, the chemical sphere, and I think it is pity that they 
have it in this nuclear sphere, but that is a reality with 
which the acting general of the IAEA will have to live. So I 
think the Iranians raised an objective to Mr. Charlier and then 
he had no choice. He had to drop him from active inspection, 
which doesn't mean that he doesn't work on the issues in the 
IAEA. I don't know whether he does.
    Mr. Kucinich. How many IAEA inspectors, if you know this, 
have currently looked at Iran's program in accordance with 
their safeguards agreement?
    Dr. Blix. According to the newspaper that I saw, they have 
about 200 inspectors whom Iran has approved.
    Mr. Kucinich. Is that a large number?
    Dr. Blix. Normal. Normal number.
    Mr. Kucinich. That is normal.
    Mr. Chairman, are we going to have another round of 
questions?
    Mr. Shays. We will have another round. I haven't yet used 
my time, and my colleague from Massachusetts hasn't used his 
first round. I will go to you first and then I will conclude 
with my round and then we will do another round.
    You have the floor, sir.
    Mr. Lynch. Thank you, Mr. Chairman.
    Dr. Blix, again I want to thank you for being here today.
    The minority has asked on five separate occasions to have 
hearings on the intelligence on weapon of mass destruction 
prior to the invasion of Iraq. We have asked on five occasions 
and we have yet to get permission from the leadership of the 
majority.
    You have written a book about that period that is central 
to our inquiry, and so I would like to just as you, you have 
written a book describing your experiences as the head of the 
U.N. inspection team in Iraq in 2002 and 2003, the period that 
we are desirous of looking at. The book is called, Disarming 
Iraq, and it provides, I think, a fairly astute and keen 
insight into the weeks and months directly before the war. I 
would just like to ask you a couple of questions about your 
observations.
    One of the most interesting and probably the most 
disturbing parts of your book is your description of how the 
Bush administration manipulated the intelligence in order to 
make its case for the war. As we all remember, the centerpiece 
for the Bush administration's case for war was that Saddam 
Hussein, while he didn't have the launching capabilities for a 
nuclear strike against the United States, the fear here in 
Washington and elsewhere was that if he constructed a nuclear 
weapon he could deliver it to terrorists who could then work 
its way into the United States.
    This is what you say in your book. I will quote the passage 
here. It is at page 270. You say that, ``If there was any one 
weapons area where all, including the U.S., had felt Saddam was 
disarmed, it was the nuclear area. It took much twisted 
evidence, including a forged uranium contract--'' the Niger 
document, I presume--``to conjure up a revived Iraqi nuclear 
threat, even one that was somewhat distant. It is far more 
probable that the governments were conscious that they were 
exaggerating the risks they saw in order to get the political 
support they would not otherwise have had.''
    This would be a central part of our inquiry if we were 
allowed in other forums.
    Could you tell me more about this, about what the effect of 
the credibility of the U.S. Government became as a result of 
these, as you described, exaggerations?
    Dr. Blix. In the autumn of 2002, when we started our 
inspections in Iraq--and I will say also that I don't think 
Saddam would have gone along with inspections if it had not 
been for the military buildup by the United States. I am not a 
passivist. I am not someone who says that you must never use 
military pressures.
    Mr. Lynch. I understand.
    Dr. Blix. I think that had a positive effect. But in that 
autumn of 2002 they wanted to describe the Iraqi threat in 
stark terms in order to get support for the pressures they 
wanted and eventually the war that they waged. But already that 
autumn you had American experts like David Albright here in 
Washington who said that the well-known aluminum tubes that 
were described as were being used in centrifuges, that it was 
very doubtful whether that was true.
    We heard about the uranium contract with Nigeria, but my 
colleague, Elbarday, succeeded me when I was in charge. I was 
not in charge. But I was somewhat skeptical about it when I 
heard about it because import of yellow cake that was very 
long--yellow cake is a long way from a nuclear weapon. I ask 
myself why would they want to have yellow cake. That was my 
layman's reaction.
    It took a long time before the IAEA got a copy of this 
agreement, and it took them, I think, less than a day to see 
that it was a forgery. I know all the debates and I read some 
about them here in Washington about the Valerie claim and Mr. 
Wilson and so forth. What I would like to stress is that my 
colleague and friend Elbarday, he sat in the Security Council 
next to me before the war broke out and he said that we have 
had this contract and I can tell you that is not authentic. 
That was diplomatic language, it was not authentic. It was a 
forgery. So it was something that was known before the war.
    When I write in my book that I think that they did not 
exercise sufficient critical thinking about it, and I think 
that in the autumn of 2002 one should ask oneself with very 
critical thinking what is this. As it seems at any rate it was 
known within then, there were doubts, skepticism within the 
administration about the validity of the contract; 
nevertheless, as I said somewhere else, I think, they chose to 
replace question marks by exclamation marks.
    Mr. Lynch. Just to followup on that, we are talking about a 
very, very critical decisionmaking process within our 
Government, within the U.S. Government. I was a new Congressman 
at the time, sat in on dozens of briefings with Secretary 
Powell at that time, the National Secretary Advisor, Condoleeza 
Rice, went to the White House and sat with CIA Director Tenant, 
met with the joint chiefs. All of the info that we were getting 
was consistent with the fact that there was an imminent threat 
from Saddam Hussein.
    Additionally, in the interest of a broad base of 
information, I sat with David Kay, who I believe was the chief 
weapons inspector under the Clinton administration before you, 
sir.
    Dr. Blix. No.
    Mr. Lynch. Certainly in that time after the first Gulf War 
when they were removing materials.
    Dr. Blix. No.
    Mr. Lynch. So maybe not just before you, but some time 
prior, and Martin Indike, who was also a Clinton administration 
official in the Middle East, as well. All of that information 
was in harmony. It was all wrong, but it was in harmony.
    Given the perspective that you had and have, how do you 
reconcile that, that all of that information was going in a 
totally different direction? And we are not talking about one 
or two facts; we are talking about a steady drumbeat of 
information fed to the press, fed to the Congress that led 
inexorably to an invasion, and now, in retrospect, given the 
hard facts, given the lengthy inspections on the ground there, 
the physical verification, and then reexamination of 
information that we have been given previously--the Nigere 
documents, the tubes, all of that--do you have any further 
thoughts on that?
    Dr. Blix. Yes, I think that, to me, one of the lessons of 
the intelligence and Iraq affair is that one should take 
international verification and inspection more seriously. I 
think there was a tendency to disregard what comes out of an 
international organization and to give automatic credence or 
much greater credence to national intelligence. I am not 
against national intelligence. I have met many of them. I have 
great regard, respect for many of them, put their lives at 
stake, and so forth, and I think it is necessary in the age of 
terrorism. I am not against it. But I simply think that here 
you have a government sitting on the center. They are 
interested in what is going on in rogue countries or elsewhere. 
They get streams of information. They get streams of 
information from their own intelligence and they also get the 
information from international inspection, from the chemical 
people and from the nuclear people. They can compare.
    They operate with very different sources. The intelligence, 
they have a lot of defectors. They spend billions of dollars to 
listen to our telephone conversations, etc., and some things 
are sifted out of this. That may be valuable. International 
organizations do not receive the defectors. They don't go to 
them. They can't give asylum. They go to the country. But they 
are on the ground. They can go into the buildings. They can ask 
for documents and they can ask for explanations.
    Hence, I think the government that sits there and has both 
sources, they should rely on both sources. I think that in the 
case of Iraq, regrettably they did not pay so much attention to 
it, or at least they didn't appear to pay much attention to 
what the international inspections said.
    Even now when you look at Iran we hear various stories and 
speculations that, well, we can listen to that, but most of the 
information that has come out of Iran, nevertheless, comes from 
the IAEA investigation of it.
    Mr. Lynch. Thank you.
    I yield back, Mr. Chairman.
    Mr. Shays. Thank you.
    Dr. Blix. Can I add, Mr. Chairman, something about the 
costs, also? If I remember rightly, the cost of the IAEA 
safeguards inspection per year was certainly far below $100 
million when I was there. I think it is still below $100 
million per year. When you think about the intelligence cost to 
look after Iraq, Iran, North Korea, I think you will see that 
is a very good bargain to have international inspection.
    Mr. Shays. Let me take my 10 minutes for the first round 
and just ask you, actually, before I start my set of questions, 
do you give the United States credit for having impact on 
Libya? And then I am going to ask you, does the United States 
get any credit in outing Iran and North Korea, in your opinion, 
to the fact that they were moving forward with a program that 
should concern us?
    I have maybe a view that Europe didn't seem to think Iran 
was moving forward and North Korea wasn't moving forward, so 
set me straight if I am wrong, but I would like to get your 
opinion.
    Dr. Blix. You asked about Libya?
    Mr. Shays. First, yes.
    Dr. Blix. Well, I don't know enough about the background of 
it. Libya was always one of those places where you felt there 
was a little smoke coming out. I was there, myself, once and I 
saw the research reactor, which was in rather miserable 
condition at that time.
    Mr. Shays. I am not suggesting that they were advanced, but 
they were moving forward with a program?
    Dr. Blix. Yes, it is clear that they did, and it was not 
the IAEA that discovered it.
    Mr. Shays. Right.
    Dr. Blix. This came rather through intelligence, and then 
they intercepted their ship which contained, I think, various 
equipment.
    Mr. Shays. And so my question is, you know, with all the 
beating up that the United States gets, do we and others 
deserve a little credit in turning that around? They gave us 
their program, as well as other weapon of mass destruction 
program, and I use the Israelis as the harshest critics. They 
said this is a turn-around that is for real.
    Dr. Blix. Yes. It may well be that the U.S. has the credit. 
How much goes to the U.S. and how much goes to the U.K. I 
cannot tell you.
    Mr. Shays. Fair enough.
    Dr. Blix. But the two of them together, yes.
    Mr. Shays. Does the United States deserve any credit for 
calling the question on North Korea, because the sense was 
North Korea stopped their program. They negotiated. They just 
were doing another program which to me just spoke totally 
against the spirit of their agreement. Does the United States 
deserve any credit in confronting and exposing the fact that 
North Korea was, in fact, moving forward with a program?
    Dr. Blix. Well, the U.S. satellites had picked up the 
reprocessing plant in North Korea before the IAEA was there. We 
were allowed to carry out safeguard inspections.
    Mr. Shays. I am not putting criticism on the IAEA. That is 
not my point.
    Dr. Blix. No. I realize that. But I think that the first 
discovery that they were not honest came through the Agency.
    Mr. Shays. So the United States is basically saying we have 
a problem here. So my next question is, What kind of credit 
does the United States deserve in terms of saying Europe, you 
basically said Iran is not moving forward with the program, we 
disagree. Who basically deserves credit in calling the question 
on Iran?
    Dr. Blix. I think the Europeans were concerned about the 
enrichment program, but they did not assert that it was a 
program intended for nuclear weapons. I think they had moved 
somewhat in that direction after some of the evidence that has 
come up, the fact that the Iranians were receiving documents 
about research and then centrifuges.
    Mr. Shays. Do you have any sympathy for the United States 
and the Brits, given that we basically helped bring attention 
to three countries that were moving forward with a nuclear 
program?
    Dr. Blix. I think we should all be concerned about that, 
and I certainly----
    Mr. Shays. But do you give the United States any credit for 
its efforts in each of those?
    Dr. Blix. Yes.
    Mr. Shays. Because you deservedly have reason to be 
concerned about Iraq. Let me ask you, finally, the outing of 
the father in Pakistan of their nuclear program, who basically 
is responsible for outing and calling Pakistan on the fact that 
they were incredibly culpable in spreading a knowledge of a 
nuclear program to other countries? Who deserves credit for 
that?
    Dr. Blix. As far as I know the discovery came in the 
context of the Libyan affair----
    Mr. Shays. Right.
    Dr. Blix [continuing]. When they intercepted the ship and 
then they tried to find out where did the material come from. 
That was intelligence.
    Mr. Shays. Yes, that was intelligence. Again, it is the 
United States, Great Britain maybe more than the United 
States----
    Dr. Blix. Yes.
    Mr. Shays. So I just want to say, when I think of that I 
say well good for you, United States. Good for you.
    Dr. Blix. I agree with you. I think both intelligence and 
inspection are desirable, both.
    Mr. Shays. Right.
    Dr. Blix. I am not against intelligence, but I am against 
an exaggerated and non-critical examination of it.
    Mr. Shays. Fair enough. Let me ask you, I want to focus on 
the Non-Proliferation Treaty as it relates to terrorism. I 
basically conclude--and tell me if you agree--I basically 
conclude that the terrorists are not going to be able to create 
weapons grade material. The question is are they going to be 
able to get it from some country. That is where my fear is. But 
I have no question about the capability of terrorists to be 
able to create a very inefficient, large, bulky weapon that 
could create a nuclear explosion. So my question isn't with 
whether they can build it. I think they can and I think they 
will. Really the question comes to this whole hearing: how do 
we make sure that weapons grade material doesn't get into their 
hands?
    Europe is not totally in agreement with it, but the 911 
Commission said we are not fighting terrorism, we are 
confronting Islamist terrorists. They were pretty clear about 
it. It was ten members, Republicans and Democrats, Liberals and 
Conservatives. They all agreed on that one point. We are 
confronting Islamist terrorists.
    I basically conclude you are not going to find them in 
Iceland. Our basic concern is in the Middle East, candidly, and 
obviously through Pakistan and so on.
    I want to know, do you find that the Non-Proliferation 
Treaty in any way addresses the concern of nuclear terrorism, 
basically a nuclear weapon and a weapons grade material getting 
in the hands of terrorists? If you think it does, tell me how 
it does. If you think it doesn't, tell me where it doesn't.
    Dr. Blix. Well, sir, treaties are concluded between states 
and between governments, and I would take the view that a 
country that has adhered to the Non-Proliferation Treaty is 
obliged not only to make sure that it doesn't, itself, require 
nuclear weapons, but is responsible for what is happening 
within its territory. If one had any uncertainty about that, I 
think that the resolution adopted by the Security Council, 
1540, would dispel any such uncertainty. That enjoins the 
countries, parties to the treaties, to make sure that also 
individuals in their country are respecting the treaty, so I 
think we have to look to the governments for this. But the 
effect of 1540 also--and this is the possibility of states 
helping countries to set up machinery for the implementation of 
the treaty.
    Mr. Shays. What would your position be if Pakistan has 
basically experienced a coup in which radical Islamists--I am 
not saying terrorists, but radical Islamists--take it over, 
very sympathetic to terrorist organizations?
    Dr. Blix. I think Pakistan is about more dangerous spots in 
the world. It is a very volatile country with a lot of people 
with extreme views, so it is not an entirely unrealistic fear 
that we have about it.
    Mr. Shays. But in terms of our capability to respond, I 
guess the question is how would we respond. I will just tell 
you my bias. I know we found no weapon of mass destruction in 
Iraq. I believe we would. I believe that not finding them, 
having voted to go there, along with 295 other Members of 
Congress, I lost credibility with my constituents because I 
said we would find them, but I sure as hell don't blame the 
President of the United States for my vote. That would be like 
a former Governor blaming the generals for supporting the war 
in Iraq saying he was brainwashed. I made my vote based on my 
research. Period. Case closed.
    But this subcommittee also conducted the hearing on the 
Oil-for-Food-Program, and we learned that Saddam undersold his 
oil and got kickbacks and overpaid for commodities and got 
kickbacks, and the report said no weapon of mass destruction 
and Saddam Hussein basically bought off the French and the 
Russians in the Security Council. Terek Assiz made it very 
clear that Saddam never thought the United States would ever 
remove Saddam from power because of his support with the French 
and the Russians. It gets to my question. It sounds to me like 
we are in an untenable position if, in fact, we have to have 
everyone sign off before we would take action against a country 
that could, in fact, very willingly transfer weapons grade 
material to terrorist organizations.
    What I am going to ask, my last question, In this real 
world that we live in, how do we deal with that? Do we wait for 
the French to give us permission, the Russians to give us 
permission, the IAEA to say with all its members we want 
inspections? I don't even know what inspections would achieve, 
because the bottom line is Pakistan has the weapons and they 
can choose to show you the ones they have and choose to not 
show you others that they have.
    That is what I wrestle with. Tell me, in this world that my 
daughter is going to grow up in, how we deal with that kind of 
scenario under the systems that you have so much respect for.
    Dr. Blix. Well, I think you have described another 
perspective which one cannot totally exclude. So far I think we 
have seen all the governments that have nuclear weapons have 
been averse to having any of those going into the hands of 
terrorists, and certainly Saddam, with all his brutality, did 
not tolerate any terrorism, did not contribute any weapon of 
mass destruction to them.
    But when you mention Pakistan, which is also in my mind, is 
that the only country in which you can have a regime change 
with a very different----
    Mr. Shays. No. It is the one I just chose to give.
    Dr. Blix. No. I agree with you.
    Mr. Shays. I chose them because the father of their nuclear 
program was very willing to export his knowledge to some very 
troubled areas of the world.
    Dr. Blix. Yes. But you could also have a case in which some 
other big country with nuclear weapons can, perhaps not to give 
terrorists, but you would have a totally different threat 
picture.
    Mr. Shays. I would like Mr. Kucinich to have his time and 
my last round. When I come back, I really want to just kind of 
nail down what the options are. I want to basically nail down 
whether the NPT meets the need in this terrorist age or whether 
it needs to be amended and how it should be amended.
    And let me just say I will defer that, because I want Mr. 
Kucinich to have the time. I have my red light and I have gone 
on 2 minutes beyond.
    Mr. Kucinich, you have the time.
    I am sorry, Mr. Platts, do you choose to ask any questions 
into the first round?
    Mr. Platts. Mr. Chairman, if I could ask just one?
    Mr. Shays. Sure.
    Mr. Platts. Hopefully it has not been asked. I apologize 
for my late arrival.
    Mr. Shays. You can ask. You have the right to ask any 
question you want, sir.
    Mr. Platts. Thank you, Mr. Chairman.
    Dr. Blix, I certainly appreciate your service to citizens 
throughout the world and the important work you have done.
    In your written testimony, your answers talking about Iran 
specifically and use of economic sanctions and how it worked 
regarding Iraq versus Libya, and then specifically Iran, and 
you talk about that if we imposed economic sanctions, as is 
being discussed at the U.N. Security Council, that it would 
maybe more empower the Iranian government. The way I read your 
answer, maybe kind of embolden them with stronger public 
support.
    What would you suggest? How do we deal with a country like 
Iran, or if it was North Korea, if the sanctions are not the 
way to do it because it is going to strengthen that government 
as opposed to undercut their ability to move forward with 
nuclear weapon development? What would be your best suggestion 
in the alternative?
    Dr. Blix. Personally, I do not think that the threat of 
economic sanctions is a very smart way of approaching them. I 
think that the carrots which have been put on the table, the 
assurance that they will not be attacked, that the economic 
advantage would be great, that they will have an assurance of 
supply is a far better method, and that they will more be 
nationally offended by the threat of sanctions, and that, if 
anything, a vast number of people in Iran who may be skeptical 
about their government will rally to a government to a hard 
line position when they feel that it is under pressure.
    There is some notion I read in the papers that you must 
have both carrots and sticks, and, as it were, sticks and 
threats are indispensable, but to my mind you have carrots and 
you have absence of carrots from the other side. That is also a 
sort of punishment.
    I think in the case of Iran that will better. Above all, I 
don't think that they have tried all the carrots they could 
call. We are pointed to the quest of security. We are pointing 
also to relations, to be not friendly, that the rest of the 
world will show friendship, but simply accept them and deal 
with them.
    We also point to one other possibility mentioning that if 
you look at the Middle East as a particular tense place, maybe 
they could copy the idea from the Korean peninsula where the 
north and the south are agreed that neither north nor south 
will have either enrichment or reprocessing. The Middle East, 
if one were to agree that none of the countries in that area 
would have either enrichment or reprocessing, that would mean 
that Israel would also have to give up reprocessing, more 
reprocessing. They wouldn't affect the bombs that we assume 
they never, but they would have to give up.
    I think that if one exercises one's imagination about the 
Iranians, maybe there can be more that will attract them to a 
suspension of enrichment, which is not a very economic interest 
anyway.
    Mr. Platts. Thank you, Dr. Blix. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. We are going to go another round and 
maybe not take the full 10 minutes each, but whatever.
    Mr. Kucinich, we will start with you.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    This discussion again about WMDs reflects back on decisions 
that were made that took this country into war and a 
presumption of a nation having WMDs, and it is also prospective 
in terms of what kind of a policy do we have to help to reign 
in proliferation.
    I think that there are many Members of Congress who voted 
to take this country into war who did it based on what they 
felt was the right thing to do based on the evidence that was 
presented to them. We see WMDs being at the center of this 
discussion with respect to Iraq, but now we know that the case 
that was presented to the Congress was one where there were 
certain people in the government presenting a case that they 
basically already made the decision to go to war, 
notwithstanding any evidence that was brought forward from even 
within that very administration.
    For example, the attempt to conflate 9/11 with Iraq, the 
attempt to beat the drums and say Iraq had weapon of mass 
destruction, even though there was plenty of information 
available at the time--international community had their 
doubts, weapons inspectors had their doubts, people inside the 
administration had their doubts--we pursued a policy of attack 
based on lies, tried to connect Al Qaeda with Hussein. It was 
wrong. Iraq had nothing to do with the anthrax attack. Iraq was 
not trying to get uranium or aluminum tubes for the purpose of 
processing uranium. They weren't buying yellow cake from Niger. 
That was a hoax. The mobile weapons labs that the Secretary of 
State talked about at the United Nations, hoax.
    So here it is. We didn't have to go to war. There is a way 
to use diplomacy to avert nuclear escalation.
    Now, Dr. Blix, it goes without saying that an attack on 
another nation will de-stabilize a government, but if you de-
stabilize a government does that increase the risks of nuclear 
proliferation by non-state actors within that government's 
territory?
    Dr. Blix. It depends on much material they have in the 
territory. We haven't talked at all about the cleaning up 
operations and the threat reduction programs that will convert 
research reactors from high-enriched uranium to low-enriched 
uranium, and so forth. There are a great many very useful, 
practical, not very controversial measures that are taken in 
this area.
    Mr. Kucinich. Does it go without saying, though, that if 
you weaken a state you increase the power of non-state actors 
within that state?
    Dr. Blix. It may happen that if you de-stabilize a 
government that there will be a greater scope for non-state 
actors. That is possible. I don't think it is axiomatic that it 
will happen though.
    Mr. Kucinich. Do you believe Iran is trying to develop 
nuclear weapons?
    Dr. Blix. I think there have been some indications pointing 
in that direction, but I don't think it is conclusive. I think 
that after the experience we have had in Iraq one should be a 
little careful to jump to the conclusions. I think that 
constructing a 40-megawatt heavy water reactor is something 
they could have avoided if they want to avoid suspicions, 
because that is a very good plutonium producer.
    And I don't think that necessarily hiding the program is 
conclusively showing that they have weapons. It was illegal. It 
was a violation of the safeguards agreement, yes. But having 
feared that they could be sabotaged, that there could be 
bombing maybe, they kept it secret for that purpose. I don't 
think it is conclusive, but it is certainly an indication. 
There are others, but I don't think it is conclusive.
    Mr. Kucinich. Then would you say there is indisputable 
evidence that the Iran program is an imminent threat to the 
security of the region or of the United States?
    Dr. Blix. They will certainly increase the tension in the 
Middle East if they proceed with a program of enrichment. There 
is a lot of talk about trying to explore the intentions of the 
Iraqis, and if they have an intention to go for weapons then it 
is contrary and it is a violation of the NPT. If they don't 
have that intention, it is not a violation.
    However, I think at this point the intention is immaterial. 
There is no use in searching for the intention, because it 
could damage them if you found really good, strong evidence 
that they intended to go for weapons. But if you don't find it, 
it is not going to help anyway. Everybody is going to say they 
can change the intention. If we accept today that they don't 
have intention, then in 2 years time they could change the 
intention. I think that I side with those who feel that it 
would be desirable that one persuade Iran to stay away from the 
enrichment program. They do not have really economic needs for 
it. One can cover the assurance of supply, but the security I 
think still is something that has not been broached, and if one 
tries to impose sanctions or harsher methods before those cards 
have been tried, then I think one is doing it prematurely.
    Above all, Mr. Chairman, I think that we haven't discussed 
the question of preventive strikes and preemptive action, which 
are unilateral actions. The U.N. charter says that if there is 
an armed attack then you have the right to exercise self 
defense in the case of an armed attack or even imminent armed 
attack.
    Now, in the case of the Iraq in 2002, no one could say that 
we were facing an imminent attack.
    Mr. Kucinich. So Iraq was not an imminent threat?
    Dr. Blix. Absolutely not. And in the case of Iran today, 
with a country that has produced perhaps a gram quantity of 
uranium of 3.5 percent, one cannot say that is a threat.
    Mr. Kucinich. Iran is not an imminent threat?
    Dr. Blix. It is not a threat today. It could become later 
on. But I think that there is another article in the U.N. 
charter in chapter six--not chapter seven, chapter six--about 
situations that can develop into threats, and that I think is 
the chapter that they should use.
    There is also the possibility of using force under the 
authority of the United Nations, not unilateral force. These 
are two different things. The Security Council can decide and 
can authorize military action even if there is not an armed 
attack, so the Security Council has much broader authority than 
individual member states have.
    Mr. Kucinich. Have you ever heard of a report that 3 years 
ago Iran offered a dialog with the United States including full 
cooperation on nuclear programs?
    Dr. Blix. No, I am not familiar with it. I might have read 
about it.
    Mr. Kucinich. Mr. Chairman, for the record I would like to 
introduce a copy of this for this hearing. It is from the 
Washington Post on June 18, 2006. The headline is, ``In 2003 
U.S. Spurned Iran's Offer of Dialogue. Some Officials Lament 
Lost Opportunity.'' First graph says, ``Just after the 
lightning takeover of Baghdad by U.S. forces 3 years ago, an 
unusual two-page document spewed out of a fax machine at the 
Near East Bureau of the State Department. It was a proposal 
from Iran for a broad dialog with the United States, and the 
fax suggested everything was on the table, including full 
cooperation on nuclear programs, acceptance of Israel, and the 
termination of Iranian support for Palestinian militant groups.
    I think that the discussion that Dr. Blix has brought up 
here about direct talks may put us in a position where we can 
reconcile what may have been lost opportunities with being able 
to capitalize on some new thinking.
    I'd like to put this on the record.
    Mr. Shays. We will put this on the record, without 
objection. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.022
    
    [GRAPHIC] [TIFF OMITTED] 35767.023
    
    Mr. Kucinich. Have you seen any statements from Iran with 
respect to their intentions of the use of nuclear power? Have 
you heard any statements about it?
    Dr. Blix. Yes. They have made many of them.
    Mr. Kucinich. Have you heard them say that weapon of mass 
destruction do not have any place in the defensive doctrine of 
the Islamic Republic?
    Dr. Blix. Yes.
    Mr. Kucinich. Do you give any credibility to that?
    Dr. Blix. Well, Mr. Afsanjami, whom I met on two occasions, 
said the same thing to me, that this would be contrary to their 
religion. However, as an international inspector I certainly 
would not take such statements just for granted, but I think we 
have to look at all the facts.
    Mr. Kucinich. Well, verification certainly is one of them.
    Dr. Blix. Yes.
    Mr. Kucinich. And what kind of confidence-building measures 
could be introduced to take us to a point where we could reopen 
inspections, get verification, and avert another war?
    Dr. Blix. I think if negotiations were to go forward, maybe 
there would be an opportunity of that, because at the present 
time the Iranians are only accepting inspection under the old 
type of safeguards. They did for a long time accept the 
inspection under the strengthened safeguards regime, and that 
was as a confidence-building measure. And when the case of Iran 
was moved to the Security Council against their protest, that 
was when they said all right, we will now also not accept these 
more-intrusive inspections. So I think if there were to be some 
relaxation or some negotiations, maybe as a part of those 
negotiations and part of the deal that they would have to 
accept more-intrusive inspections if there were to be such.
    Mr. Kucinich. I thank you Dr. Blix.
    Mr. Chairman, this is really the crux of my concern about 
our policies toward Iran. I mean, Dr. Blix has made the case 
that direct talks in connection with the guarantee of not 
attacking. My concern is that we have seen a lot of information 
on the record that covert action has been generated against 
Iran, that the Strategic Air Command has selected 1,500 bombing 
targets that enable deployment toward the Strait of Hormuz is 
in the offing. We have seen the Subcommittee on Intelligence 
report that appears to be somewhat tricked up with respect to 
its assertions about the level of weapons grade uranium 
enrichment.
    So rather than go through all that again, it seems to me it 
would be a lot better for the world if we at least tried direct 
talks and tried to find a way that you could get the kind of 
inspections and verifications that can de-escalate this 
conflict.
    I thank Dr. Blix and thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    Dr. Blix, I will be having some questions, but Mr. Van 
Hollen is here and I want to make sure that he is recognized 
for 10 minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman. I am sorry to be a 
little late. I was on the floor of the House speaking on a bill 
before the Congress.
    I want to begin by thanking you, Dr. Blix, for your service 
at the United Nations as the head of the weapons inspection 
effort in Iraq, and only say that I wish the United States had 
listened to you more carefully, and I believe that if we had 
taken heed of your request for additional time so that weapons 
inspectors could complete their work we would not be in the 
situation we are in in Iraq, so I thank you for your service 
and I also thank you for getting it right, despite lots of 
pressures from lots of different places to try and spin the 
information in ways that certain people would like to have it 
spun. So thank you for being a straight shooter on that.
    Let me just ask you, with respect to the efforts to secure 
fissile material, nuclear material, around the world, I would 
like you to give us an assessment, if you could, of where we 
are. In the United States we have the Nunn-Luger program to try 
and buy up what we commonly refer to as loose nukes with the 
former Soviet Union. There are obviously other sources of 
fissile material around the world.
    The bipartisan 911 Commission, when they gave their final 
report card to the Congress with respect to nonproliferation 
efforts, they gave the U.S. Government a D, a failing grade, 
when it came to the effort to secure weapon of mass 
destruction.
    I would like, if I could get it, your assessment, not 
necessarily with respect to only U.S. efforts, but our 
worldwide efforts to get a handle on this material. Thank you.
    Dr. Blix. Well, sir, I would hate to grade the efforts. We 
have seen such efforts for a very long time. I mentioned a 
while ago the conversion of research reactors from the use of 
high-enriched uranium to low-enriched uranium. That has been 
going on from the time that I was at the IAEA, and it is a long 
time now since the cold war ended and money and efforts have 
been put into Russia in order to secure the material, put 
better locks on the doors, etc., and to move back into Russia 
and material that was abroad. In Kazakhstan and other places 
there was quite a dramatic expedition for Kazakhstan. I think 
the latest case I read about was some place in former Serbia, 
former Yugoslavia, where there was material. So I think that 
has been doing on for some time, and certainly the situation 
ought to be much better now than it was 10 years ago.
    But, as I said a while ago, I don't think it is a terribly 
expensive program compared to many other things that we do in 
the nuclear field, and therefore I favor the threat reduction 
programs and the other measures that are being taken. I think 
they are money well invested. I do not feel quite as alarmed as 
some of my colleagues are. The risks are not zero, but the 
world has been active and the U.S. has been very diligently 
active for a long time, and I express my appreciation for that, 
too.
    Mr. Van Hollen. If I could just followup, Mr. Chairman, on 
that issue, in addition to just sort of continuing the program 
at its current pace, do you have any recommendations for what 
we should do to speed up the process of trying to track down 
these different sources? I guess let me ask you this: do you 
have a fair amount of confidence that we have, No. 1, 
identified all these sources, the existence of loose nuclear 
material, No. 1? And, No. 2, do you have a high level of 
confidence that it is being guarded, protected in a way that it 
is not stolen or made off with by people who we don't want to 
have it fall into their hands?
    I just try to get a rough assessment, because, as I said, 
the bipartisan Commission gave us just last December a D in the 
U.S. Government in this area, and I am curious as to what 
additional measures, if any, you think we should be taking.
    Dr. Blix. You have probably looked at more material than I 
have, but I think I would have been more lenient in my grading 
of it. I mean, Russia was off to a fairly regimented state, and 
I think the communist system kept fairly good control, but 
there could have been sloppiness in that regime, as well. But 
considering that they have been active for such a long time 
now, I would feel a little less worried about it.
    Mr. Van Hollen. In the interest of time, Mr. Chairman, I 
know we have a couple more panels here.
    Mr. Shays. Thank you very much.
    Mr. Platts, do you have any questions?
    Mr. Platts. No.
    Mr. Shays. OK. Let me not take my full 10 minutes, but let 
me first ask you the scenario. There may not be a good answer, 
but the question is: what does the world do when a nation, say 
like Pakistan, for instance, is under the command of a coup, a 
very Islamic state sympathetic to potential Islamist 
terrorists? What are the mechanisms available to contain the 
weapons grade material before there is the possibility of it 
getting in the hands of terrorists?
    Dr. Blix. I don't think I have a good answer to give you, 
Chairman Shays, on that. It would be a very severe situation.
    A little moment ago I said that the U.N. charter allows 
states to take action, military action, in self defense against 
an armed attack, and that is interpreted nowadays to be an 
imminent threat from an armed attack. But beyond that, if the 
world wants to take an armed action of some kind, the Security 
Council can authorize it.
    Mr. Shays. The challenge we have, candidly, is that, you 
know, it just takes one no vote from the permanent members of 
the Security Council, and we saw that very clearly from our 
standpoint that France and Russia were not entirely without 
conflict, to say it in a gentle way, about any movement in Iraq 
even if Saddam had weapons. That is the challenge. The oil for 
food program was pretty clear about its consequence. So not 
necessarily, but it is something that obviously would you agree 
the world is going to have to wrestle with, and would it be 
better to wrestle with the mechanism before that happens or 
wait until it happens?
    Dr. Blix. Well, I would feel a little less pessimistic 
about the Security Council. After all, we have seen that in the 
case of Iran the Council has, even though it is only a minute 
quantity of uranium that has been enriched, the Council, with 
the support or acceptance by the Russians and the Chinese, has 
gone along with threatening of a sanction.
    Mr. Shays. Let me ask you this: is there any doubt in your 
mind where the Iranians are headed?
    Dr. Blix. Yes.
    Mr. Shays. There is doubt?
    Dr. Blix. See, I don't think it is conclusively shown. I 
pointed to indications such as the 40-megawatt reactor. But I 
think, especially after the experience in Iraq, I don't want to 
jump to conclusions, and frankly I don't think that it matters 
very much what their intentions are.
    Mr. Shays. Let me ask you, though, short of sanctions--I 
realize this is the stick, but short of sanctions--it seems to 
me sanctions are one step before actually using military force.
    Dr. Blix. Yes.
    Mr. Shays. What is surprising to me is the lack of 
willingness on the part of the western European nations to use 
sanctions.
    Dr. Blix. I share that view. I think the threat of 
sanctions is counterproductive vis-a-vis Iran now. I think that 
they are much more likely to make the Iranians dig down their 
heels and be feeling that they are being treated unfairly, and 
that the carrots are more effective.
    Mr. Shays. OK.
    Dr. Blix. If I may return to the other situation which you 
described, which is a scary one when you have perhaps a country 
like Pakistan or other countries and you have a coup and you 
have some people who seem very dangerous in power, that I am 
saying that the Security Council would have to grapple with it. 
I am not so pessimistic about the possibility of coming to 
agreement in the Security Council when they were able to come 
to an agreement even in the case of Iran. I think that they 
might also come to agreement in how they would wrestle with the 
situation. It is by no means a given that Russia or China would 
take that with equanimity.
    Mr. Shays. Do you think that Iran has a unique situation, 
given its wealth and particularly natural gas and oil, as well? 
do you think that gives them a bargaining chip that may 
compromise sound decisions on the part of western Europe, in 
particular, and other nations dependent on energy?
    Dr. Blix. I am not quite sure I get it.
    Mr. Shays. The question is this: is the challenge with Iran 
that in some cases those nations that don't want them to move 
forward with a nuclear program have the concern that Iran, 
given its incredible wealth of natural gas and oil, are in a 
position to manipulate Europe, in particular, and Europe is 
somewhat compromised by the fact that we are dealing with a 
nation that has this economic energy resource that they can use 
as a bargaining chip?
    Dr. Blix. I don't think that the French or the Russians are 
very much influenced by the economic relations with Iran. I 
think the Russians are sincere when they say that they are also 
very eager that iran should not move to nuclear weapons. They 
are neighbors with Iran. So I wouldn't immediately ascribe some 
oil motivations on their part for going slowly.
    I think the Europeans, too, have wanted more to go for the 
carrots than for the sticks, and on that----
    Mr. Shays. And admittedly I am not from Europe and I have 
limited knowledge, but I read that action candidly as, in part, 
the fact that they are very dependent on energy from that part 
of the world.
    Dr. Blix. We all are.
    Mr. Shays. Well, we all are indirectly, in some cases 
directly. We all are.
    Dr. Blix. Yes.
    Mr. Shays. But the sense that we get, living where we live 
here, is that we can't get the Europeans to be definitive 
enough. The Iranians know it and know that we are divided, 
Europe and the United States, and believe that a United States 
embargo is basically inconvenient but not destructive. Their 
big concern is what Europe does. My concern is, if Europe 
doesn't step up and doesn't confront Iran, they almost force 
the worst alternative, which is armed conflict, which I think 
is unlikely, but it strikes me that is where they push us if 
they, in fact, aren't willing to use the one tool that could 
have impact.
    Dr. Blix. But you are really visiting the possibility of an 
escalation before one has exhausted the various cards. In my 
view there are still cards available. They should be tried. I 
cannot guarantee you that they will work in the end, but I 
think they must be tried before you contemplate some further 
action.
    Mr. Shays. Given we didn't find weapon of mass destruction 
in Iraq, I know our credibility has been hurt, but in the end 
let me ask this last question then. What is the consequence of 
an Iran with a nuclear weapons program? Tell me the 
consequence. Is it something that I should be willing to 
accept? Do you anticipate Saudi Arabia and Egypt responding? Do 
you anticipate that its impact would be minimal or quite 
significant?
    Dr. Blix. I think the impact of a North Korea moving on or 
the domino effects there could be more serious, because we 
already saw the reactions in Japan on the North Koreans testing 
missiles, which did not hit any Sea of Japan, I think they 
were, where they expected them to be. But if they move on and 
if Japan were to abandon its policy, which is very strongly 
rooted, and I think it would move a lot to move Japan away from 
nonproliferation, but if it were to, then I think that the 
tension in the Far East between China----
    Mr. Shays. Let me----
    Dr. Blix. That is, I think, a more serious perspective, 
getting back to the point where you are.
    Mr. Shays. Let me just say, though, more serious concerned 
to very serious is still both serious. So how do you rate Iran? 
If they get a nuclear program, do you anticipate Egypt and 
Saudi Arabia, in particular----
    Dr. Blix. There is a different time perspective. I mean, 
Japan is a country that has enormous amounts of enriched 
uranium and plutonium sitting on it, and in the Middle East you 
don't have that.
    Mr. Shays. Let's forget North Korea because I am going to 
concede North Korea would be hugely detrimental.
    Dr. Blix. In the Middle East the countries there--Egypt, 
Saudi Arabia, Syria, Turkey--they are not at that level. They 
have a long way----
    Mr. Shays. But would it compel them to get to that level?
    Dr. Blix. Well, that is a speculation. I don't think----
    Mr. Shays. Well, that is what we have to do in this 
business. We have to speculate. I mean, that is part of--we do 
have to speculate. I mean, in my travels to the Middle East--
and they are frequent, very frequent--we have a sense that 
Cutter has already basically come to the conclusion that Iran 
is going to be a far more dominant power, may have a nuclear 
program, and we are already seeing Al Jazeera even be far more 
sympathetic to Iran than they were before. That is what we are 
seeing. We call that hedging your bets.
    How do Saudi Arabia and Egypt hedge their bets? Do they 
start to develop a nuclear program or do they just cave in to 
and accept Iran has it and they don't?
    Dr. Blix. Well, we have seen no signs of their moving in 
that direction.
    Mr. Shays. OK.
    Dr. Blix. It would take a long time before they would be 
able to do so. But I share your view. I mean, my starting point 
that it would be desirable to persuade Iran to stay away from 
it and that we have many carrots. There are many carrots that 
could still be used for that purpose.
    Mr. Shays. Well, I didn't intend to use my 10 minutes, but 
you are such an interesting man. Let me do this. Is there any 
question that we should have asked you that we didn't? I mean, 
we have a number, but we are not going to ask. We will write 
you a question or two, if you don't mind responding, but is 
there anything you want to put on the record?
    Dr. Blix. You touched upon one issue which is also close to 
my heart, and that is that of energy. Under the areas of the 
world which are dangerous, really dangerous, Middle East and 
Central Asia is also getting fairly tense, and they are areas 
in which you have a lot of oil and gas resources, I think that 
trying to restrain the consumption of oil and gas is an 
important, very important mission. Of course, most people talk 
about it in terms of hydrocarbons and in terms of global 
warming and emission or carbon dioxide, and I share that 
completely. I think I am more worried long-term about global 
warming than I am worried about weapon of mass destruction long 
term. I think we can solve the second issue.
    However, this means that going for peaceful nuclear power 
is a good thing; that we need to rely on it. I am not against 
wind power and not against solar power, but you are not solving 
energy problems of Shanghai or Calcutta by these; therefore, I 
am in favor of the Chinese developing their nuclear. When I was 
IAEA I tried to give maximum assistance to the Chinese in the 
field of safety and waste disposal. I think the same way of the 
Indian program. Many of my friends in the disarmament area are 
very averse to the Indian program, and I can also see and I 
have pointed out here the dangers in the field of proliferation 
with India, but basically to assist India to get the latest 
technology to develop nuclear power for energy, which will 
reduce somewhat their demand for fossil fuels, I think is 
possible.
    Mr. Shays. You raise the question. I am so sorry to just 
have to extend this, but do you compliment the United States on 
our outreach to India, or are you critical to our outreach to 
India as it relates to nuclear?
    Dr. Blix. Both.
    Mr. Shays. OK.
    Dr. Blix. And the Commission takes that view. We say it s 
not our job to discuss energy within the Commission. Some 
people would have been negative to that. But on the 
nonproliferation side, yes there are dangers, and we feel that 
they could be remedied, I think, if the U.S. were to go ahead 
with a convention prohibiting the production of fissile 
material for weapons purposes. If they joined that, if it were 
verification, then Indian enrichment plant and reprocessing 
plants would also be under inspection and there would not be a 
risk that Pakistan and China would fear that India would 
accumulate more weapons and hence the risk that Pakistan and 
China would also increase.
    Mr. Shays. OK. That is the criticism. What is the positive?
    Dr. Blix. That is a criticism, yes.
    Mr. Shays. Give me the positive. Since you have both, let's 
make sure we put on the record the positive. What is the 
positive?
    Dr. Blix. The positive side, organizing the energy side, 
that India would have access to the most modern technology for 
peaceful nuclear power and therefore would restrain its thirst 
for oil.
    Mr. Shays. OK. Thank you so very, very much for being here.
    Is there any last point you want to make or are we all set?
    Dr. Blix. No. I was grateful for the credit that we got as 
inspectors and that we were looking for the truth. We did not 
assert that there are no weapon of mass destruction. We have 
been criticized by some people saying you could have saved the 
situation by saying there were none, but we were actually 
working as inspectors should. We looked at the ground, we----
    Mr. Shays. Are we talking about Iraq?
    Dr. Blix. In Iran I think they are also being entirely 
professional. I think the IAEA has done--I haven't followed in 
such detail, but we act as international civil servants. The 
job of civil servants is to compile a dossier for the 
decisionmakers, the Security Council or the government. We were 
not politicizing. We were trying to be very factual and 
professional, and I think there is a great value in that.
    While criticism of the intelligence community has been that 
they are bent, in some cases, bent a little to the interests of 
the decisionmakers, we did not do that.
    Mr. Shays. I think that is clear. Again, we appreciate your 
very noble work and your long service to your country and to 
the United Nations and to this issue, in particular. You are a 
man of great distinction and you honor our subcommittee by your 
presence here. We thank you so much.
    We will have a 1-minute recess and then we will get to our 
next panel.
    [Recess.]
    Mr. Shays. Our second panel is William H. Tobey, Deputy 
Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration, Department of Energy; Mr. 
Andrew K. Semmel, Deputy Assistant Secretary, International 
Security and Nonproliferation, Department of State; Mr. Jack 
David, Deputy Assistant Secretary of Defense for Combating WMD 
and Negotiations Policy, Department of Defense; and Mr. Gene 
Aloise, Director, Natural Resources and Environment, Government 
Accountability Office.
    This is a panel of four members. We appreciate their 
presence. I am going to thank the Executive Department for 
their willingness to have a legislative member sit in so we did 
not have to have four panels. That makes it move a little more 
quickly.
    We will start with Mr. Tobey, and we will go to Mr. Semmel 
and then Mr. Jack David.
    Mr. David, it is my understanding that this may be your 
last official act serving for the Government; is that correct, 
sir?
    Mr. David. Yes, sir, unless there is something in the next 
2 days that you have in mind.
    Mr. Shays. Well, let me just say all of us thank you for 
your service to our country. I just want to applaud you. Thank 
you very much.
    Mr. David. Thank you very much.
    [Applause.]
    Mr. Shays. Let me welcome all of our witnesses. I thank you 
for your extraordinary patience. We didn't think this first 
panel would go as long as it did, but in hindsight we probably 
should have.
    I hope that you feel free to respond to anything you have 
heard asked during the first panel. Your full statement will be 
submitted for the record.
    We will, again, start with you, Mr. Tobey.
    I think I need to say for the record that two of our 
witnesses happen to be from Connecticut. Mr. Tobey, actually 
you are a constituent, so that makes it very awkward for me. 
And Mr. Jack David, you are also from Connecticut, but not from 
the District, less awkward. Welcome to both of you.
    Mr. Tobey, you have the floor.

   STATEMENTS OF WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
   DEFENSE NUCLEAR PROLIFERATION, NATIONAL NUCLEAR SECURITY 
ADMINISTRATION, DEPARTMENT OF ENERGY; ANDREW K. SEMMEL, DEPUTY 
        ASSISTANT SECRETARY, INTERNATIONAL SECURITY AND 
   NONPROLIFERATION, DEPARTMENT OF STATE; JACK DAVID, DEPUTY 
  ASSISTANT SECRETARY OF DEFENSE FOR COMBATING WEAPON OF MASS 
DESTRUCTION AND NEGOTIATIONS POLICY, DEPARTMENT OF DEFENSE; AND 
   GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
                GOVERNMENT ACCOUNTABILITY OFFICE

                 STATEMENT OF WILLIAM H. TOBEY

    Mr. Tobey. Thank you, Mr. Chairman. I should actually 
perhaps point out that when I am not in New Canaan I am in 
Bethesda, Maryland.
    Mr. Van Hollen. I was going to say I am a little confused 
because I thought Mr. Tobey was my constituent.
    Mr. Shays. Well, let me ask you this: where do you vote?
    Mr. Tobey. I vote in Maryland, but when the President 
nominated me he said of Connecticut.
    Mr. Van Hollen. We won't take it any farther then.
    Mr. Shays. No, he has friends in the District. Let's leave 
it at that.
    OK, Mr. Tobey, we will get back to business.
    Mr. Tobey. Thank you, Mr. Chairman.
    Mr. Shays. And we will strike out all that we said from the 
record when we get a chance.
    OK, you are on. Mr. Tobey, welcome to this hearing. You 
have the floor.
    Mr. Tobey. Thank you, sir. Thank you for the opportunity to 
testify on a vital topic. I offer summary remarks and ask that 
my written testimony be submitted for the record.
    Under President Bush's direction the United States has 
taken many steps to meet this complex and dangerous threat on 
proliferation. Last week I accompanied Secretary Bodman to 
Vienna to attend the General Conference of the International 
Atomic Energy Agency. It is clear that the work of the IAEA and 
the effectiveness of the Nuclear Non-Proliferation Treaty and 
its associated instruments is a major international concern.
    Over the past 35 years the NPT has scored important 
victories, but serious challenges remain. Examples include the 
violations of Iran and North Korea, the dispersion of sensitive 
nuclear technologies by proliferation networks and terrorists 
seeking WMD capabilities.
    It is the goal of the United States to address these 
challenges in ways that strengthen and supplement the Non-
Proliferation Treaty. In my testimony today I will highlight 
our efforts to reduce and protect nuclear stockpiles, to 
strengthen the nonproliferation regime, and to promote the 
Global Nuclear Energy Partnership.
    In the area of nuclear reductions our record is undeniably 
strong. Since 1988 the Department of Energy has dismantled more 
than 13,000 weapons and has completed the dismantlement of most 
non-strategic nuclear weapons. By the end of 2012 the stockpile 
will be at its smallest level in several decades.
    Mr. Shays. Mr. Tobey, I am embarrassed to say after 10 
years this is the first time I think I have ever failed to 
swear in a panel. The only one we have never sworn in was the 
senior Senator from West Virginia because I chickened out, but 
I am not intimidated by any of you. I need you to stand and 
swear you in. I am so sorry.
    [Witnesses sworn.]
    Mr. Shays. You are reading from your written statement. We 
know that all of your statement is the truth and you are sworn 
in and everything that proceeded is the truth, and you are on. 
I am so sorry to interrupt you.
    Mr. Tobey. Certainly, sir.
    We have also removed 374 metric tons of highly enriched 
uranium from Defense stocks, converting 92.2 metric tons to 
low-enriched uranium and reserving 17.4 metric tons to support 
the President's proposal on reliable access to nuclear fuel.
    Our efforts with Russia to secure nuclear materials are 
also without precedent. We have eliminated more than half of 
500 metric tons of highly enriched uranium from Russian weapons 
in an agreement running through 2013. The United States and 
Russia have committed to dispose of 34 metric tons each of 
excess weapons plutonium. Under the Bratislava Initiative 
agreed by President Bush and by Russian President Putin in 
2005, we are accelerating by 2 years, to 2008, the securing of 
weapons grade fissile materials in Russia. These materials will 
be out of circulation and protected against theft.
    Second, I would like to highlight is our work to improve 
the nuclear nonproliferation regime within the existing NPT 
framework and through new mechanisms. In his speech of February 
11, 2004, President Bush challenged the world's leading nuclear 
supplies to strengthen controls on the most sensitive nuclear 
technologies and enrichment and reprocessing to assure fuel 
supplies to states with reliable access at reasonable cost, so 
long as those states forego enrichment and reprocessing 
technologies and are in good standing with their 
nonproliferation commitments. These initiatives are under 
discussion in the Nuclear Supplies Group and at the 
International Atomic Energy Agency.
    In addition to strengthening international arrangements, 
the Department is working with more than 70 states worldwide to 
prevent illicit trafficking of nuclear materials and WMD 
technologies and to update international guidelines for the 
physical protection of nuclear materials and facilities.
    Third, I would like to highlight an initiative that 
President Bush recently announced, the Global Nuclear Energy 
Partnership. Through GNEP we propose new measures in 
proliferation-resistant technologies that will facilitate 
achieving the NPT's twin goals: promotion of peaceful nuclear 
uses and prevention of nuclear proliferation. Our aim is to 
provide energy and security using mechanisms that allow states 
to avoid the burdens associated with long-term storage of spent 
fuel in uranium enrichment programs that serve no rational 
economic or energy purpose.
    Finally, I would note that President Bush and President 
Putin at St. Petersburg launched the global initiative to 
combat nuclear terrorism. This initiative provides the means to 
carry out the mandates of U.N. Security Council Resolution 
1540. While great progress has been made to prevent 
proliferation, much more work needs to be done, and the 
Department of Energy is committed to addressing the 
nonproliferation challenges of our changing world and we look 
forward to working with Congress and our international partners 
in accomplishing still more in the future.
    Thank you.
    [The prepared statement of Mr. Tobey follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.024
    
    [GRAPHIC] [TIFF OMITTED] 35767.025
    
    [GRAPHIC] [TIFF OMITTED] 35767.026
    
    [GRAPHIC] [TIFF OMITTED] 35767.027
    
    [GRAPHIC] [TIFF OMITTED] 35767.028
    
    [GRAPHIC] [TIFF OMITTED] 35767.029
    
    [GRAPHIC] [TIFF OMITTED] 35767.030
    
    [GRAPHIC] [TIFF OMITTED] 35767.031
    
    [GRAPHIC] [TIFF OMITTED] 35767.032
    
    [GRAPHIC] [TIFF OMITTED] 35767.033
    
    Mr. Shays. Thank you, Mr. Tobey.
    Mr. Semmel.

                 STATEMENT OF ANDREW K. SEMMEL

    Mr. Semmel. Let me say, Mr. Chairman, first of all that I 
regret that I neither live in Connecticut or Maryland, but I am 
looking for new housing.
    Mr. Shays. It is a great place to live.
    Mr. Semmel. I live in Virginia, unfortunately.
    I am pleased to have the opportunity to come before this 
committee to discuss the Nuclear Non-Proliferation Treaty, the 
NPT, and steps needed to strengthen the NPT regime. I might say 
that I appreciate the very thoughtful set of questions that you 
have sent in your letter of invitation. My prepared statement, 
which is longer, will address these questions more directly.
    It is clear, Mr. Chairman, that the nuclear 
nonproliferation regime and the NPT face serious and 
unprecedented challenges today, with unresolved cases of 
noncompliance and even withdrawal from the treaty. The regime 
is now at a critical crossroads. One road leads to a crisis 
stemming from noncompliance of states' parties and the 
weakening of a nonproliferation regime. The other leads to a 
strengthening of the treaty regime to keep it strong through 
the 21st century.
    At this moment in history the first order of business must 
be to ensure that those states not in compliance with their NPT 
obligations come back into compliance, that no new states 
develop the capability to produce nuclear weapons, and that no 
terrorist entity has access to sensitive nuclear materials. 
Failure to achieve these goals will undermine the NPT and the 
critical role it plays in promoting nuclear nonproliferation.
    The NPT is intended to stop the spread of nuclear weapons 
and materials related to the production of these weapons. That 
we could be here today, 36 years after the treaty entered into 
force, and not count 20 or more nuclear weapon states as some 
predicted in the 1960's is a sign of the treaty's success. That 
other states have stepped back from pursuing nuclear weapons 
capabilities also testifies to its success. But the historical 
record of success of the NPT should not induce complacency. 
There is much more work to be done.
    One of the key concerns that other states have raised 
regarding the NPT is the claim that the nuclear weapons states, 
and particularly the U.S., are not doing enough to fulfill the 
disarmament provisions embedded in article six of the NPT. Some 
non-nuclear weapon states argue that, since the nuclear weapon 
states have not totally eliminated their nuclear weapons 
stockpiles, the NPT is failing, and that they, the non-nuclear 
weapon states, should not be required to comply with their 
obligations to abstain from pursuing nuclear weapons 
capabilities. They take this view, despite the significant 
reductions in nuclear arsenals by the United States, Russia, 
the U.K., France, particularly since the end of the cold war.
    We have to explore a range of options and approaches to 
nonproliferation. The United States has taken a number of 
unilateral steps that serve to reduce our reliance on nuclear 
weapons and to reduce the U.S. nuclear stockpile. These are 
spelled out in detail in my longer statement, but let me 
mention here briefly that we have done some of the following:
    We have dismantled 13,000 nuclear weapons since 1988.
    We have not produced any fissile material for weapons since 
the late 1980's.
    The production of our weapons, HEU, halted in 1964.
    We have dismantled more than 3,000 non-strategic nuclear 
weapons.
    Our article six record is significant, and the trend lines 
in reliance on nuclear weapons have been steadily downward. The 
chief challenge to the security benefits of the NPT come not 
from the supposed failure of the nuclear weapon states to 
disarm, but from the proliferation activities of the treaty's 
non-nuclear weapon states. While we have been downsizing our 
nuclear stockpiles, others have started or advanced their 
nuclear weapons programs. North Korea withdrew from the NPT and 
then announced it has nuclear weapons. The Kahn network was 
illegally shipping nuclear materials and weapons designs to 
other states and Iran's secret nuclear sites at Natans and 
elsewhere were exposed.
    Bilateral efforts between the United States and Russia have 
led to significant cuts in both nations' nuclear arsenals and 
stockpiles of fissile materials for use in nuclear weapons. The 
cooperative threat reduction programs that began in the mid to 
early 1990's have been instrumental in reducing stockpiles of 
strategic weapons. Our CTR programs have also been instrumental 
in redirecting former nuclear weapons scientists to peaceful, 
sustainable employment.
    Multilaterally we are seeking to strengthen the nuclear 
nonproliferation regime in a number of ways. I will just 
mention a few: through the full implementation of United 
Nations Security Council 1540, through universal adherence to 
the IAEA's additional protocol, through efforts at the Nuclear 
Suppliers Group to make the additional protocol a condition of 
nuclear supply, through the creation of the IAEA Committee on 
Safeguards and Verification, through the expansion of the 
proliferation security initiative, and through closing the NPT 
loophole by restricting enrichment and reprocessing technology, 
to site a few examples.
    Increasing emphasis on nonproliferation and compliance in 
multilateral fora, such as the various export control regimes, 
border security programs, and the convention of the physical 
protection of nuclear materials are helping to engineer a much-
needed paradigm, a shift in the global nuclear nonproliferation 
regime.
    That said, if multilateral organization arrangements fail 
to impose consequences on those such as North Korea and Iran 
who violate their nonproliferation commitments, the credibility 
of such fora will be called into question. The continued 
failure of the Conference on Disarmament in Geneva, for 
example, to break the linkages on issues so that negotiation on 
a fissile material cutoff treaty can begin is emblematic of 
this problem.
    Let me conclude by saying that to be successful we have to 
be able to adapt to changing circumstances and utilize a full 
range of nonproliferation tools, some of which I have cited 
today. We must have a global nonproliferation architecture that 
ranges from limiting access to dangerous materials and 
technology and securing them at the source, to enacting export 
and border patrols, to impeding WMD-related shipments during 
transport, and to enforcing domestic, regulatory, and 
administrative practices to guard against illegal activity.
    At the core of all this architecture is the NPT. Without a 
global consensus as embodied in the NPT, we and other like-
minded countries could not marshal enough support to tackle the 
increasingly important and complex proliferation problems.
    That concludes my statement, Mr. Chairman.
    [The prepared statement of Mr. Semmel follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.034
    
    [GRAPHIC] [TIFF OMITTED] 35767.035
    
    [GRAPHIC] [TIFF OMITTED] 35767.036
    
    [GRAPHIC] [TIFF OMITTED] 35767.037
    
    [GRAPHIC] [TIFF OMITTED] 35767.038
    
    [GRAPHIC] [TIFF OMITTED] 35767.039
    
    [GRAPHIC] [TIFF OMITTED] 35767.040
    
    [GRAPHIC] [TIFF OMITTED] 35767.041
    
    [GRAPHIC] [TIFF OMITTED] 35767.042
    
    [GRAPHIC] [TIFF OMITTED] 35767.043
    
    Mr. Shays. Thank you, Mr. Semmel.
    Mr. David.

                    STATEMENT OF JACK DAVID

    Mr. David. Chairman Shays, Congressman Van Hollen, I will 
try to abbreviate very substantially the formal written 
statement I submitted, and also to reduce in size my oral 
statement, as well, in view of what my colleagues have said, 
which I fully endorse with the Defense Department.
    I thank you for the opportunity to testify on weapon of 
mass destruction, current nuclear proliferation challenges, on 
this my last week as Deputy Assistant Secretary of Defense for 
Combating WMD and Negotiations Policy. President Bush is 
committed to countering the threat of nuclear proliferation, 
and the Department of Defense's role in supporting the 
President is based on his 2002 National Strategy to Combat 
Weapons of Mass Destruction and his 2006 National Security 
Strategy.
    Our goal is summarized by these words from the President's 
2004 State of the Union Address: America is committed to 
keeping the world's most dangerous weapons out of the hands of 
the most dangerous regimes.
    Multilateral arms control and nonproliferation treaties and 
regimes are key components of our strategy, with the Nuclear 
Non-Proliferation Treaty, the NPT, at the forefront. President 
Bush has called the NPT ``a critical contribution to 
international security.'' The NPT is a principal element of an 
expanding legal framework devised to curb the development of 
nuclear weapons programs. We have sought to strengthen it.
    In February, 2004, President Bush, addressing an audience 
of the National Defense University on curbing WMD, offered 
proposals to strengthen the NPT. He urged the creation of a new 
committee specifically mandated to concentrate on safeguards 
and additional protocol issues. He asked that all members of 
the NPT complete and adhere to safeguards and additional 
protocol agreements. He asked that the additional protocol be a 
condition for a state to receive support for its civil nuclear 
program.
    U.S. efforts to address nuclear proliferation go beyond 
supporting and trying to strengthen the NPT. In May, 2003, 
President Bush launched the proliferation security initiative, 
which now boasts more than 75 participating states. The United 
States also played a leading role in the April, 2004, U.N. 
Security Council passage of resolution 1540, which requires 
states to control who may possess and export WMD-related 
material and technology.
    The cooperative threat reduction program administered by 
the Department of Defense is another major effort to thwart 
nuclear proliferation. DOD's CTR efforts successfully assist 
Russia, Belarus, Kazakhstan, and Ukraine in dealing with the 
disposition of nuclear warheads and materials.
    Since 2002, DOD's CTR efforts have included portal programs 
to detect illicit movement of nuclear materials, as well as 
programs to move WMD to central locations where they can be 
secured. These programs are part of the proliferation 
prevention initiative.
    The nuclear nonproliferation measures we and other 
countries have supported have not been successful in all 
respects. World regimes, unscrupulous profiteers, and non-state 
actors such as the A.Q. Kahn network have traded in nuclear 
materials and technology. This illicit trade has provided 
important assistance to the nuclear weapons programs of other 
countries, including Libya and Iran.
    We live in an era where economic pressures and competition 
for fossil fuels make nuclear energy an important alternative 
to guaranteeing the world prosperity. With the use of nuclear 
energy comes the immense challenge of safeguarding nuclear 
technology and materials from uses that can bring about 
horrible consequences.
    State and non-state actors with bad motives are ever ready 
to create a nightmare out of the dream of energy sufficiency. 
It is to prevent such an outcome that we must do all we can to 
prevent proliferation of nuclear materials.
    Thank you very much.
    [The prepared statement of Mr. David follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.044
    
    [GRAPHIC] [TIFF OMITTED] 35767.045
    
    [GRAPHIC] [TIFF OMITTED] 35767.046
    
    [GRAPHIC] [TIFF OMITTED] 35767.047
    
    Mr. Shays. Thank you.
    Mr. Aloise.

                    STATEMENT OF GENE ALOISE

    Mr. Aloise. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss IAEA's safeguard program 
and other measures to halt the spread of nuclear weapons and 
materials.
    Reports about the clandestine nuclear weapons programs in 
North Korea, Iran, and Libya, as well as covert nuclear 
trafficking networks have increased international concerns 
about the spread of weapon of mass destruction. Since the NPT 
came into force in 1970, IAEA safeguards have been a 
cornerstone of U.S. and international efforts to prevent 
nuclear proliferation. In addition to safeguards, other U.S. 
and international efforts to prevent the spread of nuclear 
weapons, materials, and technologies have included the Nuclear 
Suppliers Group and U.S. assistance to Russia and other 
countries to secure nuclear materials and warheads.
    My remarks today will focus on our most recent report on 
IAEA safeguards system because safeguards is the most important 
mechanism used to ensure compliance with the NPT.
    Despite successes in uncovering some countries' undeclared 
nuclear activities, safeguards experts acknowledge that a 
determined country can still conceal a nuclear weapons program. 
IAEA continues to strengthen safeguards by more aggressively 
seeking assurances that a country is not pursuing a clandestine 
nuclear program. To help do this, IAEA uses measures such as 
conducting short-notice and unannounced inspections, collecting 
and analyzing environmental samples, and using unattended 
measurement and surveillance systems.
    State Department and IAEA officials told us that safeguards 
have successfully revealed undisclosed nuclear activities in 
countries such as Iran. Despite successes, IAEA safeguards have 
limitations. If a country decides to divert nuclear material or 
conduct undeclared activities, it will deliberately work to 
prevent the Agency from discovering this. Furthermore, any 
assurances by IAEA that a country is not engaged in undeclared 
activities cannot be regarded as absolute, and, importantly, 
there are a number of weaknesses that hamper the Agency 's 
ability to effectively implement safeguards, including:
    IAEA has only limited information about the nuclear 
activities of Pakistan, India, Israel, and North Korea. Since 
these countries are not members of the NPT, they do not have 
comprehensive safeguards agreements and are not required to 
declare all their nuclear material.
    Another weakness is that more than half of the NPT 
signatories have not yet adopted the additional protocol, a 
separate agreement designed to give IAEA nuclear authority to 
search for covert nuclear activities. Further, safeguards are 
significantly limited or not applied in about 60 percent of the 
NPT signatories, because either these countries have not signed 
comprehensive safeguard agreements or they claim they possess 
only small quantities of nuclear material and are exempt from 
most safeguards measures.
    Last, IAEA is facing a human capital crisis that threatens 
the safeguards missions. In 2005 we reported that over 50 
percent of senior safeguards inspectors and high-level 
safeguards officials are retiring in the next 5 years. In our 
2005 report we recommended a number of actions designed to 
address the weaknesses in IAEA's safeguards program.
    IAEA has been called upon by its member states to assume a 
greater role in reducing the risks of nuclear proliferation; 
however, as its responsibilities continue to expand, the Agency 
faces a broad array of challenges that hamper its ability to 
fully implement its safeguards system.
    Mr. Chairman and members of the subcommittee, that 
concludes my statement. I would be happy to address any 
questions you may have.
    [The prepared statement of Mr. Aloise follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.048
    
    [GRAPHIC] [TIFF OMITTED] 35767.049
    
    [GRAPHIC] [TIFF OMITTED] 35767.050
    
    [GRAPHIC] [TIFF OMITTED] 35767.051
    
    [GRAPHIC] [TIFF OMITTED] 35767.052
    
    [GRAPHIC] [TIFF OMITTED] 35767.053
    
    [GRAPHIC] [TIFF OMITTED] 35767.054
    
    [GRAPHIC] [TIFF OMITTED] 35767.055
    
    [GRAPHIC] [TIFF OMITTED] 35767.056
    
    [GRAPHIC] [TIFF OMITTED] 35767.057
    
    [GRAPHIC] [TIFF OMITTED] 35767.058
    
    [GRAPHIC] [TIFF OMITTED] 35767.059
    
    [GRAPHIC] [TIFF OMITTED] 35767.060
    
    [GRAPHIC] [TIFF OMITTED] 35767.061
    
    [GRAPHIC] [TIFF OMITTED] 35767.062
    
    [GRAPHIC] [TIFF OMITTED] 35767.063
    
    [GRAPHIC] [TIFF OMITTED] 35767.064
    
    [GRAPHIC] [TIFF OMITTED] 35767.065
    
    [GRAPHIC] [TIFF OMITTED] 35767.066
    
    [GRAPHIC] [TIFF OMITTED] 35767.067
    
    [GRAPHIC] [TIFF OMITTED] 35767.068
    
    [GRAPHIC] [TIFF OMITTED] 35767.069
    
    [GRAPHIC] [TIFF OMITTED] 35767.070
    
    [GRAPHIC] [TIFF OMITTED] 35767.071
    
    [GRAPHIC] [TIFF OMITTED] 35767.072
    
    [GRAPHIC] [TIFF OMITTED] 35767.073
    
    [GRAPHIC] [TIFF OMITTED] 35767.074
    
    [GRAPHIC] [TIFF OMITTED] 35767.075
    
    [GRAPHIC] [TIFF OMITTED] 35767.076
    
    [GRAPHIC] [TIFF OMITTED] 35767.077
    
    [GRAPHIC] [TIFF OMITTED] 35767.078
    
    Mr. Shays. Thank you very, very much.
    Let me start by asking you all how does the IAEA fit into 
our effort to deal with Islamist terrorism? Well, first let me 
do it this way. Is the concern with terrorism that they will 
get weapons grade material or they will actually get the weapon 
and the material? Is there a concern, is there an 
acknowledgement that they can make the weapon, particularly 
enriched uranium, but would have a hard time getting the 
weapons grade material? Do you get where I am coming from? In 
other words, I want to know how relevant the IAEA is to deal 
with the terrorist threat, and I want to know how relevant the 
Non-Proliferation Treaty is to dealing with the terrorist 
threat.
    Who wants to start? Mr. Semmel, I will start with you.
    Mr. Semmel. I think, Mr. Chairman, that in my opening 
remarks I said that we need to have a comprehensive approach to 
nuclear nonproliferation, and that would include a whole 
panoply of programs, such as export controls and protecting 
materials at their sources, and export controls and things like 
that are always essential.
    At the end of the day what we were trying to do, as Jack 
David indicated in his remarks, we want to make sure that 
dangerous materials do not get into the hands of dangerous 
organizations or individuals.
    Now, in order to do that you have to be able to protect or 
destroy some of the sources that the terrorist organizations 
might want to have access to, and, again, there is a variety of 
programs that are essential for doing that.
    The IAEA does have, in addition to its important safeguards 
and inspection roles that it does, it also has a program called 
the nuclear security fund, which is a new program that was set 
up three or 4 years ago, I think, in which the United States is 
the principal contributor to this. Essentially what that 
program does is to ensure greater physical protection at 
facilities and also of materials, better protection of the 
materials at the various nuclear facilities. This is a program 
that the IAEA, in that sense, does have a very direct role in 
terms of making sure that dangerous materials--in this case 
nuclear materials--don't get into dangerous hands.
    I might want to say in your second part of your question, 
one of the things I think that was discovered in the initial 
stages of ousting Al Qaeda from Afghanistan is that there was 
some discovery of documents and materials in which Al Qaeda did 
have some documentation on designs and nuclear weapons. The 
question is what could they do with that. It would be very 
difficult without an infrastructure to be able to take those 
designs and make something of them. So I think it is a long way 
between having----
    Mr. Shays. Let me just ask, before the others respond, do 
you agree that it is relatively easy to build a crude nuclear 
weapon that could create an explosion with using enriched 
uranium? Do you agree that you could build a crude weapon, not 
one that would maximize yield, not one that would be 
particularly large in its impact, but it would still be a 
nuclear explosion? Do you agree with that?
    Mr. Semmel. It could be done. The key is whether or not a 
group would have access to fissile material.
    Mr. Shays. That is the issue.
    Mr. Semmel. Yes. Right.
    Mr. Shays. But we can get beyond this issue of whether they 
can build a specifically.
    Mr. Semmel. Right.
    Mr. Shays. You do agree that they could build a weapon?
    Mr. Semmel. With the right infrastructure and technological 
know-how, yes, and to have access to that.
    Mr. Shays. We are not talking about a small, well-crafted 
weapon with high yield. We are just talking about a weapon.
    Mr. Semmel. Yes. Something beyond a dirty bomb is what you 
are referring to?
    Mr. Shays. Yes. Exactly.
    Mr. Semmel. Right. Yes.
    Mr. Shays. Mr. David, what is your response to that 
question?
    Mr. David. Well, designs for nuclear weapons have been in 
the open ever since a college student wrote his thesis on it 
and published it a long, long time ago.
    Mr. Shays. And ran against my predecessor. Actually, he was 
from Princeton.
    Mr. David. Yes.
    Mr. Shays. So that is clear.
    Mr. David. So there are designs. There is public 
information out there. There are a number of people who know 
how to do the engineering tasks that would allow either a 
complicated or less-complicated weapon. The question is whether 
the ingredients for a terrorist group to create such a weapon 
are easy to come by, and the more ingredients there are and the 
more----
    Mr. Shays. When you say ingredients, weapon grade material?
    Mr. David. I mean the fissile material, the other parts of 
the weapon that are necessary in order to initiate a chain 
reaction, a fusion explosion from the nuclear material, and 
putting them in the right juxtaposition and the like. All of 
those kinds of things are the kinds of things we need to keep 
away from terrorists, and by the means which we have, and we 
have been trying to do that through the IAEA through, 
resolution 1540, through intradiction activities, through the 
proliferation security initiative. All of those efforts are to 
keep away from terrorists the things they would need to make 
WMD.
    Mr. Shays. I don't want to draw a wrong conclusion, but I 
have been spending time since 1998, in particular, in my 
subcommittee looking at this issue. If I am wrong I want to be 
corrected, but, you know, when you hold enriched uranium in 
your hand and you can put it in your pocket, when you hold 
plutonium in your hand wearing a glove, when you realize that 
it doesn't necessarily give out the kind of signal in 
transporting it that I thought it did, when you see a weapon at 
Los Alamos that basically was made with material that you could 
get from commercial sources, I come to the conclusion--and that 
is what I was trying to develop--was where is the effort they 
important.
    Mr. Semmel agrees that you could build a weapon. He agrees 
you have the technology. I infer, Mr. Semmel, also that it 
would not be hard to get the material to build a raw, 
inefficient type of nuclear weapon. That is what I have been 
told. I want to know if that is the case.
    Mr. David, you are sending me mixed signals just a little 
bit because you are implying that the materials to make the 
weapon, we would be able to keep them out of the hands of 
terrorists. I don't think we can. I think the issue really 
relates to one issue on weapons grade material.
    Mr. David. What I had in mind is that the strictures of 
1540 enjoining countries to pass laws that prohibit their 
citizens to aggregate these materials for the purpose of making 
WMD. That is the sort of thing I had in mind.
    Mr. Shays. But tell me if I am wrong, and if you don't know 
tell me that, and if I am wrong tell me I am wrong.
    Mr. David. Say again?
    Mr. Shays. If you don't know if I am wrong, tell me you 
don't know. If you think that I am wrong, tell me I am wrong. 
It is my understanding, based on the work that my subcommittee 
has done, that a terrorist could build a raw, inefficient 
nuclear weapon that would be actually a nuclear fissile, a 
chain reaction. The issue is it wouldn't be something you could 
put on the tip of a missile, but in those days we cared about 
what went on the tip of a missile, so if you couldn't put it on 
a missile we didn't care about it.
    Now comes the wake-up call, September 11th, our fear of 
Islamist terrorists, our knowledge that they want nuclear 
weapons. It is fairly clear to me--if I am wrong, tell me--that 
terrorists could make a very crude nuclear weapon with material 
that mostly is available commercially. If you disagree with 
that, tell me you disagree with it. If you agree with it, tell 
me you agree with it. If you don't know, tell me you don't 
know.
    Mr. Tobey, let's start with you.
    Mr. Tobey. I believe that the greatest barrier to a 
proliferant obtaining the capability to produce a nuclear 
weapon is acquisition of fissile material.
    Mr. Shays. I don't want to go there. I don't want to talk 
about fissile material. I just want to talk about the weapon. 
Let's take the weapon first. All I am trying to do is build a 
case for the need to make sure fissile material doesn't get in 
the wrong hands. I have constituents who think the bomb is the 
problem, the weapon, itself, the building the weapon. I want 
this hearing to be able to illustrate if this is a problem or 
not.
    Mr. Tobey. I agree we should focus on fissile material.
    Mr. Shays. And because?
    Mr. Tobey. Because that is the greatest barrier to a 
proliferant obtaining a weapon and it is the one which we can 
control most directly.
    Mr. Shays. OK. So your definition of a weapon is the 
structure and the material together?
    Mr. Tobey. Yes.
    Mr. Shays. But to build a bomb minus the fissile material 
is something they are capable of doing. Do you believe that is 
the case?
    Mr. Tobey. I believe so, yes.
    Mr. Shays. Yes. Mr. Semmel, what is your view?
    Mr. Semmel. I think I said yes. I think it is possible.
    Mr. Shays. I just want to be clear.
    Mr. David?
    Mr. David. Well, the answer is yes, but you have to know 
how to put together the neutron initiator. There is some 
knowledge. Somebody with a third grade education with no 
knowledge of what to do couldn't do it.
    Mr. Shays. But a graduate student from----
    Mr. David. Yes. Correct.
    Mr. Shays. And we do know that there are Islamists who have 
those degrees.
    Mr. David. Yes.
    Mr. Shays. Yes. Mr. Aloise?
    Mr. Aloise. Based on the experts we have talked to, it is 
possible with a crude nuclear device.
    Mr. Shays. OK. So let's get that off the table.
    The real issue then is the weapons grade material. Only as 
it relates to terrorist, if you were to explode a nuclear 
weapon, the kind of weapon that terrorists would make would be 
one that would use what? Enriched uranium? I mean, in other 
words, when we talk about it--and if I am asking the wrong 
people, then just tell me. The capability to create a crude 
bomb basically is our biggest concern is with enriched uranium? 
Nodding of heads won't get in the recorder here. If anybody 
wants to answer it, I am happy to take this.
    Mr. Semmel. Again, I take the same plea that Hans Blix did. 
I am not a technician on this or physicist.
    Mr. Shays. Right.
    Mr. Semmel. But I think what I have read, what I 
understand, that enriched uranium would be the preferred 
source, yes.
    Mr. Shays. And, see, I am just focusing on terrorism right 
now because it seems to me we have been focused on what someone 
could put on the tip of a missile on a warhead. There you need 
the sophisticated weaponry, you need the plutonium and so on. 
But I have been just focused primarily on our work on what 
terrorists can do, and that is maybe why you hear me focused on 
this.
    So let me ask you what is the challenge with each of you. 
Describe to me the difference between plutonium and enriched 
uranium in terms of its creation and in terms of our capability 
to secure it. Is there any difference?
    Mr. Tobey. In terms of creation, Mr. Chairman, as I am sure 
you know, there are two paths to a weapon. One is weapons grade 
plutonium, generally manufactured through running nuclear 
reactors and separating the plutonium from the spent fuel, and 
then the other one is to enrich uranium, very different paths. 
They have different signatures. They require different 
technologies. I think there are differences in our ability to 
monitor those activities.
    Mr. Shays. Let me just ask if anybody agrees. What I will 
assume is if one person answers the question we don't need to 
go to the second person if there is agreement, unless you just 
jump in. And that applies to Mr. Aloise, as well. Feel free to 
jump in here.
    So if enriched uranium becomes the bigger concern as the 
weapon grade material of choice for a terrorist, should there 
be different protocols to deal with that?
    Mr. Tobey. We are interested in securing both weapons grade 
plutonium and highly enriched uranium and disposing of each 
with the former Soviet states.
    Mr. Shays. What I am struck with, though, is that for a 
terrorist to basically use plutonium, they would have to have 
the weapon come along with it. If they used enriched uranium, 
they might have the capability to create the weapon, 
themselves. That is where my mind is.
    Is there any comment about that? Mr. Aloise, do you have 
any comment about that? If you disagree with my assumptions, 
let me know.
    Mr. Aloise. I am going to have to pass on that question, 
Mr. Chairman.
    Mr. Shays. OK. Anyone care to answer that question?
    [No response.]
    Mr. Shays. Do you all know why I am asking these questions? 
In other words, I am looking at a little bit of confusion here 
and I have been known to confuse people, but do you understand 
why I am going down this road? If I am going down a road that 
makes no sense, I am happy to have you correct mitigation.
    Mr. Tobey. Well, we are certainly interested in 
minimization of use of HEU throughout the world.
    Mr. Shays. Right.
    Mr. Tobey. We have worked hard to return it from HEU 
reactors and to convert them to LEU and to return the fresh and 
spent fuel to its sources, so we would certainly agree with 
that as a problem.
    I guess I would just point out that we are also concerned 
with the weapons grade plutonium as well and believe it is 
important to secure and dispose of plutonium.
    Mr. Shays. Yes?
    Mr. David. Mr. Chairman, I would agree with that, and I 
would also say that, as far as I am concerned, I don't know 
that I could draw the distinctions between the relative 
difficulty for very smart graduate students who are probably 
motivated making a crude weapon out of uranium or a crude 
weapon out of plutonium. I understand that the uranium route is 
an easier one technologically, engineering-wise, but I am not 
sure about the gradations of making a plutonium weapon, and I 
don't think I am qualified to comment on that.
    Mr. Shays. Maybe our third panel will be able to express an 
opinion on it.
    Let me go do this. Let me go to Mr. Van Hollen. I have been 
over my time limit.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. Let me 
thank all of the witnesses for your testimony and for your 
public service. Let me just say a special word about Mr. 
Semmel, who I have worked with early on in the 1980's. I had an 
opportunity to work with Andy at the Defense Department when we 
were both at the Defense Security Systems Agency, I as a very 
new person, really, interning there. I want to thank him for 
his service. I learned a lot from him during my years there and 
I want to thank him and all of you for your service.
    Let me just ask you all about A.Q. Kahn and the information 
and technologies that he essentially steered in the direction 
of Iran and Libya and others. I assume you would all agree that 
it would be useful if we were to be able to sit down and talk 
to A.Q. Kahn and figure out exactly what technologies he 
provided, wouldn't you agree? And my understanding is that we 
have not had that opportunity. Have we had that opportunity, 
the U.S. Government, to sit down with A.Q. Kahn? The answer is 
no, right?
    Mr. Shays. Let me just say this. It is important that we 
get a yes or no because the transcriber is still not good at 
getting shaking of heads one way or the other.
    Mr. Van Hollen. If I could just get an authoritative answer 
from someone on the panel.
    Mr. Semmel. Short answer, we have learned a lot from A.Q. 
Kahn. We have not had extended sit-downs with him.
    Mr. Shays. Let me just interrupt 1 second just to say if, 
in fact, one person answers, we are going to make an assumption 
either you have nothing that would contradict that answer or 
you agree with the answer. If someone disagrees with the 
answer, then we would expect that you would jump in. Thank you.
    Mr. Van Hollen. Has the U.S. Government or an official of 
the U.S. Government representing the U.S. Government had the 
opportunity to sit down with A.Q. Kahn to discuss the 
information and technologies that he provided to Iran or Libya?
    Mr. Semmel. That is a very sensitive question. I think we 
would have to get into a closed session on that. I can just 
tell you, to repeat, that we have had lots of information that 
has come out in interviews that have taken place with him, but 
to the extent that we have had personal one-on-one type of 
interviews I think we would have to sit down and talk about 
that in closed session.
    Mr. Van Hollen. I understand that. Let me ask you this: are 
you satisfied that we, the U.S. Government, has the benefit of 
everything that you think would be useful to know from A.Q. 
Kahn?
    Mr. Semmel. Well, to take lead on this one, we don't know 
what we don't know, to begin with, and I would suggest and 
assume that there is information that we would like to have 
that we don't have. We have to make that assumption at this 
stage of the game.
    Mr. Van Hollen. Well, let me just say we have had President 
Musharaff here and we want to thank him for his support and 
efforts with respect to going after Al Qaeda in Afghanistan, 
although I happen to think that the Pakistani government could 
be doing a whole lot more than they are now, but I also think 
that we should be using the opportunity to make sure that we 
get the maximum amount of information that we can from A.Q. 
Kahn. It was a gross diversion of important technology and 
information, and I think there are still many questions where 
his input and testimony could be helpful.
    Let me just turn quickly to the question of Iran. Mr. 
Negroponte back in April said that his assessment and the 
assessment of the intelligence community with respect to when 
Iran might obtain a bomb was somewhere at the beginning of the 
next decade between 2010 and 2015. Is there any information any 
of you gentlemen have that would change that assessment?
    Mr. David. That gets into another area that would be with 
classified information, I think.
    Mr. Van Hollen. That was something that Mr. Negroponte said 
on the record with respect to that timeframe. Is there any 
information that would change that assessment?
    Mr. David. Whether there is information or not about the 
time lag for n to complete making its nuclear weapon is a 
subject that should be discussed in a classified round.
    Mr. Van Hollen. Let me ask you, Mr. Chairman, if there has 
been a change in this assessment I would encourage us to seek a 
session in the intelligence community room.
    Mr. Shays. Would the gentlemen be clear as to what he is 
requesting?
    Mr. Van Hollen. My question is if the U.S. Government now 
has a different assessment with respect to the timeframe in 
which Iran might obtain a nuclear weapon. I would like to know 
that. If there has been a change in that assessment, whether or 
not there has been a change, we have to go into a secret 
session, I think we should do that.
    Mr. Shays. I think you are right. Thank you.
    Mr. Van Hollen. Let me just ask the gentlemen, there was a 
staff report that was issued by the House Intelligence 
Committee. Are you familiar with that report?
    Mr. Semmel. Yes.
    Mr. Van Hollen. OK. Have you had an opportunity, Mr. 
Semmel, to review that report?
    Mr. Semmel. I know of the report. Yes.
    Mr. Shays. OK. I mean, we have some of the people who are 
the top officials on nonproliferation here at the table for the 
administration, right? I am just trying to get information out 
here.
    Mr. David. May I interject that you are asking questions 
that we get information on from the intelligence community 
about, and perhaps the intelligence community would be a better 
source for asking information about the current intelligence.
    Mr. Van Hollen. All right. Well, Mr. Semmel, have you had 
an opportunity to look at the House Intelligence Committee 
report?
    Mr. Semmel. I think to be very fair about this I have not 
read the report. I know of the report. There has been obviously 
extensive media coverage. In fact, as I like to say, column 
eight, I think the Washington Post front page at one point in 
time had coverage of the report. I have not read it. I have 
seen the response to the IAEA to the report, but I have not 
read it in depth, but I understand. I see the commentary on the 
report.
    Mr. Van Hollen. I mean, just for the record, as you have 
stated, Mr. Semmel, the IAEA actually took the sort of unusual 
step of writing to the chairman of the House Intelligence 
Committee specifically taking issue with the number of points 
raised in the report, stating that they were wrong based on the 
IAEA's information. I think, given our past mistakes of the 
U.S. Government with respect to intelligence gathering to lead 
up to the war in Iraq, and given the fact that the IAEA and Mr. 
Blix, within his domain, got it a lot more correct than the 
U.S. Government, it would behoove us, it seems to me, to 
listen. There were points raised by the IAEA.
    I guess my question to you, if any of you gentlemen know, 
is: do you agree with the points that were raised? And let me 
just say this is a report that was released. I mean, I have the 
report right here. This is not a classified report. I mean, we 
don't need the intelligence community here to testify with 
respect to particular points in that public report, at least as 
they relate to claims about Iran's advances on the nuclear 
program and the proliferation issue. So I guess my question to 
each of you is: do you have any reasons to doubt the IAEA's 
claims that portions of the report were wrong? Do you have any 
reason to dispute what the IAEA said about the House 
intelligence Committee's report?
    Mr. David. I haven't read the report and I am not going to 
quibble with one side or the other side about what they said 
about this detail or that detail, but there isn't the slightest 
doubt in my mind, from everything that I know, that Iran is 
seeking a nuclear weapon.
    Mr. Van Hollen. That wasn't my question, sir. I just want 
to make sure, because I think the intelligence assessments, as 
I think we have learned the hard way, are very important. My 
only question is--and I guess the answer is no, that you don't 
have any information that would dispute the claims raised by 
the IAEA in their letter; is that right?
    Mr. Semmel. I would just say, Mr. Congressman, that first 
of all the report, as I understand the House Intelligence 
Committee report, was derived largely from public source 
information and it was not information that was derived that 
was sensitive, but it was from a variety of sources that are 
available out there that all of us can access to with diligent 
research, and so on.
    I have seen the IAEA's response to the report and I think 
the IAEA, to the extent we can agree with the IAEA's assessment 
and the various reports that have been done over the years on 
Iran, the IAEA I think, if we give that some veracity, then I 
think the IAEA's letter is something that I personally could 
not disagree with.
    Mr. Van Hollen. Thank you. Now, Mr. David, you mentioned 
your assessment with respect to Iran's intentions, and I am not 
disputing your assessment of their intentions. At the United 
Nations recently President Bush did make a number of statements 
with respect to Iran, and one of the things he said was, ``We 
have no objections to Iran's pursuit of a truly peaceful 
nuclear power program.'' My question to you gentlemen is: how 
would we go about designing a peaceful civilian nuclear power 
program in Iran that satisfied our nonproliferation concerns?
    Mr. Semmel. Well, I think the first order of business is to 
get some confidence that, indeed, the program that Iran has 
been embarking on for the past nearly two decades is something 
that we can believe with a high degree of confidence is not 
aiming at some nuclear weapons capability. There have been at 
least seven resolutions and six or seven reports by the 
Secretariat of the IAEA that raises questions about that.
    Before we can hope to even come to any inkling of an 
inference that Iran has embarked upon purely a nuclear energy 
program, devoid of any nuclear weapons intentions, it seems to 
me we have to clean up the record at this point in time as to 
where Iran has been, where they are right now. And, indeed, the 
Director General's report on August 31st, the most recent 
report, indicates that Iran has not taken the steps that are 
necessary to alleviate any concerns that we have about their 
intentions beyond what they say they are with regard to a civil 
nuclear energy program.
    I think before we even get into that degree of confidence 
we have to resolve the existing problems.
    Mr. Van Hollen. I understand that. I understand that, Mr. 
Semmel, but that was not the question. This is not my 
statement. This is the President's statement. The President 
went beyond saying what we all agree, that we don't want Iran 
to have a nuclear weapons program, he went on to say that he 
had no objection to Iran's pursuit of a truly peaceful nuclear 
power program. I am quoting from his statement before the 
United Nations.
    I am not saying that is a good idea or a bad idea, but I 
assume before making that statement the administration had done 
some assessment about whether he could design a program that 
gave it confidence that Iran could have the benefits of 
civilian nuclear power, which the President states, and at the 
same time meet any concerns we have with respect to 
nonproliferation. I assume the President and the administration 
did some assessment of that before he made that statement. I am 
just curious as to exactly whether or not you are familiar with 
any work that has been done on that question and what the 
proposal is from the administration, some rough design or 
program that would address that point made by the President.
    Mr. Tobey. Congressman, I think that one could look at 
hallmarks of such a peaceful program, and in the U.N. Security 
Council resolution that was passed on Iran, which actually is 
derived from the IAEA Board resolutions, and in that resolution 
it talks about suspension of enrichment and reprocessing, 
halting construction of the heavy water reactor that was 
referred to by Dr. Blix, and full cooperation with the IAEA, 
including adoption or ratification of the additional protocol. 
I think these would be steps toward providing assurance to the 
international community that Iran's programs were, indeed, for 
peaceful purposes.
    Mr. Van Hollen. Thank you. I yield back.
    Mr. Shays. I thank the gentleman very much.
    Mr. Duncan, you have the floor.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. I had 
some previously scheduled appointments, and I am sorry I did 
not get to hear the testimony, and so I am sure you probably 
want to get on to the next panel, so----
    Mr. Shays. We are fine, sir. Just do your thing.
    Mr. Duncan. Thank you. Just a couple of brief questions.
    First of all, to all of the gentlemen on the panel, I 
understand that you have very important positions in our 
Government, and from what I have read and heard and so forth I 
know there are other countries that cooperate and are involved 
in this process, but I have the impression that the U.S. really 
takes the lead and does far more than any other country in 
devoting money, resources, manpower, leadership, and employees, 
and everything else to the nuclear nonproliferation effort 
throughout the world. Would you say that is correct?
    Mr. Tobey. Yes, sir. I take some pride. I am new to the 
job, so I can take some pride but no credit for the fact that I 
think we have one of the best or the best nonproliferation 
organization in the world.
    Mr. Duncan. Well, I think that is something we should be 
proud of. I just wanted to put that on the record.
    Mr. David, you said that you had no doubt that Iran is 
attempting to develop nuclear weapons. There is a report in the 
Washington Times today about some type of possible deal that 
would suspend their uranium enrichment program for 90 days 
while talks would continue. Do you feel that is just some sort 
of delaying tactic, or do you see any problems with talks of 
that nature, if they are going on?
    Mr. David. I think that it is very important that we 
exhaust every bit of diplomacy we could possibly exhaust to 
attempt to prove that Iran could be dissuaded from going 
forward on the path that I believe it is going forward on. I 
don't know whether or not this hint of a 90-day suspension is 
real. We have had hints of cooperation from Iran many times 
before, only to have them withdrawn for one reason or no 
reason. I hope it is a promise and I hope that there are 
negotiations and I hope that they are successful.
    Mr. Duncan. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Let me talk about the IAEA. First off, it was my 
understanding that for about 15 years it was a zero growth 
budget at the IAEA. Was that the fault of the United States or 
just a general decision of all the countries involved? If that 
has changed now, are we the major proponents of increasing 
their budget or are we tolerating the increase? Who could speak 
to that issue?
    Mr. Semmel. I can start out on that. You are absolutely 
correct. I think for a period of perhaps 15 to 20 years--I 
don't know the exact amount--that IAEA was operating in its 
regular budget at zero growth, and it was not until about three 
or 4 years ago that, through a concerted effort in which the 
United States took a lead role, that we pushed against 
considerable opposition at the IAEA to increase the budget.
    Mr. Shays. Even within the----
    Mr. Semmel. That was in the Secretariat, but with 
opposition among other states' parties to the IAEA.
    Mr. Shays. OK. And what do we think was the reason for 
their reluctance to see it have a budget that would grow with 
at least inflation?
    Mr. Semmel. Well, other countries are mindful of their 
taxpayers and simply do not want to have the obligation to have 
to pay and come up with more annual payments, regular payments.
    Mr. Shays. So we pay a disproportionate share, in one 
sense, but we were willing to say we need to do it. We weren't 
paying others' shares. We were saying we all need to step up to 
the plate and we all need to contribute?
    Mr. Semmel. Right. The increase would, of course, be 
disproportionately falling on the United States, since we pay 
already 25 percent of the regular budget. Other countries are 
reluctant to pay additional assessments to a IAEA and they 
resisted that. It took several years of effort, in fact, to get 
the increase approved at the IAEA.
    Mr. Shays. Now, we have candid criticism of the United 
Nations, its failure to deal with a variety of issues. Our 
criticism is not shared by many of our very good friends around 
the world. But do we have that same criticism of the IAEA? Are 
we comfortable with its approach, its energy, its capabilities, 
its powers? Do we recommend that it have new people? Do we 
recommend that it have new powers, new capabilities? If all 
three of you, and Mr. Aloise, if you want to step in, as well, 
maybe you could give us your sense of what we think as we view 
it from the legislative side.
    Mr. Aloise. First of all, I think the general view, from 
the people we have talked to all over the world and our U.S. 
Government, is that IAEA is a very important agency which has a 
lot of respect. Despite some problems in the past, it is really 
the only agency out there that is in other people's countries 
verifying nuclear materials.
    It is facing a lot of challenges, not only budgetary but, 
as I mentioned in my statement, its human capital challenge. It 
is going to lose a large number of its safeguards inspectors in 
the next 5 years.
    Mr. Shays. That is a funding issue or retirement?
    Mr. Aloise. Retirement issue. And some of that relates to 
IAEA's personnel policies. They have a mandatory retirement age 
that is forcing a lot of people out. In fact, the State 
Department and the Department of Energy have come up with some 
very novel ideas to keep people working there at IAEA, even 
though they are beyond the retirement age.
    We have made recommendations in our report that State 
Department needs to work with IAEA to help change the personnel 
policies because it is working against them in many cases. For 
example, they need people who have expertise in uranium 
enrichment processes, and are not even taking the actions they 
need--IAEA is-to get these people. Further, there are not that 
many students going through these nuclear studies any more and 
the pool is shrinking of experts to choose from.
    Mr. Shays. Thank you. I would like to hear from Energy, 
State, and Defense on the questions that I ask, you know, how 
the IAEA is doing, our Government's sense of what it is doing. 
You heard me before, so I don't need to repeat.
    Mr. Tobey. I think the IAEA plays an important and 
constructive role. We do think that there are ways in which the 
IAEA's work can be improved, and we are trying to work with 
both the Secretariat and other member states, and, in 
particular, the Board of Governors. I would cite, particularly, 
improving IAEA authorities through universal adherence to the 
additional protocol, and we would also like to improve their 
capabilities through better technology. We are working to do 
that with safeguards technology agreements.
    Mr. Shays. So while you have touched technology, let me 
just ask you to give me an example of different technologies 
and what we would like, what they like them to use.
    Mr. Tobey. I think we, frankly, would like to see better 
monitoring technologies. Some of that gets politically 
sensitive, but real-time monitoring of installations could be 
an improvement.
    Mr. Shays. OK. Mr. Semmel.
    Mr. Semmel. Yes, Mr. Chairman. When President Bush made the 
now-well-known speech at the National Defense University in 
February 2004, he laid out seven nonproliferation initiatives. 
Interestingly enough, three of them pertain directly or 
indirectly to the IAEA. One of them had to do with what we have 
already mentioned here, pushing for universalization of the 
additional protocol, which is a strengthening safeguards 
agreement on the part of countries.
    The second one was something which we call now the 
Committee on Safeguards and Verification. This is a Committee 
on Safeguards and Verification that the IAEA actually approved 
unanimously last June, June a year ago, and is designed to be 
advisory to the Board of Governors at the IAEA and to identify 
ways in which we can strengthen safeguards and improve the 
IAEA's ability to be able to detect illegal use of materials, 
and so forth.
    There is a third initiative, which the President also 
mentioned, which we are working on at this point in time.
    So on a number of issues we obviously agree that the IAEA 
is an important part of the nonproliferation regime, if you 
want to call it that, but that it needs to be strengthened. We 
are the major contributor, as you pointed out. We also 
contribute on an annual basis voluntary contribution in the 
vicinity of around $50 million a year. Once again, we are the 
single largest contributor in the voluntary funds. Some of 
those resources go to improve safeguards.
    To address what Mr. Aloise said, one small fraction of 
those voluntary funds also go to fund something called cost-
free experts, in which we provide, on a non-reimbursable basis, 
to the IAEA individuals that have certain technical skills that 
the IAEA otherwise does not have, and we basically pay for that 
person. It could be a year, 2 years, twoand a half years. One 
of my colleagues was there for 2\1/2\ years.
    Mr. David. I would only add to what my colleague said, that 
the Committee on Safeguards and Additional Protocol, which 
President Bush suggested in 2004, and which has come into 
existence, is also discussing the issue of the loss of 
personnel and bolstering up the personnel who could do 
inspections and the like, and dealing with the problems that 
Mr. Aloise talked about.
    Mr. Shays. Let me ask you, I have been to Mayak, the 
facility. It was an amazing experience, forty hectors of 
property and a huge building on that property. How much of the 
weapons grade material of the Soviet Union actually is captured 
in that facility?
    Mr. David. I can't tell you how much, but I know they 
started putting it in in July and we are really happy about 
that.
    Mr. Shays. Yes. I mean, this is a facility, as I remember, 
football fields in size, very thick ceiling, I think ten feet 
or more, tubes that go down about 18 feet. Bottom line is, it 
is going to hold a lot of material, baskets all along the way. 
But we are starting to see that capture some of it?
    Mr. David. Finally in July. As you know, it was a point of 
contention between Russia and ourselves for a long time, but it 
wasn't being used. They actually finally started moving 
material into the facility in July of this year.
    Mr. Shays. OK. And so the question I have, though, is that 
a significant amount of extra weapons grade material, or is it 
a small percent?
    Mr. David. As far as I know, it is an ongoing process at 
this point of moving material in there. I don't know how much 
has been put in so far, but our expectation and our requirement 
is that they use this facility that CTR funds, United States 
taxpayer funds, helped to build.
    Mr. Shays. And the question is: have we been able to 
express an opinion about the safeguarding of the transporting 
of this material to Mayak?
    Mr. Tobey. We do, I believe, address transportation issues 
within Russia, yes, help to fund secure ways to do that.
    Mr. Shays. OK. Mr. Duncan, do you have any questions you 
want to ask?
    Mr. Duncan. Iran, Mr. Chairman.
    Mr. Shays. OK. Let me just ask you about the Fissile 
Material Cutoff Treaty. The question I am going to ask is: how 
has U.S. opposition to international verification of the 
Fissile Material Cutoff Treaty undermined the Nuclear Non-
Proliferation Treaty?
    Mr. Semmel. Well, I am not sure that it is, first of all.
    Mr. Shays. I am going to ask, since my knowledge in this 
area is a little weak, I am going to just ask that my 
professional staff, participate in this. But that is the 
question I asked you. Why don't you answer it and then I will 
have him followup.
    Mr. Semmel. I would say, Mr. Chairman, that, in fact, if 
you were to ask other members of the Conference on Disarmament 
where the FMCT, Fissile Material Cutoff Treaty, has already 
been introduced, we have introduced the text in July, as well 
as a mandate for negotiations on the FMCT. If you were to ask 
everybody else, there are serious questions that some countries 
had, particularly on the verification issue, but there are some 
other issues about definitions of what is fissile material.
    Mr. Shays. When you say some countries, can you define 
what----
    Mr. Semmel. In order for the Fissile Material Cutoff Treaty 
to be a treaty and to be enforced, obviously we have to 
negotiate it with other countries. Other countries would have 
expressed some concerns, particularly about the fact that the 
text that we have introduced did not include a verification 
provision in it, so this is an issue which we will have to 
negotiate.
    I can tell you this, though, to respond more directly to 
your question: virtually everybody is happy that we have gotten 
this text of the treaty introduced, for no other reason than 
that if you look at the track record of the Conference on 
Disarmament, it has done virtually nothing for the past 10 
years. It has accomplished zero. And the reason it has 
accomplished zero is because every country or set of countries 
wants to tie their issues to other issues and they can't get a 
work plan developed.
    One issue that there is general consensus on that we ought 
to move forward on, however we move, whether it is fast or slow 
or whatever the nature of the text might be, is the FMCT. So 
there is a general--I wouldn't call it elation, but a general 
happiness that the Conference on Disarmament in Geneva may 
actually get down, if not this year certainly next year, to 
begin to iron out its agenda and begin to negotiate on that. So 
they are pleased. We are pleased that the FMCT finally has been 
introduced, and I think if we were to make progress, if we were 
to negotiate this over the next several years, this would be a 
strengthening of the NPT, not weakening it.
    Mr. Chase. Mr. Aloise, can you respond?
    Mr. Aloise. I really don't have a response.
    Mr. Chase. OK. Just a followup to that, then: has the 
U.S.'s civil nuclear cooperation with India changed the FM 
Cutoff Treaty?
    Mr. Semmel. FMCT. Well, it hasn't changed it. No, not at 
all. In the July 18th statement between President Bush and 
President Singh, the Indians indicated that they support and 
they will work with us to support an FMCT treaty. Of course, 
they have expressed--to be candid here, they have expressed the 
position that it should have a verification provision in it. 
The point is that they have already committed to work with us 
in terms of moving that FMCT treaty.
    Mr. Shays. Let me just interject myself, though, to ask how 
has the United States' efforts to reach out to India impacted 
our interaction with our allies? Have they been indifferent, 
critical, critical but positive? I mean, how would you define 
its impact?
    Mr. Semmel. I think, again, to be candid, you have a 
scattergram of responses on that. A number of the countries, 
obviously, the French, the British, and others, are very 
pleased with this, Russians, as well, the FMCT. And there were 
others who were raising serious questions. Those same countries 
are very supportive right now of the proposed U.S.-India civil 
nuclear cooperation initiative, if you want to call it that. 
There are a number of countries that have raised serious 
questions and continue to raise serious questions. We will 
negotiate and try to respond to those in the various fora that 
are available to it, particularly in the Nuclear Suppliers 
Group and something called the Consultative Group of the 
Nuclear Suppliers Group, where a lot of these issues are being 
hammered out, putting aside those issues are being hammered out 
in the Congress, as well, but on a different level.
    So it depends who you talk to on this. I think a number of 
countries have expressed skepticism. I think at the end of the 
day, when we get to the critical point in the Nuclear Suppliers 
Group, which requires a unanimous decision as to whether or not 
India will be treated as an exception that would allow it to 
receive nuclear fuel and certain technologies, I think we will 
eventually get consensus on this and countries will be 
satisfied with the dynamics that have taken place.
    Mr. Shays. Let me just ask a quick question. It might take 
forever to answer, but I would like to know, was there a huge 
debate in our own administration as to reaching out to India? 
And then, in the end, what was the pivotal issue that said we 
need to do this?
    Mr. Semmel. Well, yes, of course there was a debate. this 
is a fundamental decision.
    Mr. Shays. Right.
    Mr. Semmel. This is a significant decision in terms of our 
foreign policy.
    Mr. Shays. Right.
    Mr. Semmel. As well as our economic policy, and others. It 
depends who you talk to, what the critical turning points may 
have been, but at the end of the day our relationship with 
India--I think when President Bush came into office in 2001 he 
said he wanted to try to have an impact on our relationship 
with India. India has a booming economy. India is the world's 
most populous democracy, will some day in the next 15 or 20 
years or so be the most populated country in the world. Our 
relationship with India over the past years has been correct 
but not necessarily warm. So in order to improve upon that 
relationship, as the relationship between countries in Asia and 
South Asia have begun to change, it is important for us to 
establish a better strategic relationship with a country that 
is emerging as a very significant player, not just in the 
region but in the world.
    Mr. Shays. Thank you. Do you have any questions you would 
like to ask?
    Mr. Van Hollen. Thank you, Mr. Chairman. Again, let me 
thank all the witnesses for their testimony.
    I have a question with respect to where we are and where we 
are going. As we know, the North Koreans have essentially, at 
least for now, walked away from the six-party talks. They just 
stated again today that they didn't have any intention of 
coming back in the near term. They say that they have nuclear 
weapons. They tested a missile not too long ago. It wasn't that 
successful, but they tested it. As you have all testified, or 
some of you testified, they decided to withdraw from the Non-
Proliferation Treaty.
    Where are we going? I mean, where are we going with respect 
to North Korea? I mean, they continue to crank out the 
materials necessary to make nuclear weapons. I mean, isn't this 
a huge failure in our nonproliferation policy? And what are we 
going to do to fix it?
    Mr. Semmel. I need to say it is difficult. Those who have 
negotiated with the North Koreans tell me that they are among 
the most difficult negotiators that they have ever encountered. 
I think the important thing is we would like to sit down. We 
would like the resumption of the six-party talks as soon as 
possible. We made that point very clear to the North Koreans, 
as well as to the other members of the six-party talks. The 
North Koreans will sit down and talk and resume the six-party 
talks when they are ready. The question is how do you get them 
to be ready. It is hard to be able to discern what their real 
motivations are.
    They say right now that they are not ready to resume those 
talks that were suspended in September a year ago, a year ago 
actually this month, because of certain hostile behavior, I 
think is the way they phrase it, by the United States, and this 
hostile behavior is, as they point out, involves the number of 
financial sanctions that we have placed upon them for their 
illicit behavior on counterfeiting and so forth. But to get the 
North Koreans to the table is difficult.
    They say they want to have one-on-one talks. We are not 
ready for that at this point in time. They can talk to us any 
time they want, and, as you probably know, Chris Hill, when he 
was in the region not to long ago, sat down with his 
counterpart, the North Koreans, on the margins of meetings. We 
said they can have one-on-one conversations in the context of 
the six-party talks.
    But I think if the North Koreans were serious about wanting 
to sit down again and resume these talks, they would be doing 
it. But it is an intractable issue and where it will end I am 
not sure at this point.
    Mr. David. Just to add to that--and I agree with all that 
Andy said--we are working with the other five parties of the 
six parties to do what we can to get them to do what they can 
to pressure North Korea to make an irreversible decision to 
abandon their nuclear weapons ambitions and program and to 
irreversibly destroy it.
    We are working beyond those six parties with other 
countries of the world. A couple of months ago we succeeded in 
getting a U.N. Security Council resolution that imposes 
requirements--the word require is in two paragraphs--requiring 
countries to do certain things and not to do certain things 
with North Korea. Just last week or last weekend, can't 
remember which, Australia and Japan announced that they were 
imposing sanctions on North Korea.
    You know, we will keep the effort up. The diplomatic 
multinational approach that we are taking will take time.
    Mr. Van Hollen. Thanks. One last question on Iran, if I 
could.
    Mr. Shays. You may.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    We mentioned the Strategic Cooperation Agreement with 
India, and, as you know, the House passed that agreement not 
too long ago, a number of weeks back. Shortly after that--and 
Mr. Semmel is probably familiar with this--as a result of being 
in charge of nonproliferation at the State Department--the 
State Department formally announced the imposition of sanctions 
under the Iran Nonproliferation Act of 2000 against two Indian 
entities for the transfer of WMD equipment and technology to 
Iran. If you could just provide us a little bit more 
information on that, what it means with respect to cooperation 
from the Indian government on transfers.
    And finally my question is this: does Iran today continue 
to be dependent on getting foreign technologies to complete 
their nuclear program? Or, if you were to make sure that no new 
technologies could get into Iran that related to nuclear 
issues, would they have the indigenous capability now to 
complete a nuclear weapons program? I have heard conflicting 
testimony. I have heard some say that Iran continues to be 
dependent on some technologies that they don't have 
domestically in order to complete their work, and some say they 
have already got everything they need. So if you could just 
comment on both the questions, first with respect to the 
imposition of sanctions on the two Indian entities, and then 
with respect to Iran's capabilities.
    Mr. Semmel. I think on the imposition of the two entities, 
I think part of your question may be motivated by the timing 
implicit in your question that the report came up, I think, 
some time after the House had voted on this. I can only tell 
you that, as you know, having worked on the Senate side for 
some time and having written many pieces of legislation for my 
boss then requiring reports, I can tell you that in this case 
putting this report together was required reading voluminous 
documents, I think well in excess of 10,000, involving inter-
agency cooperation between the intelligence community on this. 
The time that it took to put this together I think was 
extraordinary. It came in late. I honestly don't think it was 
intentional. I think it was an evolution of the way in which 
this report was put together.
    Now, the two entities that were identified had to be 
identified because of existing law. I mean, the law simply said 
we had to take these steps. I believe one of the entities was 
identified not because of any kind of activity it had with Iran 
on the nuclear side but on the chemical side, if I recall. You 
may recall this better than I.
    So this is something which we are obligated to do in terms 
of assessing through our various sources of information that 
these entities have been involved in activities that are 
subject to a determination that they have been in violation of 
our act.
    On the other question on is Iran self-sufficient, my best 
guess on this is no, they are not self-sufficient at this point 
in time. I think if there were a complete wall around Iran they 
would not be able to import certain kinds of technologies or 
information or insights, for that matter. I think what you 
would have is, since I happen to feel that Iran is absolutely 
determined to have the nuclear weapons capability, I think they 
are on a glide path that we have been able to slow down and 
interrupt, sort of like a heat-seeking missile going off track 
but going in one direction, that direction being the ability to 
have the nuclear weapons capability.
    I think if we were to put a wall around Iran that was 
effective--and that, by the way, is virtually impossible, given 
the long borders that it has--it would slow down a process. It 
would make the time tables that you alluded to in an earlier 
question protract out for a much, much longer period of time.
    I don't think--my colleagues might want to comment on 
this--that Iran has the total indigenous capability at this 
point in time to be able to move from where they are now to 
having a nuclear weapons capability and nuclear weapons, as 
well.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Is there anything that any of the four of you would like to 
put on the record, any question we should have asked you that 
we didn't think to ask you that would be important to put on 
the record? Frankly, sometimes that question solicits sometimes 
the most important part of our hearing. So is there anything we 
need to put on the record?
    Mr. Tobey. No, sir.
    Mr. Shays. OK. Let me then thank you all, Mr. Tobey, Mr. 
Semmel, Mr. David, and Mr. Aloise. Again, Mr. David, our 
country is grateful for your service. The Congress respects 
your service, as well, and whatever you are going to be doing 
next week we wish you all the best.
    Mr. David. Thank you very much.
    Mr. Shays. Thank you.
    We are going to have a 1-minute break and we will go with 
our third panel.
    [Recess.]
    Mr. Shays. We will begin with the third panel: Ambassador 
Thomas Graham, Chairman of the Bipartisan Security Group, 
Global Security Institute; Mr. Baker Spring, F.M. Kirby 
Research Fellow for National Security Policy of The Heritage 
Foundation; Mr. Jonathan Granoff, president of Global Security 
Institute; Mr. Henry D. Sokolski, Nonproliferation Policy 
Education Center; and Professor Frank von Hippel, Co-Chairman, 
International Panel on Fissile Materials.
    Gentlemen, I know it is late. I don't do the 5-minute rule 
as much with the third panel. If you waited the longest, I will 
stay here until you make your statement, but we will do the 5-
minute and I will trip over another 5 minutes.
    It is great to have you here. You know the questions we 
asked the other panels. If you care to answer that in your 
presentation, your full statement will be in the record as 
written so you have some choices here. And if there were some 
questions we didn't ask that you want to put on the record in 
your opening statement that we should have asked, we are happy 
to have you do that, as well.
    Ambassador, thank you so very much. Thank you again for 
your patience, and you have the floor.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all five witnesses have 
responded in the affirmative.
    Now, Ambassador, I can believe what you tell me.

    STATEMENTS OF AMBASSADOR THOMAS GRAHAM, JR., CHAIRMAN, 
  BIPARTISAN SECURITY GROUP, GLOBAL SECURITY INSTITUTE; BAKER 
   SPRING, F.M. KIRBY RESEARCH FELLOW FOR NATIONAL SECURITY 
 POLICY, THE HERITAGE FOUNDATION; JONATHAN GRANOFF, PRESIDENT, 
GLOBAL SECURITY INSTITUTE; HENRY D. SOKOLSKI, NONPROLIFERATION 
  POLICY EDUCATION CENTER; AND FRANK VON HIPPEL, CO-CHAIRMAN, 
            INTERNATIONAL PANEL ON FISSILE MATERIALS

           STATEMENT OF AMBASSADOR THOMAS GRAHAM, JR.

    Ambassador Graham. Mr. Chairman, I have a short statement 
which I will read. If, in the course of the subsequent 
discussions, you want to revisit the issue of how easy it is to 
make a nuclear weapon, I had a very interesting experience in 
South Africa some years ago in which they explained to me what 
they did, and I would be happy to talk about that later if you 
wish.
    Mr. Shays. I would love that. I won't count that as your 
time now, so we will make sure we ask.
    Ambassador Graham. All right.
    Paul Nitze was the archetypical cold warrior and nuclear 
weapon strategist, yet in the last op ed that he wrote, at the 
age of 92, in 1999, entitled, A Danger Mostly to Ourselves, he 
said, ``I know that the simplest and most direct answer to the 
problem of nuclear weapons has always been their complete 
elimination.'' Senator Sam Nunn, in an article in the Financial 
Times in late 2004 said our current nuclear weapon policies, 
which in effect continue to rely on the deteriorating Russian 
early warning system to continue to make correct judgments 
``risks an Armageddon of our own making.'' And former Defense 
Secretary William Perry said not long ago that in his judgment 
there could be a greater than 50 percent chance of a nuclear 
detonation on U.S. soil in the next decade.
    The Nuclear Non-Proliferation Treaty, the NPT, is the 
centerpiece of world security. President John F. Kennedy truly 
feared that nuclear weapons would sweep all over the world, 
ultimately leading to 40 or 50 nuclear weapons states in the 
world today. If this had happened we would live in an almost 
unimaginable security situation today. Every conflict would 
carry with it the risk of going nuclear, and it would be 
impossible to keep nuclear weapons out of the hands of 
terrorists, they would be so widespread. But this did not 
happen, and the principal reason that it did not was the entry 
into force of the NPT in 1970, combined with the extended 
deterrence policies of the two rival superpowers during the 
cold war, which now have passed into history.
    However, the NPT nuclear weapon states, particularly the 
United States, have never really delivered on the disarmament 
part of the NPT's central treaty bargain, which would mean for 
the United States, at a minimum, ratification of the Nuclear 
Test Ban Treaty, revival of the nuclear weapon reduction 
process begun by President Reagan, and a drastic downgrading of 
the role of nuclear weapons in the security process.
    Now, in the wake of nuclear programs in North Korea and 
Iran and A.Q. Kahn illegal nuclear transfers ring in Pakistan, 
the other side of the NPT's central bargain has begun to fall 
apart.
    It is of paramount importance to attempt to revive the NPS 
as a treaty system based on law and to restore its credibility. 
In the context of a breakdown of world order and the war on 
terror, with the looming potential failure of the NPT and the 
ensuing likelihood of widespread nuclear proliferation that 
President Kennedy so rightly feared many years ago an 
increasing possibility, with nuclear tension a growing threat, 
with thousands of strategic nuclear weapons on high alert and a 
Russian early warning system continuing to decline in 
effectiveness, the urgency of such an effort simply cannot be 
under-stated. But if, in fact, it is indeed too late to change 
the course of nations with respect to the NPT in order to save 
the NPT, then, in the interest of the security and safety of us 
all, some way must be found to proceed directly to the 
worldwide elimination of nuclear weapons, as Paul Nitze urged 
over 6 years ago. Very difficult, but not impossible.
    But in this the United States must lead. There is no 
alternative. In order to do this, the United States must return 
to its historic destiny of keeping the peace and prospering the 
development of the community of nations, democracies, free 
market economies, the international rule of law, international 
institutions, and the international security treaty system.
    As the Secretary of State said last year in a speech to the 
American Society of International Law, when the United States 
respects its ``international legal obligations'' and supports 
an international system based on the rule of law, we do the 
work of making this world a better place, but also a safe and 
more secure place for America.
    Thank you.
    [The prepared statement of Ambassador Graham follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.079
    
    [GRAPHIC] [TIFF OMITTED] 35767.080
    
    [GRAPHIC] [TIFF OMITTED] 35767.081
    
    [GRAPHIC] [TIFF OMITTED] 35767.082
    
    [GRAPHIC] [TIFF OMITTED] 35767.083
    
    [GRAPHIC] [TIFF OMITTED] 35767.084
    
    [GRAPHIC] [TIFF OMITTED] 35767.085
    
    [GRAPHIC] [TIFF OMITTED] 35767.086
    
    [GRAPHIC] [TIFF OMITTED] 35767.087
    
    [GRAPHIC] [TIFF OMITTED] 35767.088
    
    [GRAPHIC] [TIFF OMITTED] 35767.089
    
    [GRAPHIC] [TIFF OMITTED] 35767.090
    
    [GRAPHIC] [TIFF OMITTED] 35767.091
    
    [GRAPHIC] [TIFF OMITTED] 35767.092
    
    [GRAPHIC] [TIFF OMITTED] 35767.093
    
    Mr. Shays. Thank you, Ambassador, for your very thoughtful 
statement. We appreciate it.
    Mr. Spring.

                   STATEMENT OF BAKER SPRING

    Mr. Spring. Thank you, Mr. Chairman. Obviously, this is a 
pressing topic, and I very much commend the subcommittee for 
holding such a timely hearing. Along with the related issue of 
terrorism, I don't think that there is any more important 
security problem facing the United States than this today.
    I would like to focus my remarks on the recommendations of 
the U.N. Commission on Weapons of Mass Destruction. You have 
heard from Dr. Blix earlier, and I think that it is worth the 
time of the committee to at least assess some of the more 
important recommendations, at least that I found in the 
Commission's report.
    Let me say that I think that it is essentially a mixed bag. 
There are some recommendations in the Commission report that I 
think are very positive and valuable with regard to what U.S. 
policy should be toward nuclear nonproliferation, as well as 
potentially other weapon of mass destruction, but I think that 
there are others that could muddy the waters and make it more 
difficult to move forward, so I just want to itemize those, 
both on the positive and negative side of the ledger.
    First, I think that the Commission was absolutely correct 
in saying we need to focus on the underlying motivations that 
cause countries to try to pursue weapon of mass destruction and 
nuclear weapons, in particular. Getting at that dynamic to me I 
think is at the heart of the problem. That suggests a two-track 
approach to nonproliferation, one that is the NPT track that is 
global in nature, and the second track that looks at the 
regional issues that I think are coming to the fore, 
particularly in this era, in order to address those underlying 
security concerns that would drive nuclear proliferation.
    The second is one that has been addressed by this hearing 
in detail, also addressed by the Commission report, which is 
the special threat posed by terrorists with weapon of mass 
destruction, and again particularly nuclear weapons. In that 
particular case I think the real risk is, if they get them, the 
propensity to use them is much higher than for states, for 
reasons that are unique to terrorist organizations.
    Another positive recommendation of the Commission report is 
very much related to the first issue I raised, which is this 
regional dimension. The Commission report addresses that, 
particularly in the hard cases of Iran and India and Pakistan. 
In this section of the report I wish they had spent a little 
more time on North Korea. They did that in other sections, but 
I think that is to be commended.
    Continuing the Russian-U.S. nuclear arms control process, 
the United States is continuing to do that, and I think 
supporting the administration in its engagements with Russia 
which occurred earlier this month, as I understand it, 
regarding the future of start, for example, is important.
    Maintaining high standards on controlling fissile material 
and making sure that those control mechanisms are effective is 
very important, in my view.
    Let me deal with what I think are some of the problematic 
elements of the Commission's report, which was also addressed 
by Ambassador Graham.
    The temptation to move directly to comprehensive nuclear 
disarmament I think is wrong headed. What they are basically 
saying is that we are having trouble in the nonproliferation 
regime; let's move the goalpost farther down the field in the 
hope that we would somehow achieve those goals more quickly. I 
think that is sort of convoluted logic and I think it carries 
some very significant security risks for the United States.
    The importance of the Nation state system--I think that the 
Commission pays too little credit to nations to make decisions 
regarding their own security, and in this case particularly the 
United States. The Commission makes recommendations that would 
concede to the United Nations Security Council greater powers 
than I think that they really should be exercising in terms of 
making decisions about when a threat is present and what we 
would do about that in the case of the United States as an 
individual nation.
    Pursuing no first use policies, as well as granting broader 
negative security assurances--I believe that the idea of the 
United States providing security assurances on the positive 
side, as we have done with some problematic states in the past 
vis-a-vis proliferation, like South Korea and Taiwan, are very 
important. And modernizing our nuclear arsenal to make sure 
that those security assurances are effective is very important.
    The same thing goes with regard to withdrawing U.S. nuclear 
weapons from foreign soil, in this case particularly NATO 
Europe. That is part of our essential security relationship 
with our NATO allies. I don't think that we should compromise 
on that in the context of hoped-for nonproliferation or, more 
particularly, arms control goals.
    The Comprehensive Nuclear Test Ban Treaty--I believe very 
strongly that we have to modernize our nuclear force to make it 
effective in the current environment. We have a hold-over 
deterrent from the cold war. I think we need to look at making 
sure that force is safe, reliable, and effective, and I think 
the comprehensive test ban treaty is a problem with that.
    De-alerting nuclear weapons has the same problem.
    The one that I object to the most is the idea that 
defensive systems like missile defense systems are effectively 
in the same category as weapon of mass destruction, as they 
were treated in an intertwined fashion in the Commission's 
report. They are fundamentally different, and I think we should 
treat them that way.
    So I think that the subcommittee should look at the 
recommendations of the Commission with a discriminating eye.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Spring follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.094
    
    [GRAPHIC] [TIFF OMITTED] 35767.095
    
    [GRAPHIC] [TIFF OMITTED] 35767.096
    
    [GRAPHIC] [TIFF OMITTED] 35767.097
    
    [GRAPHIC] [TIFF OMITTED] 35767.098
    
    [GRAPHIC] [TIFF OMITTED] 35767.099
    
    [GRAPHIC] [TIFF OMITTED] 35767.100
    
    [GRAPHIC] [TIFF OMITTED] 35767.101
    
    [GRAPHIC] [TIFF OMITTED] 35767.102
    
    [GRAPHIC] [TIFF OMITTED] 35767.103
    
    Mr. Shays. Thank you very much.
    Mr. Granoff.

                 STATEMENT OF JONATHAN GRANOFF

    Mr. Granoff. Thank you, Mr. Chairman.
    First I want to extol not only your virtue of courage but 
your extraordinary endurance, and I would like to offer for the 
record two articles, one from the Chicago Sun Times and the 
other from the San Francisco Chronicle extolling the virtues of 
the WMD Commission, the Blix Commission, if I am permitting.
    Mr. Shays. We will put that in the record. Thank you.
    Mr. Granoff. Thank you.
    Mr. Shays. And, just for the record, this is a very 
interesting hearing, so I could just tell you we are very 
grateful that you all had the patience. We get to participate 
and stay awake.
    Mr. Granoff. Well, I was told in 1965, when I met Robert 
Kennedy here while I was working on the Hill, the reality of 
the Cuban missile crisis, and that on several moments 
civilization hung in the balance, and he told the group of 
interns, in rapt attention, as we were, that addressing this 
issue would determine not only the moral standard of our time 
but whether, in fact, humanity would survive. So since that 
time the issue has been in my gut, in my heart, and in my soul, 
and so I consider it an enormous honor to be able to address it 
here in these hallowed halls.
    Mr. Shays. Thank you.
    Mr. Granoff. The shock of coming to the brink stimulated 
negotiations which culminated in the entry into force in 1970 
of the Nuclear Non-Proliferation Treaty, which contains the 
structure to prevent proliferation in the present based on a 
pledge of nuclear disarmament in the future, but the pledge 
must have credibility and the nuclear weapon states, 
particularly the U.S. and Russia, with over 96 percent of these 
devices, have not fully come to grips with their fundamental 
dilemma. They want to keep their nuclear weapons indefinitely, 
and at the same time condemn others who would attempt to 
acquire them. This contradiction undercuts the treaty and 
enables our adversaries to challenge U.S. sincerity and ignore 
our recommendations.
    Moreover, incoherence in policies leads to instability in 
cooperation, and nothing could be more hazardous today.
    In order to prevent proliferation to more states and to 
dangerous sub-state actors, far greater cooperation is 
required. This will not be obtained if some states flaunt their 
disarmament obligations yet display a singular passion for 
nonproliferation.
    The path to stability is an unambiguous reaffirmation of 
collective security through the rule of law, which in this 
instance requires a clear commitment to rendering the weapons, 
themselves, as unacceptable. This is both the correct and 
practical compass point.
    Are we urging disarmament this year? Hardly. The U.S. sets 
the example. Lowering the political currency of nuclear weapons 
can make us all safer. We are urging steps that will enhance 
security, strengthen fulfillment of existing legal obligations, 
provide confidence through verification to the international 
community, and each recommendation must stand on its own 
merits. Each must decrease the risk of use, diminish access of 
terrorists to catastrophic weapons and materials to build them, 
and strengthen nonproliferation.
    Here are five:
    A Fissile Material Cutoff Treaty, and we commend the 
administration for putting it forward, but for it to be 
effective there must be verification. Verification, as 
President Reagan said correctly, trust but verify. And the 
Strategic Offensive Reduction Treaty, the SORT Treaty, which 
requires Russia and the United States each to deploy no more 
than 2,200 strategic warheads by 2012, includes no provision 
for verification. Start inspections end in 2009. It is 
imperative to establish a verification for the SORT Treaty to 
have international political meaning. Goodwill is not 
politically nor practically sufficient. We need laws with 
verification.
    Reduction of the operational status of nuclear weapons--the 
United States and Russia still have thousands of warheads on a 
use them or lose them posture. It should be an absolute scandal 
that every moment of every day the two countries remain locked 
in a Cold-War-style nuclear standoff. It is time to end launch 
on warning. The U.S. and Russia should follow the admonition of 
Candidate George W. Bush, who clearly said, ``We should remove 
as many weapons as possible from high alert hair trigger 
status, another unnecessary vestige of cold war confrontation. 
Preparation for quick launch within minutes after warning of an 
attack was the rule during the era of superpower rivalry, but 
today, for two nations at peace to keep so many weapons on high 
alert may create unacceptable risks of accidental or 
unauthorized launch.''
    Comprehensive Test Ban Treaty would prevent the 
miniaturization of immature arsenals, it would restrain 
confinement of advanced arsenals, it would protect the 
environment, and it would create the infrastructure, the legal 
and practical infrastructure of cooperation around the world 
with U.S. leadership, if we would but support it. It was 
promised in the preamble of the NPT, it was pledged in order to 
gain the extension of 1995, and it was reaffirmed at the review 
of 2000. Moreover--and this might be the most important aspect 
of a Comprehensive Test Ban Treaty--it would send a clear 
message of the diminishing currency of the weapons. The United 
States has tested more than anyone else our arsenal is secure, 
safe, and reliable. So said the Joint Chiefs of Staff, and they 
were correct.
    A diminishing role of nuclear weapons in security policies, 
as a minimum step, we must unambiguously establish negative 
security assurances. In order to gain extension of the treaty 
in 1995, countries without nuclear weapons were promised that 
if they would accede to the extension, that they would not be 
threatened with nuclear strikes. To ask a country to foreswear 
these devices and still suffer under the threat of nuclear 
attack is so patently inequitable as to lend credence to 
critiques of the regime, itself. The U.S. should support rather 
than oppose giving these assurances of non-use to nuclear 
weapon states parties to the NPT.
    Moreover, during the cold war we justified the first use 
policy based on the superiority of the USSR's conventional 
force threat to western Europe. The threat is gone. It is time 
to adopt a no first use policy.
    These are modest proposals that demonstrate a beginning to 
authentically reduce the political posture of the weapons. 
These actions are achievable, inexpensive, and they are 
available now. Reliance on ultimate weapon of mass destruction 
leads the world in exactly the wrong direction. Its logical 
outcome is an increasing militarization of the world rather 
than the needed movement toward law and cooperation, and its 
logical expression reaches burlesque proportions in the 
aspiration to unilaterally weaponize the firmaments rather than 
pursue a cooperative non-weaponized regime for outer space.
    Is it a wonder that, while the rational leaders of the 
world's most powerful nations daily place on alert thousands of 
devices delivering immeasurable destructive capacity, cynicism 
prevails? Is such a hopeless future the best we can provide our 
children? Do we really believe that counter-proliferation 
exercised through ad hoc coalitions can be an adequate 
substitute for effective diplomacy? Why are we pursuing a 
regime based on principles of seasonal friendship rather than 
the uniformity and reliability of law? Have we forgotten that 
the weapons of today have triggering devices with the 
destructive capacity of Hiroshima? We need no longer live with 
this sword over our heads.
    In India today there are Hindu fundamentalists speculating 
seriously whether these are the end days, and, like them, there 
are in the United States fundamentalist Christians who believe 
very much like their Islamicist brethren or Messianic Jews that 
we await the final battles which will bring an end to history, 
and all of them believe that this disaster is coming about from 
unseen hands. But, Mr. Chairman, Members of Congress, you and I 
know they are wrong. It is not unseen hands that is bringing 
about this destruction; it is hands of rational men in these 
very halls. I ask you to look at these hands, and I ask you to 
have the courage to prove these speculations wrong.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Granoff follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.104
    
    [GRAPHIC] [TIFF OMITTED] 35767.105
    
    [GRAPHIC] [TIFF OMITTED] 35767.106
    
    [GRAPHIC] [TIFF OMITTED] 35767.107
    
    [GRAPHIC] [TIFF OMITTED] 35767.108
    
    [GRAPHIC] [TIFF OMITTED] 35767.109
    
    [GRAPHIC] [TIFF OMITTED] 35767.110
    
    [GRAPHIC] [TIFF OMITTED] 35767.111
    
    [GRAPHIC] [TIFF OMITTED] 35767.112
    
    [GRAPHIC] [TIFF OMITTED] 35767.113
    
    [GRAPHIC] [TIFF OMITTED] 35767.114
    
    [GRAPHIC] [TIFF OMITTED] 35767.115
    
    [GRAPHIC] [TIFF OMITTED] 35767.116
    
    [GRAPHIC] [TIFF OMITTED] 35767.117
    
    [GRAPHIC] [TIFF OMITTED] 35767.118
    
    [GRAPHIC] [TIFF OMITTED] 35767.119
    
    [GRAPHIC] [TIFF OMITTED] 35767.120
    
    [GRAPHIC] [TIFF OMITTED] 35767.121
    
    [GRAPHIC] [TIFF OMITTED] 35767.122
    
    [GRAPHIC] [TIFF OMITTED] 35767.123
    
    [GRAPHIC] [TIFF OMITTED] 35767.124
    
    [GRAPHIC] [TIFF OMITTED] 35767.125
    
    [GRAPHIC] [TIFF OMITTED] 35767.126
    
    [GRAPHIC] [TIFF OMITTED] 35767.127
    
    [GRAPHIC] [TIFF OMITTED] 35767.128
    
    Mr. Shays. Thank you, Mr. Granoff.
    Mr. Sokolski. Thank you.

                 STATEMENT OF HENRY D. SOKOLSKI

    Mr. Sokolski. Thank you, Mr. Chairman.
    I am a little humbled. This is quite an assembly that you 
have put together of experts. It is an honor to be here, and I 
thank you for holding the hearing.
    Mr. Shays. It is an honor to have you here. And it is an 
assembly of some very fine experts, so thank you for being part 
of it.
    Mr. Sokolski. I want to talk about the topic that you 
assigned us, and I guess my message today is that your hearing 
is perhaps too timely. I say that because the nonproliferation 
provisions in the NPT have pretty much been watered down for a 
long time, and they have been overshadowed, I think, too much 
by many countries' backing of the most dangerous and 
uneconomical forms of nuclear energy. I think you heard some 
expressions of that enthusiasm, though muted, even today.
    What is worse, since the early 1990's we and our allies 
have shied away from enforcing the NPT against the world's 
worst proliferators. Now, sadly, I don't think there is any 
technical or really any simple diplomatic substitute for these 
treaty-based systems, particularly the NPT. I think that is why 
I have spent so much time, both in my service on the Hill at 
the Defense Department and advising the CIA, and in running my 
own center, on commissioning research and looking into how to 
make the nonproliferation provisions of these rather weak 
institutional barriers, the NPT and the IAEA, much more 
effective.
    We have commissioned at the center that I run, the 
Nonproliferation Policy Education Center, a good number of 
analyses over the last, I'd say, four or 5 years. Today what I 
would like to do is just give you four of the key findings of 
this research.
    First, I think if we are to do better we really need to 
clarify what the NPT protects as being peaceful. A key reason 
why the nonproliferation provisions of the NPT have become more 
difficult to enforce is that most nations, including Iran, 
North Korea, and, I hate to say it, the U.S. Government, have 
adopted too generous a view of what the inalienable right to 
develop research and produce peaceful nuclear energy is under 
the NPT's article four. Simply because a nuclear activity or 
material might have some conceivable civilian application and a 
country is willing to let international inspectors come and 
monitor them occasionally I would submit is not enough to meet 
the criteria of what is peaceful under the NPT.
    In addition, the nuclear activity or material must also be 
capable of being monitored in a manner that will prevent it 
from being used for bombs. This is laid out in article three. 
And their applications must be economical enough clearly to be 
beneficial. I think if you note when you read the treaty it 
says the purpose is to share the benefits of peaceful nuclear 
energy. I don't think it was meant to promote uneconomical 
activities that bring countries within days or weeks of having 
bombs. That is not the purpose of the treaty. It has become 
that, and that is a big problem.
    Certainly building commercial nuclear fuel making plants 
which could bring nations to the brink of having bombs is 
hardly a per se right under the NPT. Actually, if it is 
possible I would like to submit some testimony that I gave on 
this very issue which basically relies on the research of other 
experts and legal authorities and historians going into what 
the per se rights are under the NPT, with your permission. 
Indeed, such a reading of the NPT would make the treaty one 
that promotes the spread of nuclear weapons making 
capabilities, which is the exact opposite of its intent.
    Second, the IAEA should concede what it can't safeguard and 
seek more funds to safeguard what it can. The ability of the 
IAEA to account for nuclear materials that are needed to make 
nuclear weapons is hampered not only by a lack of candor 
regarding what the Agency's inability to safeguard nuclear 
fuel-making activities is, but also its persistent tendency to 
rationalize away new safeguards and physical security 
challenges and to shy from raising the funds needed to meet 
these new challenges.
    You had a series of questions during the hearing that were 
quite interesting about whether or not the IAEA budget was 
growing or not. It is growing, but it is puny. To give you some 
idea, we spent about $6 billion on the Transportation Security 
Agency to check your luggage and to make sure that you don't 
bring liquids on of a certain type. We have 100 percent false 
alarm rate for that particular activity. We take old women and 
children and we put them through the wringer. The IAEA is not 
permitted, by its own charter, to have a false alarm rate 
higher than 5 percent. Its budget right now--and this is in the 
notes. We standardized it to 2004 dollars--is roughly about 
$100-some-odd million.
    Now, I heard testimony that said that while $30 million, or 
even more, had been added, but that there was a lot of 
resistance because the tax burden on us or on other countries. 
I don't know. That doesn't sound right to me. The $30 million 
just isn't that much.
    For the last 20 years the Agency safeguards budget has been 
little more than doubled in constant dollars. During that same 
period, however, civilian stockpiles of separated plutonium and 
highly enriched uranium, which the Agency is obligated to 
safeguard because they are directly usable for nuclear weapons, 
have increased six times over. This does not include the 
material that is not safeguarded, which is not six times over 
but twenty times over. The actual amount of civilian nuclear 
weapons usable material that goes unaccounted for each year, 
meanwhile, has been increasing steadily as the number and 
output of nuclear fuel-making facilities grows internationally.
    If we are serious about safeguarding against the spread of 
nuclear weapons and preventing nuclear theft or terrorism, 
these trends have to change. The IAEA may be able to monitor as 
they look at fuel-making activities, but it cannot inspect 
these facilities to provide timely warning of diversions or 
thefts, which are equivalent to many, many nuclear weapons 
worth each year. It should admit this publicly. I think Mr. 
Elbarday is to be commended for coming as close as he has to 
admitting it.
    Mr. Shays. I want you to be very specific. They should 
admit what publicly?
    Mr. Sokolski. That they cannot inspect nuclear fuel-making 
facilities to provide sufficient warning of a possible 
diversion to intervene and prevent it. In other words, by the 
time they find out that several bombs worth has gone missing, 
it can sometimes be years after the diversion could have 
occurred where the material was missing.
    By the way, this gets to one of the problems the 
administration and Congress should have about a fissile 
material cutoff. Those nuclear fuel-making facilities that 
would be examined by a Fissile Material Cutoff Treaty, it would 
be wonderful if you could verify them, yet right now you can't. 
The administration isn't entirely candid about this because it 
only says you could hide the whole facility.
    The truth is, if you knew where the facilities were, you 
would not be able to know in any given year how much it 
produced, and the difference of what you knew and what the 
truth was could be equal, depending on the facilities, 
literally to scores of weapons worth in the case of one of the 
large facilities just brought online in Japan. So it is kind of 
like keeping track of the funds in Enron. If you don't know 
what they are making, you don't know what they are stealing. 
And that is where we are. People need to come out and admit 
that, and they are not.
    Third, governments must put security first. By the way, I 
do make recommendations for increasing the IAEA's budget, and 
they should get more money based on user fees, to be blunt. 
Right now Italy has no reactors. It pays more into safeguards 
than South Korea, who has 18 reactors. There is something 
perverse about that. You have to change that. And there are a 
number of things where the IAEA has identified where they can 
do better. They know how to do it; they just lack money. So you 
have to make the distinctions. You have to give them the money 
where they need it and encourage them to be candid where no 
amount of money is going to make much difference for the time 
being.
    Third, governments must put security first instead of 
subsidizing uneconomical, dangerous nuclear energy projects. 
Concern for nuclear security has increasingly taken a back seat 
to states' encouragement of uneconomical nuclear energy 
projects that can bring countries right to the brink. Japan, 
which has already been rocked by revelations that its pilot 
plutonium-making plants had lost track of roughly 40 bombs 
worth of material over the years, just began operation of one 
of the world's largest reprocessing plants. This plant is 
certain to lose money, and experts project the IAEA will lose 
track of nearly 50 bombs worth of crude nuclear weapons worth 
of plutonium there annually.
    Other equally problematic nuclear fuel-making operations 
are underway in Brazil, South Africa, India, Ukraine, and 
Argentina. One has to wonder why the IAEA has correctly 
established that there is no economic or technical requirement 
for additional fuel-making capacity over the next ten to twenty 
years, yet the U.S. is doing little to object to these efforts 
and arguably is encouraging them in order to get them to pursue 
becoming a nuclear fuel supplying state under its new 
initiative, the Global Nuclear Energy Partnership, which Mr. 
von Hippel has done a great deal of work on.
    Here it would help to pace nuclear power's expansion and 
that of commercial nuclear fuel----
    Mr. Shays. Let me do this. I think I need to interrupt you 
to make sure we get to the Professor.
    Mr. Sokolski. Let me stop right here then.
    Mr. Shays. OK. Thank you.
    Mr. Sokolski. Sorry.
    [The prepared statement of Mr. Sokolski follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.129
    
    [GRAPHIC] [TIFF OMITTED] 35767.130
    
    [GRAPHIC] [TIFF OMITTED] 35767.131
    
    [GRAPHIC] [TIFF OMITTED] 35767.132
    
    [GRAPHIC] [TIFF OMITTED] 35767.133
    
    [GRAPHIC] [TIFF OMITTED] 35767.134
    
    [GRAPHIC] [TIFF OMITTED] 35767.135
    
    Mr. Shays. Mr. von Hippel. Let me just tell you I am going 
to give you a choice here. I am coming back after my votes. I 
have kept you here all day, so I am not expecting that you 
would have to stay, but whoever stays, even if it is one of 
you, I will be back to have a dialog, because, frankly, I think 
you can help put these pieces together that the other two 
panels have introduced and so on.
    What the bell meant was four votes, but, Professor von 
Hippel, we have time to have you make your statement.
    Mr. von Hippel. OK. I will make it in 5 minutes.
    Mr. Shays. You can go over a little bit. We will be fine.

                 STATEMENT OF FRANK VON HIPPEL

    Mr. von Hippel. Thank you. Thank you for holding this 
hearing. I have organized my statement into why the NPT is 
important, why it is in trouble, and what the United States can 
do about it.
    Mr. Shays. Great.
    Mr. von Hippel. Why it is important, the NPT embodies an 
almost universally shared recognize that nuclear weapons are a 
threat to all mankind. It recognizes that the weapons, 
themselves, are the threat, no matter which country possesses 
them. It also represents a commitment to do something about 
this to prevent the spread of nuclear weapons to more countries 
and to reduce their numbers in the countries that have them 
ultimately to zero.
    Under the NPT, the Atomic Energy Agency checks whether non-
weapon states are complying with their commitments. We know as 
much as we do about Iran's nuclear activities, for example, 
only because Iran is a party to the NPT, which gives the IAEA 
the right to go and look.
    Now, why is it in trouble? One reason is that the non-
weapon states are increasingly reluctant to accept additional 
restrictions when the United States has dropped any pretense of 
making irreversible nuclear arms reductions. The non-weapon 
states won't pay attention to our priorities if we don't pay 
attention to theirs.
    In June I saw how angry this dialog has become when I 
attended a conference in Oslo on minimization of highly 
enriched uranium in civilian nuclear applications, one of your 
concerns. The concern was that, as you have indicated, that 
highly enriched uranium can be used by terrorists to make 
improvised nuclear explosions, but South Africa's Ambassador to 
the IAEA at that conference declared that the NPT is not an a 
la carte menu from which states' parties may choose their 
preferences while ignoring other aspects, and he referred in 
particular to the lack of progress on the Fissile Material 
Cutoff Treaty, which is one of the 13 steps that the U.S. 
committed to at the NPT Review Conference in 2000.
    The treaty, which is, in the words of the U.N. resolution, 
the agreement in 2000 called for immediate commencement of 
negotiations under an effectively verifiable treaty banning the 
production of fissile materials for nuclear weapons or other 
nuclear explosive devices.
    It is 6 years later, and negotiations at the Conference of 
Disarmament have not begun because of what I consider a petty 
disagreement by the U.S. and China over the proposed agenda.
    Now, with regard to what the United States can do, I would 
like to offer a list of four things that we could do to help 
restore legitimacy to the NPT and thereby to its usefulness as 
a tool against the dangers of nuclear proliferation and nuclear 
terrorism.
    First, a Fissile Material Cutoff Treaty will only happen if 
the United States gives this priority. U.S. also has to support 
an internationally verified fissile cutoff, not oppose it, as 
we do today. We can't require that non-weapon states be open to 
IAEA inspection but refuse such inspections for ourselves. I 
agree with Mr. Sokolski that there is an uncertainty of a 
percent or so or up to a few percent in the measurements at 
facilities which handle highly enriched uranium and plutonium, 
but that is much better than nothing.
    I recall the first President Bush's insistence that under 
the Chemical Weapons Convention international inspections 
should be possible any time, anywhere, without right of 
refusal. He did not say except for in the United States.
    Now, the second thing is the Comprehensive Test Ban Treaty. 
It is almost always at the top of the list for non-weapon 
states. The U.S. Senate refused to ratify the CTBT in 1999. The 
global test moratorium has continued, however, and the 
directors of the U.S. nuclear weapons labs have continued to 
certify each year that the U.S. nuclear stockpile is safe and 
reliable and doesn't require testing. The National Academy of 
Sciences and the Department of Energy agree that this situation 
can be maintained indefinitely, although they may not agree on 
how best to do it.
    Under these circumstances, it would be in the U.S. interest 
to ratify the CTBT and lock in other countries, as well. There 
will always be the escape clause that gives each state party to 
the treaty the right to withdraw from it if it decides that its 
supreme national interests are jeopardized.
    Third, we should take the objective of nuclear disarmament 
seriously. Why does the U.S. keep thousands of nuclear 
warheads? Because Russia has thousands of nuclear warheads. And 
if it came to nuclear war, we would want to be able to destroy 
as many as possible of theirs before they could be used. Why 
not then agree to destroy as many as possible of these warheads 
now by agreement and eliminate the hair trigger situation which 
has been discussed?
    Russia and the U.S. could get down to a thousand warheads 
each--that is a thousand total warheads, not just deployed 
warheads--before we would need to ask other countries to 
reduce. Today we each have enough material to make more than 
10,000.
    Fourth--and this brings me back to my colleagues' 
statement--continue the moratorium on spent fuel reprocessing. 
This is an issue that is being driven by Congress that has 
major implications for the future of nuclear proliferation. For 
30 years the U.S. has been able to say to other countries we 
don't reprocess and you don't need to, either. In combination 
with the invisible hand of economics, that posture has been 
very effective.
    The number of states having their reactor fuel reprocessed 
has declined dramatically in those 30 years. Congress now 
proposes to have federally financed reprocessing of spent power 
reactor fuel. The reason is the delay in the availability of 
Yucca Mountain. A reprocessing plant would be an alternative 
destination for spent fuel, but it would be a very expensive 
one. And such damage to U.S. nonproliferation policy is 
completely unnecessary. Storing older spent fuel in dry casks 
at reactor sites or at centralized storage sites would cost 
one-tenth as much as reprocessing and would be much less 
hazardous than reprocessing.
    Mr. Shays. Professor, I have about 4 minutes, which is 
still enough time, but if you could kind of close up.
    Mr. von Hippel. I am down to my last half page.
    Mr. Shays. Great.
    Mr. von Hippel. Just on that point, though, the hazard from 
spent fuel in dry cask storage at reactor sites is a minuscule 
portion of the total hazard of that site. The major hazard is 
from the reactor core, the next down is the recently discharged 
spent fuel in the pools. The dry cask storage is negligible 
hazard.
    So, in summary, the non-weapon states will not support the 
U.S. effort to further limit their rights under the NPT if the 
U.S. doesn't begin to live up to our own central NPT commitment 
to irreversibly end the arms race with the FMCT and the CTBT 
and get on with the task of nuclear disarmament.
    I would also like to make one specific suggestion: that 
Congress require of the executive branch an annual report from 
the President summarizing relevant initiatives, progress, and 
obstacles to implementation of U.S. commitments under the NPT.
    Finally, on how easy it is----
    Mr. Shays. I have now two and a half minutes.
    Mr. von Hippel. OK, but you really wanted to know the 
answer to this.
    Mr. Shays. OK. Go for it.
    Mr. von Hippel. How hard is it to make a nuclear weapon? 
John Phillips----
    Mr. Shays. Are you going to stay or do you need to leave, 
because I am coming back?
    Mr. von Hippel. I have a 9 o'clock flight from Dulles.
    Mr. Shays. Then you are fine. You can stay.
    [The prepared statement of Mr. von Hippel follows:]
    [GRAPHIC] [TIFF OMITTED] 35767.136
    
    [GRAPHIC] [TIFF OMITTED] 35767.137
    
    [GRAPHIC] [TIFF OMITTED] 35767.138
    
    [GRAPHIC] [TIFF OMITTED] 35767.139
    
    [GRAPHIC] [TIFF OMITTED] 35767.140
    
    [GRAPHIC] [TIFF OMITTED] 35767.141
    
    [GRAPHIC] [TIFF OMITTED] 35767.142
    
    Mr. Shays. Let me do this. My staff can tell you where you 
can get a sandwich.
    You have to stay, because I want to know how you do it.
    Ambassador Graham. Yes.
    Mr. Shays. I just want to say that I would welcome all of 
you staying, but to force you to stay would be house arrest and 
I am not going to do that, but I think I have another 25 
minutes before I am back here, and I will be back here. I think 
Mr. Granoff will be back here, so I am definitely back here.
    Thank you.
    We are recessed.
    [Recess.]
    Mr. Shays. I call this hearing to order.
    What I would like, I will let you, Professor, tell me, and, 
Ambassador, I would like to have you tell me what I would like 
to hear from there, but in regards to the issue. This is the 
point I am trying to make: we have always known people could 
learn how to make a weapon, so to me the issue is not is there 
all the documentation if you are a bright student can you do 
it. The question is what I learned that I need to be disavowed 
of if it is not true is that basically to make a low-yield 
weapon using enriched uranium you don't need a lot of 
specialized parts, and you could, if you could get the weapons 
grade material, create a nuclear explosion.
    Professor, I will have you start out on it.
    Mr. von Hippel. You are absolutely right. In fact, it is so 
easy to make a nuclear explosion--and it is not necessarily low 
yield. We are talking about Hiroshima scale--with highly 
enriched uranium metal, that the Department of Energy worries 
about improvised nuclear devices. That is, they worry about 
terrorists getting into a bunker which has highly enriched 
uranium metal in it and actually improvising an explosion on 
the spot before they can be stopped by the guard force. That is 
pretty easy.
    Now, when you were talking about the Princeton 
undergraduate, John Aristotle Phillips, he wasn't a student of 
mine, but he did this as a project for a course of a colleague 
of mine, and it is considered so easy even by undergraduates to 
do a highly enriched uranium bomb that they always go for 
plutonium. They want to show that they are smart enough to do a 
plutonium bomb, which is an implosion bomb. In fact, the 
Hiroshima bomb was not designed at Los Alamos, it was designed 
by an assistant professor and a couple of graduate students in 
Berkeley the summer before. The whole Los Alamos head 
scratching and hair tearing was devoted to the plutonium bomb. 
But a plutonium bomb is not necessarily out of reach of 
terrorists, either. It is more difficult.
    Mr. Shays. Let me ask you, with that, though, do you need 
material that would be harder to get a hold of? Is the material 
an issue there?
    Mr. von Hippel. No. Well, the plutonium is.
    Mr. Shays. I don't mean the plutonium.
    Mr. von Hippel. No. In fact, Phillips went to call up 
DuPont, what kind of explosives to I use, and they were happy 
to tell him what kind of explosive to use. He went to the 
National Technology Information Service and asked for the Los 
Alamos Primer, which was the lectures that were given at Los 
Alamos to the incoming people by this Berkeley assistant 
professor, and when they came out with the primer, which has 
now since then been published by the University of Chicago--no, 
by Berkeley University Press, California University Press. They 
said usually when people ask for this they ask for these, too, 
with a stack of documents. So, in fact, it was referred to in 
the testimony before that this was given as a project. By the 
way, Phillips didn't do it right, despite his claims. He 
actually made a mistake in the design. This is beyond the 
ordinary undergraduate, but it has been done by graduate 
students correctly.
    Mr. Shays. OK. Gotcha.
    Mr. von Hippel. For the plutonium weapon.
    Mr. Shays. Super.
    Mr. von Hippel. I had a colleague, Ted Taylor, at Princeton 
for a number of years who was an ace Los Alamos weapons 
designer in his previous incarnation, and he was the one who 
actually first raised the issue of nuclear terrorism in the 
1970's, and he was concerned about the U.S. going to--at that 
time the U.S. was pushing toward a plutonium economy, and he 
was very concerned about having plutonium used as a commercial 
fuel by the millions of bombs worth, is what people were 
envisioning at that time. He was making the argument--and it 
was an argument. I mean, the community was not unanimous about 
this--that, in fact, terrorists could do it. It is more 
difficult, but you shouldn't ignore it.
    Mr. Shays. Gotcha. Let me just go to you, Ambassador. You 
were going to tell me up front, and then I will get off of this 
issue, but I would like to just get it off the table here.
    Ambassador Graham. Well, I just wanted to, Mr. Chairman, 
tell you about my experience in South Africa with the South 
African government.
    Mr. Shays. Can you give us a timeframe of when you were 
there?
    Ambassador Graham. Yes, I will. I headed the U.S. 
Government efforts to permanently extend the Nuclear Non-
Proliferation Treaty in the 1993-1995 timeframe, and so I 
traveled all over the world looking for votes. It was a little 
bit like a political convention. And one of the places I went 
to was South Africa, because they were a very key vote. They 
were a swing vote. They had the possibility of bringing in a 
lot of non-aligned countries who were opposed to us to support 
our view that the NPT should be permanent.
    So I went to South Africa and I was there for 2 days with a 
colleague and the first day I spent with the government in 
their offices, and then the second day they gave us a tour of 
their former nuclear weapon establishment, and they took us to 
a shut-down nuclear enrichment plant that they used to make the 
HEU, and then they took us over about ten miles away to 
Wallendaba, where they actually assembled the weapons, and they 
took us to the building where they assembled the weapons, and 
they showed us a large room. They said this is where we 
assembled the weapons. Look around you. Nothing has changed.
    There was nothing in that room you couldn't find in a high 
school machine shop. They showed us the cases they had used to 
move the weapons around in. It was clear they would fit in the 
back of a panel truck. And then they gave us a short lecture on 
why they built the weapons, which I won't go into unless you 
insist. And then they explained how. And they said that we 
spent on this program $150 million. I got that wrong. We spent 
on this program $25 million and had 150 people working on it, 
including the janitor. Nobody knew what we were doing. That 
doesn't count, of course, the money we spent enriching the 
uranium to weapons grade, just the bomb assembly part--$25 
million, 150 people. We built six bombs of 20 kilotons. We 
didn't need to test them because we used the gun barrel design. 
You are the first Americans to see this other than those two on 
the International Atomic Energy inspection team. We are telling 
you this for a reason, and the reason is that once the fissile 
material is acquired--we made our own over in Wallendaba 20 
miles away, but if the fissile material can be acquired, the 
rest is really easy, really easy. Any government can do it.
    Mr. Shays. The rest is really easy?
    Ambassador Graham. Really, the rest is really easy. 
Virtually any government could do it and many sub-national 
groups like terrorist organizations could do it, in their view. 
You don't need an infrastructure. You just need a few skilled 
scientists and engineers and the fissile material.
    So that goes just to reinforce what everyone else has said, 
but here is a country that had direct experience doing it.
    Mr. Shays. Mr. Sokolski, comment?
    Mr. Sokolski. I think that is the reason why the IAEA could 
be a heck of a lot more important than it is, because it has 
the job of keeping a count of the weapons usable materials that 
are produced literally in the open. I think it is important to 
keep in mind that in the case of highly enriched uranium some 
scientists like to joke and say, well, you need a tall ladder 
and a tube to assemble. I mean, I don't think it is that easy, 
but you are not talking about very much.
    In the case of plutonium, I don't think we should look at 
this as one is more difficult so they will do the easier, No. 
1. No. 2, so we would be OK if a terrorist got some plutonium? 
I don't think so. In other words, what that allows a group to 
do, once it has possession, is raise literally kilotons of 
uncertainty as to what they will be able to do, just like Iraq. 
You will not know. So once they give plausible reason for you 
to believe they stole it, you are in a world of worry.
    I think, in addition, you need to understand again 
something which there has been not very much candor about in 
the official world. When I worked in the Government I had the 
same problem. I worked in the Defense Department. People do not 
want to admit that they cannot keep track of this material, 
even in civilian facilities that are declared and monitored by 
the IAEA, never mind the ones that might be hidden away. They 
can do only such a rough job that, in the case of a commercial-
sized facility that enriches and reprocesses, you will 
literally they say lost in the pipes or in solution many bombs 
worth per year.
    Now, if you focus on that point it changes the way you look 
at the whole problem of what to do. If you believe you can 
monitor and safeguard--and safeguard means not just look at, 
but get warning of a diversion early enough to prevent it ft 
being completed by getting folks to land with Black Hawk 
helicopters or whatever they do. Depending on how you see that, 
it changes everything as to what you do.
    Mr. Shays. First I am going to just say I tend to learn the 
most about the terrorist threat from folks who used to work in 
the Government who now have a little more freedom to talk about 
issues when they work for a non-government organization, have 
their own institutions, and so on, so I really appreciate the 
fact that you all stayed and I thank you very much.
    Mr. Spring, were you going to make a comment?
    Mr. Spring. I was going to make exactly the same point that 
Mr. Sokolski just made; that is, that I would be a little bit 
reluctant to try, on the basis of probability, and say OK, we 
are going to focus on the terrorist threat in highly enriched 
uranium at the margin compared to what might be the risk 
associated with plutonium because of the relative ease of 
assembly. I think that these guys are too unpredictable to say, 
OK, we can sort of net down and focus more on the HEU source 
than on the plutonium source. I think you could arrive at some 
poor policy decisions if you take that too far.
    Mr. Shays. Let me do this. Professor, is there anything you 
want to say before we get you on your plane?
    Mr. von Hippel. No. I thank you.
    Mr. Shays. I think we will get you on your plane, and I 
thank you so much for coming. I very much appreciate it. Nick 
is a very good man at getting taxis. Follow that man. And let's 
have this on the record: my staff director is helping him get 
the taxi.
    Do you need to leave, Ambassador? Thank you very much. Any 
last comment that you would like to make for the record?
    Ambassador Graham. I can't think of anything additional 
that I would want to submit for the record at this point. I 
enjoyed the hearing very much. I thought the questions were 
really excellent. The answers were good, too, but the questions 
set the tone of the hearing. I think a lot of issues that are 
not discussed nearly as much as they should be got discussed 
today. I hope that the transcript can be drawn together in some 
way that can be made available to students and scholars and 
Government people.
    Mr. Shays. Let me just say this to you. If I am back in 
this place--and I hope to be--whether I am in the majority or 
Mr. Kucinich, we both agree that we need to be bringing this up 
to a different level, and you are going to see next year, 
whomever, but we are going to pursue this big time, because it 
is a huge issue and it is not getting the attention it 
deserves.
    Ambassador Graham. These are very big issues and Congress 
rarely has the opportunity to address them in a detailed way as 
has happened today.
    Mr. Shays. Thank you very much, and travel safely.
    Ambassador Graham. My pleasure. Thank you.
    Mr. Shays. Thank you.
    With the three of you that are still here, let me ask you 
is there anything that was brought up in the first panel, Mr. 
Blix, or the second panel with our Government officials that 
you would want to emphasize or critique in a way that says you 
disagreed with the things that were said? Are there agency 
points that you want to make? Mr. Spring?
    Mr. Spring. I think that Deputy Assistant Secretary Semmel 
addressed this in his opening statement a little bit, but I 
would like to reinforce it, and that is that the impression can 
be left that the United States and, by extension, the other 
four declared nuclear weapons states under the NPT, are somehow 
at odds with or not complying with or in violation of article 
six. I just don't believe that. And the Blix Commission talked 
about the disarmament process being in disarray. I don't 
believe that it is in disarray.
    The Blix Commission talked about an insufficient commitment 
to arms control on the part of the United States and talked 
about there being this commitment during the cold war, but the 
numbers of nuclear weapons were going up during the cold war 
and they are coming down now, and they are on their way to 
between 1,700 and 2,200 at the strategic level. The U.S. has 
gone even greater strides below that in the tactical area.
    I find it hard to equate the idea that we were somehow OK 
during the cold war when the arsenals were going up but now we 
are somehow sort of ignoring these obligations under article 
six when they are coming down.
    So I think the United States has quite a bit to be proud of 
in what it has done in the arms control field. There is a 
tangential relationship between strategic arms control between 
the United States and Russia today and nonproliferation policy, 
but I think that generally that is a positive relationship, in 
my view, so that I think that I would be a little bit reluctant 
to denigrate too much the position the United States has taken 
in that field.
    Mr. Shays. Thank you.
    Mr. Granoff, do you disagree or agree but you want to make 
another point?
    Mr. Granoff. I disagree very vigorously that it is a little 
more sophisticated than that. Article six is part of the law of 
the land, as you know. Article six, clause two of the 
Constitution makes treaties the supreme law of the land, and 
article six of the NPT requires good faith efforts to obtain 
nuclear disarmament.
    All of the parties to the treaty agreed, in order to gain 
the indefinite extension of the treaty, to principles and 
objectives in 1995, and included in those principles and 
objectives was an unequivocal commitment to the ultimate 
elimination of nuclear weapons, and the parties to the treaty 
and the negotiations forced the United States and the other 
nuclear weapons states to agree to 5-year review conferences at 
which the commitment to nuclear disarmament and the steps in 
that direction would be reviewed.
    In 2000 there was a very productive conference and 13 
practical steps were agreed upon by all parties to the treaty 
as a way of fulfilling the article six commitment. Now, those 
commitments in the year 2000 were political commitments, no 
doubt, and it would be bootstrapping a political commitment 
improperly into a legal commitment under our Constitution to 
say that because we made political commitments as part of a 
treaty they are the law of the land.
    But in 2005 at the next review conference the position of 
our Government was that our commitments made in 2000 to fulfill 
article six would not be reviewed.
    Now, that alone does not constitute bad faith or 
noncompliance, but the failure to put forward another route of 
fulfilling article six I believe puts us in a legally 
precarious position.
    Mr. Shays. Us or everyone? The question was put to us or 
the other four, as well?
    Mr. Granoff. I would say the other four would be part of 
it, but the other four were not as irresponsible in overtly 
creating unnecessary roadblocks to creating an agenda in 2005. 
What happened was the conference never got a working agenda. 
The other countries that I would say are worth pointing out 
would be Egypt and Iran, who also I would say were not 
operating to create an operating agenda. So at the 2005 review 
no statement could be made, nor could there be an adequate 
review of the kind of threat-reducing steps that were needed, 
steps like making it difficult for a country to use their 
article four privileges and drop out of the treaty. There were 
proposals, for example, of friends of the United States that 
said if a country drops out of the treaty they lose the 
facilities that they developed under article four. That to me 
would be clearly an effective and useful nonproliferation 
aspect. Never got discussed. Creating a secretariat for the NPT 
so they could have a corporate memory never got discussed. 
Creating some way of having some body at which complaints of 
noncompliance could formally be brought and evaluated, never 
discussed.
    Essentially, the review conference was unable to review 
past conduct, and the U.S. kept focusing on only the 
nonproliferation side of the equation without putting forward 
an alternative route. I think it is our obligation to do that.
    I feel more comfortable criticizing my own country where 
dissent is part of our system than criticizing others.
    Mr. Shays. I hear you, but the bottom line is all five need 
to be taking action. The burden is on all five, correct?
    Mr. Granoff. The burden is on all parties to the treaty, 
but the biggest burden I would say is on the P-5.
    Mr. Shays. I would like you, Mr. Sokolski, to respond, but 
then I would like to ask all of you, I am not hearing clearly 
the comment, I am not interpreting clearly the comment that 
parties that aren't part of the nuclear family have a right to 
expect to do more, and because they are not seeing us do more 
they are going in the opposite direction. I don't know what the 
opposite direction means. In other words, that they are doing 
something. I am not quite sure what we are seeing them doing.
    Mr. Sokolski, you were going to make a point earlier?
    Mr. Sokolski. Yes. I want to make sure I understand the 
point you just made.
    Mr. Shays. Why don't you answer your question first.
    Mr. Sokolski. OK. My reading of the history--and I have 
written a history that has been published of the proliferation 
treaty effort--doesn't quite correspond to this. It is 
different.
    Mr. Shays. To what? Mr. Granoff's comments?
    Mr. Sokolski. Yes, and even a little bit to my colleague at 
The Heritage. I think there is actually a very fundamental 
problem in reading this document, the NPT. You can read it 
through the lens of article six, which says we would like good 
faith efforts for those that declare they have nuclear weapons 
to disarm, or you can look at this understanding through the 
lens of article four, which says--actually, there are three 
lenses, article four, which says everyone has a right to 
develop nuclear energy in a peaceful fashion, and then there is 
the first two articles, which says them that's got don't give 
and them that's not got don't try to get. Depending on which 
lens you pick, you end up emphasizing very different things. 
What we have heard is, well, you shouldn't emphasize the 
article six. You should.
    I think you are going to have to think about three things 
at the same time, unfortunately. I think the emphasis needs to 
be placed on making sense of article four. The reason why, it 
is the least discussed. Everyone has talked to death about how 
America needs to give up more nuclear weapons, and then 
occasionally they say China, which is actually making more. 
Then you hear some discussion that really you shouldn't try to 
get. But you don't have a discussion of what peaceful nuclear 
energy is.
    A reason I think that is important is the United States, 
this Congress, is funding something called the Global Nuclear 
Energy Partnership, which threatens to be roughly a bad version 
of Atoms for Peace, which Eisenhower promoted, on steroids, 
where you are really going to encourage people to get into fuel 
making.
    Well, none of the people on the administration witness 
lineup focused on the problems that the IAEA has and what it 
can and can't do. Regrettable, Mr. Aloise didn't speak enough 
to that except for the staffing point because it is hard. You 
only have so much time. I don't know how much this committee 
should get into it, but somebody in this Government better, on 
a routine basis, build on what GAO has done--maybe it is the 
CIA--and do annual reports on what it is that the IAEA can keep 
track of and what it can't, because that goes to the heart not 
only of article four but indirectly, I would argue, article 
six.
    There is no way the United States and the nuclear weapons 
powers are going to disarm if other people are hedging their 
bets and getting right up to the edge of getting bombs.
    Mr. Shays. It is pretty alarming, though, to think that we 
can't keep track.
    Mr. Sokolski. I keep emphasizing because you are right, it 
is pretty alarming.
    Mr. Shays. Yes.
    Mr. Sokolski. There ought to be a law. You ought to be 
concerned. You ought to be having hearings. I am telling you it 
is like talking about something that is politically incorrect.
    Mr. Shays. If the United States had signed the Kyoto 
Treaty, would it be possible for us to move forward without 
extensive nuclear power?
    Mr. Sokolski. I think the short answer is you would have to 
because----
    Mr. Shays. You'd have to have----
    Mr. Sokolski. You would have to move forward substantially 
without much nuclear power because most of the pollution is 
going to continue to be made by things that are non-nuclear. 
You are not going to be able to substitute everything with 
nuclear.
    Mr. Shays. Well, I am not sure I understood your answer.
    Mr. Sokolski. The point is that the nuclear industry would 
like you to believe that the answer to all problems in 
transport, relying on oil, coal pollution caused by making 
aluminum and fertilizer and everything else can all be taken 
care of by putting nuclear reactors everywhere. That is a great 
thought, it is just practically impossible to do.
    Mr. Shays. OK. But for a variety of reasons we can't deal 
with the waste and, and, and.
    Mr. Sokolski. They can't build them quick enough.
    Mr. Shays. OK.
    Mr. Sokolski. And they can't be applied to everything that 
way because just the economics aren't there.
    Mr. Shays. But still there is no avoiding the fact that 
Europe is attempting to deal with this issue through nuclear 
power, correct?
    Mr. Sokolski. No. That is incorrect. What they are doing 
mostly is trying to give incentives for people to figure out 
how to reduce emissions, and there are many ways to reduce 
emissions, as the British government has laid out, besides 
nuclear. All of the British government, for example, is 
suggesting it should do is maintain the nuclear power plants it 
has. It is not suggesting a big ramp-up.
    Mr. Shays. OK. Let me ask you, Mr. Spring, do you have a 
position on the issue of nuclear electric generating power? I 
mean, do you believe it has----
    Mr. Spring. Let me qualify my remarks in that I am not an 
energy specialist.
    Mr. Shays. OK.
    Mr. Spring. We have a separate analyst at Heritage that 
looks at that. I would say this: I certainly share Mr. 
Sokolski's concerns about article four and what we do in that 
and the proliferation risk associated with the generation of 
nuclear power, which is expressed as a right in article four.
    Mr. Shays. Right.
    Mr. Spring. And as a free market economist----
    Mr. Shays. Right.
    Mr. Spring [continuing]. Which Heritage Foundation 
generally is----
    Mr. Shays. Generally? It is synonymous with.
    Mr. Spring. If you are subsidizing this stuff, then maybe 
you are not making rational economic choices, and the nuclear 
industry is pretty heavily subsidized in a lot of ways, 
including for export. And so if you were to ask me can we cut 
that stuff out, I would say yes.
    And so let's say, for example, with the state du jour on 
nuclear cooperation, which is India, sure, you can have this 
agreement that we would cooperate on nuclear stuff, but let's 
look at it. Has India made a rational economic case that 
nuclear energy is the best option for them? Have we made a 
rational economic case that subsidizing nuclear exports to 
Iran, presumably under this agreement, makes sense for either 
energy production regions or for not incurring nonproliferation 
problems? I think that my answer is we can have the agreement 
but I am not sure that it would make sense to exercise it in 
the full panoply of what it would allow.
    Mr. Shays. Well, let me use this to segue, since you 
mentioned Iran. You heard the responses in the other two panels 
about Iran. I would like each of you to give me your take on 
what Iran is doing, No. 1, and, No. 2, what we should be doing 
based on what they are attempting to do.
    I will start with you, Mr. Granoff.
    Mr. Granoff. I think Iran is hedging. I think Iran is 
untrustworthy. I think we can learn some lessons from Iran. 
Iran's spoofing and noncompliance with the inspection regime 
should teach us that there should be a line drawn in the sand 
prospectively that says if a country doesn't fully cooperate 
with inspections it from then on loses its article four 
privileges. You can't apply that retroactively. We haven't 
shown that their program was designed for weapons purposes, but 
there should be a rule that this sort of conduct is simply 
intolerable going into the future.
    Where are we now? It would seem to me that you cannot 
negotiate a solution if on Monday you threaten with regime 
change and then on Tuesday you ask somebody to cooperate and 
foreclose a potential military option in the future, and then 
on Wednesday say we are going to have regime change again. It 
is simply incoherent. So I think we need to have a coherence 
that states very clearly: do we recognize the sovereignty of 
this country? Have they so violated the fundamental human 
rights of their citizens that they have violated their right to 
function as a sovereign? I don't think that they have. I don't 
like the system of government there. I find it abhorrent. I 
find their human rights standards to be unacceptable. I think 
they have misinterpreted the message of compassion and unity 
that the holy prophet preached. I don't think they understand 
the value of pluralism. I don't think they understand the 
values of the modern age. I think that they are a very 
hazardous country. But I also look at the demographics, which 
are that there are a lot of young people there. So I think the 
extent to which we can dialog and engage, time is on our side.
    In terms of nuclear, Iran shows us that to prevent the next 
Iran--I view it as sort of a sparks out a volcano or a canary 
in a mine shaft. As long as nuclear weapons are a currency of 
power, countries are going to want to get them. So what do we 
need to do? We need to have a sufficiently intrusive inspection 
and verification regime that will give us sufficient confidence 
that countries cannot use article four to break out.
    The atomic audit of the Brookings Institute said that we 
have spent approximately $5.7 trillion on this venture without 
real public debate.
    Mr. Shays. What venture?
    Mr. Granoff. The venture of building nuclear arsenals in 
our country, alone. That doesn't even go to the whole world. 
That is $5.7 trillion. Steven Schwartz, who led that, informs 
me that we are spending in excess of $105 million a day now on 
the venture of keeping the arsenal ready and the entire 
enterprise.
    The IAEA has never spent in excess of $105 million in a 
year for inspections. change the equation: robust inspections, 
but do not try and shame Iran. It is a country that has a 
martyrdom mythos and they will die before their honor will be 
compromised.
    Mr. Shays. It is amazing for me to be in the Middle East 
and hear people talk about honor, even in the Sudan. I mean, 
when we were in North Darfur to hear a Governor talk about the 
pride of the Sudanese not tolerating any foreign troops, and 
there was no discussion or concern about the loss of literally 
hundreds of thousands of lives. It was pride. And he said it in 
such a way that he expected me to be totally in sympathy with 
him because I would connect. So it is just very interesting.
    Mr. Spring, what is your answer to this question about 
Iran?
    Mr. Spring. My answer to this is that I think the Iranians 
are, in fact, seeking a weapons capability, and I think they 
are playing the politics of energy at the Security Council to 
try and frustrate any efforts at enforcement that the 
nonproliferation regime lodges in the Security Council. In my 
judgment, that leads me back to the regional track. I think 
that the United States should be working very strongly with the 
other states in the region to make sure that Iran is 
politically isolated in that region to the greatest extent 
possible--countries like Pakistan and Turkey and Saudi Arabia 
and the other Gulf Cooperation Council states--and really work 
on that diplomacy to leave Iran as completely isolated as 
possible as the future that they face, and that their ambitions 
to lead some sort of great broader Islamic coalition in that 
region will come to naught if they continue down this path. I 
think that the regional element is a very important role to 
play.
    Mr. Shays. The regional element is, but in my reading--and 
that is one area where I spend most of my time. I mean, when 
you talk to various country leaders, or in many cases I learn 
more by talking to their advisors, you know, some are already 
hedging their bets----
    Mr. Spring. I know.
    Mr. Shays [continuing]. That Iran is going to have it. 
Others don't have confidence that we have the staying power. 
They look at the debate here at home about Iraq and believe we 
will leave prematurely. I have no faith that our western allies 
will back us up, and so an embargo done just by the United 
States--so I know what you are trying to accomplish; I just 
don't see how we could get it done. I really don't see how we 
would get it done.
    Mr. Spring. It is going to be very difficult, and that is 
why The Heritage Foundation has put so much effort into this 
nuclear gains exercise that my full testimony refers to that 
presumes a nuclear setting, presumes a proliferated setting 
with seven players to look at the dynamic of how these states 
would interact, not with the idea that nuclear proliferation is 
inevitable--I hope it is not--but actually to try and look at 
what happens in that kind of future to explain the implications 
for all the regional players involved as to what is at stake 
for them, because my judgment is that, in playing this game 
with real human beings assuming the roles of state leadership, 
is that one of the cardinal sins that they commit across the 
board is to assume, not understand but just assume that nuclear 
weapons have massive political and military benefits. They 
over-estimate their value initially without question. It is 
just unbelievable.
    Mr. Shays. Yes. And under-estimate cost.
    Mr. Spring. And they under-estimate cost, indeed. And, of 
course, the United States and the Soviet Union went through 
that process in the early stages of the cold war, but I think 
we learned the lessons, fortunately, before there was a 
catastrophe.
    Mr. Shays. Right.
    Mr. Spring. But in a seven-player environment I would say 
that it is even worse.
    Mr. Shays. And the seven-player environment, you are not 
including India or Pakistan? what is the seven-player 
environment?
    Mr. Spring. Well, the seven players can be applied to any 
region. The first study that is on our website looked at it in 
a model, not exact duplicate, but a model of the East Asian 
with North Korea, China, Japan, Taiwan, the U.S., and Russia 
essentially being the players of unequal strength.
    We have grafted the game in a Middle East version where the 
players are roughly equivalent to Israel, Iran, Turkey, 
Pakistan, Saudi Arabia, Russia, and the United States.
    Mr. Shays. Mr. Sokolski, did you want to weigh in on this 
issue with Iran, and then I am going to ask the question. Maybe 
I can ask you to elaborate and just quickly come back to Mr. 
Granoff and Mr. Spring. What happens to Egypt and Saudi Arabia 
if Iran gets a nuclear weapon? So why don't you tell me how you 
think we should be dealing with Iran.
    Mr. Sokolski. First, seven sounds pretty good to me. You 
are looking at a world that is going to have seven, seven, 
seven, and seven. Your model is 1914, trying to keep track of a 
lot of folks gaming the system, thinking that a quick war or 
whatever they have in the way of military capability will win 
if they get in trouble and that they can diplomatically figure 
things out. The problem with the spread of nuclear weapons 
capabilities is the stakes for failure exceed what we 
experienced in the First and Second World Wars, what we have to 
worry about.
    I think that is the reason why he is doing the study and 
probably even telling his own people I love missile defense, 
but that isn't the entire answer. And for someone at Heritage 
to say that means you had better be listening, because that 
comes hard. Am I right?
    Mr. Spring. You are right.
    Mr. Sokolski. OK. I mean, here we are. You are on a panel 
with somebody I am thinking probably doesn't vote Republican 
all the time, right? I am talking about you. But they are 
agreeing on something. I think that should be noted.
    Mr. Shays. Well, they are disagreeing in terms of how to 
deal with Iran, though.
    Mr. Sokolski. Well, let's get on with that.
    Mr. Shays. They want to deal with Iran, but they are going 
in two different directions.
    Mr. Sokolski. Well, but let's get on with that.
    Mr. Shays. Yes.
    Mr. Sokolski. I think first I would endorse adopting the 
French suggestions, and the reason I do is those suggestions 
about how to tighten up the enforcement of the NPT came as a 
result of meetings that actually my center was involved in 4 
years ago, and these people are listening and innovating, and 
when they are right we should back the French. I can get you 
more information on that. It is even cited in the testimony. 
But that is what you are referring to, the non-paper that was 
given at the NPT Review Conference. I see nods, so that is one.
    Mr. Shays. OK. Speak to about what Egypt and Saudi Arabia 
does.
    Mr. Sokolski. Trouble. Saudi Arabia has publicly said that 
it is studying whether or not to lease or buy nuclear weapons 
from China and Pakistan. Now, what billboard do you need to get 
the story that gee, that could be a problem.
    Turkey has made it very clear that, well, you know, we have 
pipeline problems. And, by the way, they do. But oh, by the 
way, since they were involved in all those Pakistani Kahn 
problems, they are also folks who, when they look at the 
European Union, which they probably are never going to get 
into--I mean, think about that--may want to hedge their bets to 
get a little leverage.
    Egypt, if you think that the Israeli Prime Minister is 
speaking straight when he says not a problem----
    Mr. Shays. What's not a problem?
    Mr. Sokolski. Egypt. Egypt has already announced that they 
want to get more nuclear energy. That is code for the bomb. It 
is clear as day.
    Now, the people at this table and the panel one or panel 
two probably wouldn't say that, but if you talk to Egyptians 
about that speech--and I can get you people who read Arabic--
they will tell you that speech a few days ago by the heir 
apparent, Mubarak's son, is a signal. We are not going to let 
Iran have the bomb option, alone. And the reason why is Iran 
clearly wants to do this much. Look at their missile program. 
Forget the nuclear weapons for a moment. Look at the range 
arks. Those are diplomatic shadows over the region, and they 
intend to keep you guessing as to what they can load up on 
those things. That is the reason why Europe is getting a little 
nervous, because pretty soon, believe it or not, they are going 
to be in range with the latest follow-on missile, the Shahab-4.
    Mr. Shays. Well, you can fool me that they are getting 
concerned.
    Mr. Sokolski. Oh, no. The French government paid to have me 
come out and talk with people in Defense Ministry about an 
entire----
    Mr. Shays. That shows they are desperate, right?
    Mr. Sokolski. No, no. Well, it does that, too. I will 
agree. But I had a sort of plan, if you will, for--you know, 
the Iranians play chess. I understand they invented it. I don't 
know much about it because I don't speak Farsi. We play 
checkers probably compared to them. What you have to figure in 
chess is you have to be able to think three moves minimum. If 
you don't think three moves, I understand you can't play the 
game. You are just a victim. We are thinking one move, 
practically. The moves you have to think about--and here are 
some things you could do. You asked what we should do.
    Mr. Shays. Right.
    Mr. Sokolski. First of all, in the international basket the 
IAEA has a right under the additional protocol to what is 
called wide-area surveillance. That means they can go lots of 
places, put up sensors, send in inspectors. Guess what they 
haven't budgeted for? Standing up a force that could go into 
places like Iran with maybe 200 sensors. They will be crappy 
sensors. Don't get me wrong. This will not be a silver bullet. 
But there is nothing. They have not even done a bad job of 
standing up a wide-area surveillance capability. They need 
about $10 to $20 to $30 million. Guess what? They can't raise 
it because, well, everyone would be upset if we raised the 
fees. A spotlight needs to be put on that. That is outrageous.
    Mr. Shays. Is the implication--and I want to get to the 
other members--is the implication, in terms of raising dollars, 
that, while we are willing to put some more money in, there is 
very little concern on the part of the other member nations to 
contribute?
    Mr. Sokolski. I don't think there is enough. I think the 
French government, I think the German government, for a lot of 
complicated reasons, and the British government are interested, 
and I would not under-rate what certain elements in those 
governments are willing to do, because when I talked with them 
they were interested about the very thing that I think someone 
here took offense to. Maybe we need to buildup our forces in 
the region to enforce the law of the sea, which even Iran 
subscribes to, so that, instead of them threatening to close 
the straits, which is the strategic center of gravity--it is 
that oil that we have to worry about--maybe we could ruin their 
surviving such an embargo and imposing it.
    Now, that leads to a whole lot of other things you have to 
do. You have to make sure you can get the oil out of that 
region without going through the strait. The French and the GCC 
nations are focused on that like a laser beam. It means 
connecting certain pipes. It is not heroic.
    Mr. Shays. Let me just get to North Korea. Did you want to 
say something briefly?
    Mr. Granoff. Briefly. Resolution 687, which was the 
enabling resolution of the Security Council for the first Gulf 
War----
    Mr. Shays. Right.
    Mr. Granoff [continuing]. In section 14 called for creating 
a weapon of mass destruction free zone in the Middle East. Iran 
has been calling for that. Egypt has been calling for that. We 
have just simply been ignoring it.
    Mr. Shays. What does that mean? That Israel has to 
basically----
    Mr. Granoff. Well, obviously Israel is not going to join 
the party right away, but it would seem to me that it would be 
in our benefit to start a confidence-building series of 
conferences in the region amongst the parties because regional 
parties like Egypt don't want to see a total breakdown.
    Mr. Shays. Does it impact the United States? In other 
words, I make assumptions that we don't have a nuclear weapon 
on our carriers or--well, maybe I shouldn't on our submarines.
    Mr. Granoff. The effect on the United States to me would be 
to lower the saliency of nuclear weapons in the region would be 
very much in our interest, but Israel is a strategic partner 
and I don't think we want to really open up the can of worms of 
having a full-scale discussion about it. I think it is time. 
[Latin phrase.] I think it is time to put the truth out: Israel 
is not going to join----
    Mr. Shays. So it is primarily an issue of dealing with 
Israel is what I was trying to----
    Mr. Granoff. Exactly, and, of course, that is Egypt's sub-
text when they are saying they want to have a weapon of mass 
destruction free zone in the region, and Iran's. But the fact 
is that they also have interest, as you point out. Egypt is a 
Sunni country. Iran is a Shi'a country. They still live with 
the shadow of karbala over their heads. They haven't given that 
up. It is like Sherman's march. It happened yesterday for some 
people. I think we have to be sensitive to those dynamics. And 
so there are parties in the region, for their own interests 
within the Islamic world, who have an interest in making sure 
weapon of mass destruction don't proliferate, and I think we 
should take advantage of that because I think it is a good 
thing to stop it.
    Mr. Sokolski. Don't they have an interest in making sure 
that they identify Israel as having nuclear weapons? You want 
to be careful to promote confidence-building measures. I mean, 
Blix had a better idea, which is no reprocessing, no 
enrichment. Once Israel admits it has nuclear weapons, all hell 
will break loose there. Particularly the Egyptians will feel 
like they have to get them if they even admit it.
    Mr. Shays. OK. Let me just ask you about North Korea. Our 
panelists I think said North Korea is a bigger problem. What it 
raises for me, the concept that you can practically snap a 
finger and Japan could have a nuclear program. So what that has 
gotten me to think about is just the fact that Japan, what, has 
so much material close to being weapons grade, and that is 
because, what, their nuclear generation, or are there other----
    Mr. Sokolski. We gave them a green light back in the 
1980's. When I first came here and worked for Senator Gordon 
Humphrey--that is a long time ago--there was an agreement that 
we reached with Japan that let them strip out weapons-useful 
plutonium from spent fuel as a fuel spent fuel management 
technique. It wasn't economic. Still isn't. They have gone 
ahead and, as a result, they are piling up tons of weapons-
usable plutonium, and they can't figure out what to do with all 
of it.
    The Chinese looked at that, and the Chinese have a big 
stockpile of weapons-usable material, as well, and they are 
looking at one another, and that North Korean drama is a staged 
rehearsal for that bigger competition.
    Mr. Shays. But that is why the United States gets 
criticized for acting unilaterally, and we want with North 
Korea to act multilaterally because we believe that Japan and 
China and Russia and South Korea have something at stake here. 
The irony is that we are getting criticized for it, which is 
amazing to me.
    Mr. Sokolski. I think it is because people look at those 
six-party talks and they look at North Korea and they say this 
dog isn't going to hunt very much. I think there needs to be a 
flash of candor that everyone is sort of saying sub-text, which 
is ultimately you are going to have to wait North Korea out, 
much as you did with the Soviet Union. I mean, it is not going 
to be----
    Mr. Shays. No, no. We are not going to wait them out if 
they are going to develop a weapons program and then Japan 
decides they have to.
    Mr. Sokolski. That is where what you need to do is some of 
the things that the French are suggesting and isolate North 
Korea so it doesn't become an example for the others where it 
is either rewarded or we do nothing when it violates, No. 1.
    No. 2, yes, hold Japan close. I am sure, you know, our 
friend from The Heritage has lots of suggestions on how to 
enforce the alliance with Japan.
    Second of all, take a page out of the suggestion made right 
here. I think you mentioned China. Perhaps it is time to lean 
on China to stop being so unclear about the size and growth of 
its nuclear arsenal. I mean, everyone else is much more 
transparent, even the Russians. Even the Russians are more 
transparent, which is saying a lot. We are not focusing on that 
topic.
    Mr. Shays. Mr. Spring, what about North Korea?
    Mr. Spring. I think that Mr. Sokolski set the table for me 
very nicely. I think that what is really key here on the part 
of the United States is those positive security assurances that 
we provide our friends and allies in the region. That is one of 
the things I think that will really convince the Japanese to 
continue with their current policy with regard to not obtaining 
nuclear weapons, because they have the capability to do it 
very, very quickly, but they don't have, at least in the body 
politic as I look at Japan, the appetite to do that. But they 
will seek and they are seeking reassurance.
    I think, as a result of the situation with both China and 
North Korea, Japan has as close a security relationship with 
the United States as I can remember right now. So reinforcing 
the positive security relationship between the United States 
and Japan to foreclose a weapons incentive for them I think is 
a key element to addressing the problem.
    We played this same nuclear game I am talking about with 
Japanese nationals just in August, and the Japanese national 
player who was playing the Japanese equivalent player opted 
immediately to dispense with the nuclear weapons that the game 
assumed that he had at the outset. In other words, he went back 
to being a non-nuclear state, and at the same time he moved 
very strongly in the relationship with the United States, and 
it worked.
    He was able to avoid a direct nuclear conflict with either 
China or North Korea with the over-arching security 
relationship with the U.S., and it was based in part on the 
U.S. nuclear umbrella, it was based in part with regard to 
nuclear nonproliferation and arms control efforts that the U.S. 
was pursuing diplomatically--and we kept diplomatic records of 
what was going on--so that dynamic did play it out and Japan 
did not suffer for its decision that would presumably be 
irrational at one level, at least, that you look at it to say 
OK, even though all these other countries have nuclear weapons 
it is presumed in this game I am going to get rid of mine. I am 
just going to get rid of them.
    Mr. Shays. Mr. Granoff?
    Mr. Granoff. I had the privilege of being a guest of Kim 
Dae Jung and Mikhail Gorbachev in June, this past June, in Quan 
Ju, Korea, which was the birthplace of the democracy movement. 
They were celebrating the 20th anniversary of the democracy 
movement there, and they had a summit of Nobel Peace laureates. 
At those gatherings there were over 100 leaders from the 
industrial community of North Korea, the Minister of 
Unification of North Korea, and the Minister of Unification of 
South Korea, President of South Korea, and there was 2 weeks of 
deliberations specifically on these subjects.
    I learned much more than I had expected. As you might know, 
Kim Dae Jung was the author of the Sunshine Policy reaching out 
to North Korea and pushing for unification. The South Koreans 
know that if there is going to be unification they have to 
ensure that there won't be the economic shock that took place 
in East and West Germany. It would be even far greater. So 
there was a large number of businessmen there who were looking 
to invest in factories and trade with North Korea to try and 
normalize the economic disparity between the north and the 
south.
    It was also clear to me that there would be no unification 
if there are nuclear weapons in the peninsula, because South 
Korea has a very high interest in maintaining the 
nonproliferation aspects of the NPT. They know that if they 
were to have unification with nuclear weapons that Japan would 
be forced to follow suit, etc.
    So the kind of proposals that these learned people in the 
region informed me of--and I have shared this with the 
committee in my submission--talked about increasing trade. 
There is a railroad line that has already been laid.
    Now, while this was going on, if you look at the 
chronology, while these talks were going on North Korea did 
those missile tests. So what I concluded from that is there is 
a divided house in North Korea. There are clearly elements 
there that want to maintain the status quo, a status quo in 
which the North Korean people suffer tremendously, and there 
are also people who realize that the conditions of their people 
are a remnant of the cold war that they need to overcome. I 
think we should help those people reach out and increase trade, 
increase normalization, and isolate their military 
neanderthals.
    Mr. Shays. I would like to bring this to a close, but let 
me just ask you, so when I look at Iran, they could have a 
nuclear program, but when I look at Japan, they could have a 
nuclear program. It is quite different. You know, it is quite a 
different motivation and direction. Is there any other country 
in the world like Japan that is accumulating massive amounts of 
potential weapons grade material?
    Mr. Sokolski. Sure. You have reprocessing going on in 
weapons states, so that is good news.
    Mr. Shays. OK.
    Mr. Sokolski. You have the Netherlands, Germany doing 
enrichment, which means if they leave the switch on on the 
machine it could go up to weapons level. There are a number of 
countries that are making enrichment facilities--Argentina, 
Brazil, South Africa, Ukraine--who want to be considered 
nuclear fuel supplying nations under our program, the Global 
Nuclear Energy Partnership. Canada, Australia have voiced 
interest in making sure they get on the right side. So I think 
you have 15 years. If you----
    Mr. Shays. In a sense, isn't that just as concerning in a 
sense, if not----
    Mr. Sokolski. I have been trying to say all throughout my 
testimony nuclear fuel making is nuclear ready. Nuclear ready 
is as much of an uncertainty generator as the bomb itself. If 
you wink or encourage this or don't think through the security 
risks, you buy the farm. You are absolutely culpable if you let 
this continue. We did it for the last 40 years. We winked at 
Japan. We winked at the Netherlands. We winked at Germany, 
Brazil, South Africa. Now the bill is starting to come due 
because people are saying, well, why not us.
    Mr. Shays. OK. I think you may have started to answer the 
question I asked in a very confused way when we were talking 
about other countries looking at the United States and not 
taking the NPT seriously. They are seeing a number of 
particularly western European countries, some of the more 
developed South American countries--I was thinking at least 
South America is a nuclear free zone, but what you are telling 
me is----
    Mr. Sokolski. No, sir. I know too much. I worked in the 
Pentagon dismantling program secretly with the Argentinian 
government because they did not know what was going on with the 
rocket program, and with Brazil it was basically having their 
military dig a hole for a test. So it is all good and well to 
hope that no one that renounces will ever change their mind 
again, but we are all human.
    Mr. Shays. Let me do this. This has been a great hearing. 
It sure makes me want to be back here. Why don't I just ask is 
there anything we should have put on the record we didn't, and 
is there anything that you want to emphasize to make sure we 
get it? I will start with you, Mr. Sokolski.
    Mr. Sokolski. I guess since I talked so much and I went 
over I am only going to make one request.
    Mr. Shays. What is that?
    Mr. Sokolski. We are having a meeting co-sponsored by the 
French government. One of your staff wants to come. I hope he 
can come.
    Mr. Shays. And where is that meeting?
    Mr. Sokolski. In Paris. And we are actually getting a 
Congressman to come.
    Mr. Shays. When is that going to be?
    Mr. Sokolski. The 13th. That is the problem.
    Mr. Shays. The 13th of?
    Mr. Sokolski. November.
    Mr. Shays. Well, we will see you get a staff there.
    Mr. Sokolski. All right. Now, I get a percentage of his pay 
don't I? [Laughter.]
    Mr. Shays. No. Well, you know what, I am sure it will be an 
excellent conference.
    Mr. Granoff.
    Mr. Granoff. I will be leaving here and going to Ottawa 
tomorrow for a gathering of 25 middle-power countries.
    Mr. Shays. I thought you were going to ask me if you could 
be one of my staff so you could go to Paris.
    Mr. Granoff. I would be honored.
    Mr. Shays. You are not thinking.
    Mr. Granoff. I would be honored. There will be 25 middle-
powered countries, countries with good human rights records, 
countries friendly to the United States, countries that have 
renounced nuclear weapons, and countries that want to see 
progress on article six. In fact, it is called The Article Six 
Forum. It is convened by the middle powers initiative. That is 
where Dr. von Hippel was flying off and Dr. Blix, as well.
    Mr. Shays. Where is that going to be?
    Mr. Granoff. Ottawa. Foreign Minister MacKay will be giving 
an address on Thursday morning. The focus will be exactly what 
we are talking about. So this is a matter in which our friends 
are calling for progress.
    My deepest concern is that during the cold war there was 
some kind of qualified morality to the posture to the weapons. 
The logic was we have the weapons to ensure they won't be used. 
But there have been statements that have come out in recent 
years from our administration that indicates a backing away 
from that moral condemnation of the weapons and seems to 
indicate that it is not so much the weapons that are at issue 
but making sure the weapons are only in the hands of our 
friends.
    Now, this moves from the standard of the unacceptability of 
these horrific devices and from the power of law to the raw law 
of power, and countries that are friendly with us 1 day may not 
be friendly the next day. This is not the way to set a global 
norm, sort of taking the National Rifle Association philosophy 
at large: it is not the weapons, it is the people.
    But with nuclear weapons I think it is the weapons. I think 
that they are intrinsically incapable of distinguishing between 
civilians and combatants. I think that they are of a different 
caliber because of their effect on future generations. I think 
that we need to start thinking of nuclear weapons as something 
like the way we look at biological weapons, like the plague. It 
is not a benefit in anybody's hands.
    But by no means can we just get rid of them overnight. We 
have to build an edifice of peace and cooperation and security 
in the same way as we have built this edifice of destruction.
    I think that if we would say what are the criteria for 
building that edifice, do the steps enhance security, do they 
enhance law, do they stand on their own merits, and if they do 
and they follow on that compass point of disarmament--it is a 
compass point, not something we can reach overnight, but if it 
follows on that compass point I think we have to say that is in 
our interest. If we don't, we are going to be breeding 
incoherence.
    The Middle East, now that we have legitimized Pakistan's 
weapons, why would there not be a Middle East Treaty 
Organization like NATO with nuclear sharing? What is our 
argument against that? It is dangerous? It is de-stabilizing? 
Well, I mean, we have it in NATO.
    So I say let's get back to the principles of law that our 
country stands for and the principles of morality that our 
country stands for. That is in our security interest and that 
is the right thing to do.
    Mr. Shays. Thank you very much.
    Mr. Spring?
    Mr. Spring. Just two quick sort of practical things that I 
think that everybody in Congress has reached. One is that 
during the cold war there was a rather sharp divide between 
people who were regional specialists on the one hand, for 
example, in the State Department's Regional Bureau, to just 
take one department at a time here, versus the functional 
people that worked on arms control and nonproliferation 
matters.
    I think that there is a natural coming together with that, 
but I think it is something that Congress could probably help 
accelerate, and that is putting together real teams of 
functional and regional specialists to hash these issues out, 
because they have to be done in tandem, I think, now that the 
division that we had during the cold war between regional and 
functional isn't going to be as workable. It is not a huge 
step. It is a matter of really encouraging, you know, different 
ways of looking at how to handle issues within the bureaucratic 
wire diagrams, if you will, and I think that would be useful.
    The other is that what I see is going to be the next sort 
of ideological battle on this entire arms control 
nonproliferation front, which is one that Representative 
Kucinich raised, which I think is really a ruse, which is the 
weaponization of space issue. I think it is really artificial. 
I don't think it really comes to the heart of the concerns the 
United States should have for security. I think that the 
nuclear proliferation issue is much more important. I think 
almost as important are the other issues related to the 
proliferation of weapon of mass destruction.
    Mr. Shays. Let me be clear though. Are you advocating that 
there be nuclear weapons in space?
    Mr. Spring. No, not nuclear weapons. The weaponization of 
space thing is going to be really driven about missile 
defenses.
    Mr. Shays. OK.
    Mr. Spring. And also the survivability of U.S. military 
systems to support tactical operations from space.
    Mr. Shays. Is this in the end just to make sure--I wanted 
to make you smile, not look so serious. So you are just putting 
in a word that, while you think it is far more serious to deal 
with nonproliferation issues, you are saying that a defensive 
system is not something we should just dismiss.
    Mr. Spring. Exactly. That is exactly right. And it has to 
be really in space, in my judgment, because that is where the 
missiles fly.
    Mr. Shays. OK.
    Mr. Spring. The missiles fly in space.
    Mr. Shays. OK.
    Mr. Spring. And so we are talking about non-nuclear 
defensive systems that we would have in space, and also the 
same technologies go into making survivable our overall 
satellite networks that support very important tactical 
military operations all over the world.
    Mr. Shays. OK. Let me just say that Mr. Granoff disagrees, 
but I am not going to give him the opportunity to speak because 
I want to close this hearing up, but you do have the last word.
    Gentlemen, all three of you have been delightful, 
tremendously informative. I think my job is to listen, to 
learn, to help, and to lead, and I think you are helping me be 
a better leader and ultimately the Congress by your 
contribution to this afternoon and tonight, and I thank you all 
very, very much.
    With that I also thank the transcriber for stepping in and 
reminding me once again not to forget to swear in our 
witnesses.
    With that, we will adjourn this hearing. Thank you all very 
much.
    [Whereupon, at 7:37 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 35767.143

[GRAPHIC] [TIFF OMITTED] 35767.144

[GRAPHIC] [TIFF OMITTED] 35767.145

[GRAPHIC] [TIFF OMITTED] 35767.146

[GRAPHIC] [TIFF OMITTED] 35767.147

[GRAPHIC] [TIFF OMITTED] 35767.148

[GRAPHIC] [TIFF OMITTED] 35767.149

[GRAPHIC] [TIFF OMITTED] 35767.150

[GRAPHIC] [TIFF OMITTED] 35767.151

[GRAPHIC] [TIFF OMITTED] 35767.152

                                 <all>

</pre></body></html>
